Office of Inspector General
Semiannual Report to Congress


April 1, 2000 – September 30, 2000
                                                FOREWORD



I am pleased to submit the semiannual report on the activities of the Department of
Veterans Affairs (VA), Office of Inspector General (OIG) for the period ended
September 30, 2000. The OIG is dedicated to help ensure that veterans and their
families receive the care, support, and recognition they have earned through service to
their country. This report is issued in accordance with the provisions of the Inspector
General Act of 1978, as amended.

Most significant in the protection of veterans was the prosecution of Dr. Michael
Swango. After a 7-year investigation by our Office of Investigations, with assistance by
our Office of Healthcare Inspections, Swango pleaded guilty in Federal court to the
murder of three veterans under his care at a VA medical center (VAMC). He also
admitted to the murder of a 19-year-old patient at a university hospital in 1984. Swango
was sentenced to three consecutive life terms in prison with no possibility of parole.

Our criminal investigations continue to target cases of public corruption and major
thefts, instances where incapacitated veterans fall victim to unscrupulous individuals,
and fraud involving programs for the delivery of benefits to veterans. We place a priority
on safety and security at VA medical centers. Allegations of fraud demand an
immediate response. The OIG will take decisive action against those who prey on
veterans and will hold accountable those VA employees who disregard their public trust
responsibilities. During the period, OIG criminal and administrative investigations yielded
174 arrests, 156 indictments, 122 criminal convictions, and 195 administrative actions,
foremost of which were cases involving fraud and employee misconduct.

Our oversight of VA, the second largest Department in the Federal Government, covers
medical care, benefits administration, procurement, financial management, facilities
management, and information technology. The audits and evaluations focused on
determining how programs can work better, while improving service to veterans and
their families. OIG audits, investigations, and other reviews identified over $54 million in
monetary benefits. For example, an audit presented opportunities to reduce
pharmaceutical inventories by over 59 percent or $31 million. Monetary benefits of this
type can be redirected to programs that can improve or increase services to veterans.
In addition, a noteworthy accomplishment was our evaluation of security controls for VA
automated data processing systems that identified a number of significant control
weaknesses and provided several recommendations for enhancing security of the
systems tested.
Since VA operates the largest health care system in the United States, the focus of OIG
Healthcare Inspections is on quality of care issues. This includes a proactive review of
the Veterans Health Administration’s (VHA’s) patient safety program. Healthcare
inspectors also oversee VHA’s Office of Medical Inspector activities and review the
adequacy of VA’s responses to allegations of inadequate health care management and
patient care.

The OIG’s ongoing Combined Assessment Program (CAP) evaluates the quality,
efficiency, and effectiveness of VA facilities. Through this program, auditors,
investigators, and healthcare inspectors collaborate to assess key operations and
programs at VAMCs on a cyclical basis. The 14 CAP reviews completed during this 6-
month reporting period highlighted numerous opportunities for improvement in quality of
care, management controls, and fraud prevention. Through increased or restructured
resources, I am committed to extending this program to enable more frequent oversight
of VA activities.

I look forward to continued partnership with the Secretary and the Congress in improving
service to our Nation's veterans.



(original signed by:)
RICHARD J. GRIFFIN
Inspector General
                                           VA OIG
                                         CASE OF 2000
           INSPECTOR
            GENERAL




For 7 years, VA OIG agents and healthcare inspectors, along with the Office of the
U.S. Attorney and the FBI worked to put Dr. Michael J. Swango permanently
behind bars. On September 7, 2000, Swango pleaded guilty to the murder of three
veterans in his care at VA Medical Center (VAMC) Northport, NY. He was
sentenced to three consecutive life terms without the possibility of parole for the
VAMC murders.

                          The Ohio Murder and Assault
Michael Swango graduated from the Southern Illinois University Medical School in 1983 and
began the internship program at Ohio State University Hospital upon his graduation. As spelled
out in the indictment, while working as an intern at Ohio State University Hospital in January
1984, Dr. Swango murdered Cynthia McGee by injecting her with a lethal dose of potassium. In
February 1984, he assaulted his patient, Rena Cooper, by injecting her with a poisonous sub-
stance. She survived the attack. After that assault, Ohio State University Hospital removed Dr.
Swango from the residency program, and in 1985 Ohio          discharged from the program after hospital adminis-
authorities commenced a murder investigation into his        trators became aware of the facts surrounding his con-
activities. Although that investigation did not result in    viction and his activities at Ohio State University Hos-
the filing of charges against Swango, he did learn of the    pital.
investigation and concealed the fact that he was inves-
tigated for murdering patients from the other hospitals  In 1993, Swango applied for and obtained a position
that subsequently hired him.                             as a medical resident at the State University of Stony
                                                         Brook Medical School, which ran a residency program
  Adams County Ambulance Service at VAMC Northport. During the application process,
                                                         he misrepresented that his criminal conviction in Illi-
In 1985, Swango began employment at the Adams nois stemmed from a barroom brawl; a false statement
County, Illinois, Ambulance Service as an emergency that ultimately led to his conviction and incarceration
medical technician. According to the indictment, he on Federal charges.
poisoned several of his co-workers there with arsenic.
They later recovered and he was tried and convicted of Thereafter, Swango murdered George Siano, Aldo
aggravated battery. He was sentenced to a 5-year term Serini and Thomas Sammarco, while all three were
of imprisonment.                                         patients at VAMC Northport. Swango killed all three
                                                         patients by administering injections of toxic substances.
                                                         In addition, Swango also injected a poison into another
     Northport Murders and Assault                       patient at the hospital, Barron Harris. Mr. Harris sur-
                                                         vived the incident.
Several years after his release from an Illinois prison,
Swango sought admission to several medical residency In October 1993 Swango was discharged from his resi-
programs. In 1992, he was hired by the University of dency at VAMC Northport, and was later charged with
South Dakota and assigned to work as a resident at the making a false statement to Federal officials and im-
VAMC Sioux Falls, South Dakota, after he falsified proper use of controlled substances in connection with
facts about his prior criminal conviction. Swango was    his employment there. Before those charges were filed




         VA OIG, FBI and Federal Prosecutors speak to the press outside the U.S. District Court House in Central
         Islip, NY following the conviction of Dr. Michael Swango for the murder of three veteran patients at the
         Northport VA Medical Center.
however, he fled the United States and was hired as a
physician at the Zimbabwe Association of Church
Hospitals.

          The Zimbabwe Assaults
On May 14, 1995 and July 7, 1995, respectively,
Swango administered injections of toxic substances
into his patients Kenias Mueaza and Virginia Sibanda,
both of whom were under his care at Mnene Hospital
in Zimbabwe, Africa. Both survived Swango’s at-
tacks. Swango was suspended from practice at Mnene
Hospital in July 1995.

                  Saudi Arabia
In 1997, as a result of false statements, Swango ob-
tained employment as a physician through KAMA                         VA IG Richard Griffin and U.S.
Enterprises, Inc., an employment agency in Portland,                     Attorney Loretta Lynch
Oregon, and was assigned to work as a physician at
the Royal Hospital in Dharan, Saudi Arabia. In June
1997, Swango was arrested in a Chicago airport on
his way from Africa to Saudi Arabia, to begin his
employment there. He was arrested for the false state-
ment and controlled substance charges that had been
filed in the Eastern Judicial District of New York.

               Making the Case                              “Through a web of lies and deception, Michael
                                                            Swango inveigled his way into the confidence of hos-
While Swango was imprisoned on this charge, VA OIG          pital administrators across the country and the world.
investigators and healthcare inspectors, FBI agents,        Once in their trust and employ, he utilized his skills
                                                            to search for victims and take their lives. This case
and U.S. Attorneys had limited time to find the evi-
                                                            is the result of the hard work and diligent efforts of
dence to make the case for the three deaths which hap-      not just this office but of the Federal Bureau of In-
pened in a federal facility. Extensive review of records,   vestigation and the Department of Veterans Affairs
laboratory studies, and interviewing witnesses in the       Office of Inspector General, who were determined
United States and Africa took thousands of hours. In        that Swango be held accountable for his actions and
that effort, the team received the full cooperation and     not be allowed to victimize others. I thank both of
support from the management and staff at VA Medical         those agencies for their dedication and determina-
Center Northport, NY.                                       tion in investigating this matter, across the years and
                                                            the globe. We extend our deepest sympathies to the
                                                            victims and their families.”
     The Guilty Plea and Sentence                                                                 Loretta E. Lynch
                                                                                            United States Attorney
Faced with the possibility of a death sentence, Swango
pleaded guilty to the murder of the three veterans in
New York and was sentenced to three consecutive life
terms without parole.
                                                   TABLE OF CONTENTS
                                                                                                                                                               Page

HIGHLIGHTS OF OIG OPERATIONS ..........................................................................................................                          i
VA AND OIG MISSION, ORGANIZATION, AND RESOURCES.................................................................                                                 1
COMBINED ASSESSMENT PROGRAM .....................................................................................................                                7
OFFICE OF INVESTIGATIONS
     Mission Statement ..............................................................................................................................           15
     Resources...........................................................................................................................................       15
     Criminal Investigations ......................................................................................................................             15
             Veterans Health Administration ............................................................................................                        16
             Veterans Benefits Administration..........................................................................................                         27
             Board of Veterans’ Appeals ..................................................................................................                      39
             Office of Human Resources and Administration ..................................................................                                    39
             National Cemetery Administration ........................................................................................                          40
             OIG Forensic Documents Laboratory...................................................................................                               40
     Administrative Investigations .............................................................................................................                41
             Veterans Health Administration ............................................................................................                        42
             Veterans Benefits Administration..........................................................................................                         43
OFFICE OF AUDIT
     Mission Statement ..............................................................................................................................           45
     Resources...........................................................................................................................................       45
     Overall Performance...........................................................................................................................             45
             Veterans Health Administration ............................................................................................                        46
             Veterans Benefits Administration..........................................................................................                         49
             Office of Management ..........................................................................................................                    50
             Multiple Office Action ............................................................................................................                52
             Implementation of GPRA in VA ............................................................................................                          53
OFFICE OF HEALTHCARE INSPECTIONS
     Mission Statement ..............................................................................................................................           55
     Resources...........................................................................................................................................       55
     Overall Performance...........................................................................................................................             55
            Veterans Health Administration..............................................................................................                        55
OFFICE OF MANAGEMENT AND ADMINISTRATION
     Mission Statement .............................................................................................................................            61
     Resources...........................................................................................................................................       61
     Hotline Division ...................................................................................................................................       62
             Veterans Health Administration ............................................................................................                        63
             Veterans Benefits Administration..........................................................................................                         68
             National Cemetery Administration ........................................................................................                          69
             Board of Veterans’ Appeals ..................................................................................................                      69
     Operational Support Division..............................................................................................................                 70
     Status of OIG Reports Unimplemented for Over 3 Years..................................................................                                     71
             Veterans Health Administration ............................................................................................                        72
             Veterans Benefits Administration..........................................................................................                         73
     Information Technology and Data Analysis Division..........................................................................                                74
     Resources Management Division ......................................................................................................                       78
OTHER SIGNIFICANT OIG ACTIVITIES
     President’s Council on Integrity and Efficiency ..................................................................................                         79
     OIG Management Presentations........................................................................................................                       79
     Awards ................................................................................................................................................    80
     OIG Congressional Testimony ...........................................................................................................                    81
     Obtaining Required Information or Assistance ..................................................................................                            81
                                                                                                                             Page

APPENDIX A -   REVIEWS BY OIG STAFF ...................................................................................... 83
APPENDIX B -   CONTRACT REVIEWS BY OTHER AGENCIES .................................................. 91
APPENDIX C -   CONTRACT REVIEW REPORTS FOR WHICH A CONTRACTING
               OFFICER DECISION HAD NOT BEEN MADE FOR
               OVER 6 MONTHS .................................................................................................... 93
APPENDIX D -   FOLLOW UP/RESOLUTION OF OIG REPORTS ......................................... 97
APPENDIX E -   REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL .................. 101
APPENDIX F -   OIG OPERATIONS PHONE LIST.............................................................. 103
APPENDIX G -   GLOSSARY.......................................................................................... 105
                                    HIGHLIGHTS OF OIG OPERATIONS


This semiannual report highlights the activities and accomplishments of the Department of Veterans
Affairs (VA) Office of Inspector General (OIG) for the 6-month period ended September 30, 2000. The
following statistical data highlights OIG activities and accomplishments during the reporting period.

     DOLLAR IMPACT                                                                                Current 6 Months               FY 2000
                                                                                                   4/1/00 – 9/30/00           10/1/99 – 9/30/00
                                                                                                                    Dollars in Millions
             Funds Put to Better Use.............................................................. $41.7                          $302.2
             Dollar Recoveries .........................................................................$6.0                       $11.4
             Fines, Penalties, Restitutions, and Civil Judgments .....................$7.2                                         $13.8

     RETURN ON INVESTMENT
             Dollar Impact ($54.9) / Cost of OIG Operations ($24.6) ............. 2 : 1
             Dollar Impact ($327.4) / Cost of OIG Operations ($45.4) ...........                                                      7:1

     OTHER IMPACT
             Arrests ........................................................................................ 174                   338
             Indictments ................................................................................. 156                      280
             Convictions................................................................................. 122                       247
             Administrative Sanctions ........................................................... 195                               496

     ACTIVITIES

         Reports Issued
           Combined Assessment Program...................................................14                                          18
           Audits ...........................................................................................19                      35
           Contract Reviews .........................................................................24                              40
           Healthcare Inspections ................................................................. 9                                15
           Administrative Investigations....................................................... 8                                    16

         Investigative Cases
            Opened ....................................................................................... 478                      882
            Closed......................................................................................... 316                     545

         Hotline Activities
           Contacts................................................................................... 8,319                    15,771
           Cases Opened ............................................................................. 547                          985
           Cases Closed .............................................................................. 461                         717


OFFICE OF INVESTIGATIONS

Overall Focus

During the semiannual period, the Office of Investigations focused its resources on investigations that
have the highest impact on the programs and operations of the Department. Criminal investigative



                                                                         i
priority continues to target cases of public corruption, procurement fraud, healthcare fraud, instances
where incapacitated veterans fall victim to unscrupulous fiduciaries, and fraud involving programs for the
delivery of benefits to veterans. Emphasis has also been placed on safety and security at VA medical
centers (VAMCs) and a strong working relationship has been developed with the VA Office of Security
and Law Enforcement along with VA police throughout the nation. Immediate response to criminal
allegations is absolutely essential and demonstrates that the OIG will take decisive action against those
who prey on veterans and will hold accountable those VA employees who disregard their public trust
responsibilities.

Results

During the period, the Criminal Investigations Division concluded 316 investigations resulting in 278
judicial actions and over $13.9 million recovered or saved. Investigative activities resulted in the arrests
of 174 individuals who had committed crimes involving VA programs and operations or on VA facilities.
In addition, the division realized monetary benefits of approximately $9 returned or saved by the
Government for each dollar spent. The Administrative Investigations Division concentrated its resources
on investigating allegations against high-ranking VA officials concerning misconduct and other matters of
interest to the Congress and the Department. The division completed 22 administrative investigations this
period and issued 8 reports. These investigations resulted in administrative action taken against 11 high-
ranking officials and other employees, and 7 corrective actions taken by management to improve VA
operations and activities.

Veterans Health Administration (VHA) and Veterans Benefit Administration (VBA)

The Office of Investigations, working hand-in-hand with VA police, assisted in over 40 arrests of
individuals who committed crimes at VAMCs. Over 300 investigations were initiated in the benefits
fraud area of individuals that were fraudulently diverting VA funds. This period brought the conclusion
to many investigative cases which led to significant results. A former VA employee was sentenced to 25
years in prison after admitting to stealing drugs and video equipment from a VA hospital. He used the
equipment to videotape himself in sexual acts with underage children whom he had knocked out with
stolen drugs. In another high profile investigation, a pastor of a church pleaded guilty to stealing over
$118,000 in VA funds. The individual diverted the funds, earmarked for a homeless veteran project, to a
real estate business that he operated. Most significant was the completion of a 7-year investigation
resulting in guilty pleas by Dr. Michael Swango to three counts of murder and two counts of fraud.

OFFICE OF AUDIT

Audit Saved or Identified Improved Uses for $40.6 Million

Audits and evaluations were conducted which focused on determining how programs can work better,
while improving service to veterans. During this reporting period, 33 performance, financial, and
Combined Assessment Program (CAP) audits, evaluations, and reviews, as well as 24 contract reviews
identified opportunities to save or make better use of $40.6 million. The Office of Audit returned $3 for
every dollar spent on performance and financial audits. Contract reviews returned $8 in monetary benefits
for every dollar spent.




                                                     ii
Veterans Health Administration

The following are examples of major health care related audits. Our audit of VAMC pharmaceutical
inventories found that VA could further reduce inventories by effectively using modern techniques and
automated inventory management. We reported that pharmaceutical inventories could be reduced by
$31 million. Also an audit of VA’s Workers’ Compensation Program (WCP) found that a Veterans
Integrated Service Network (VISN) had initiated action to help improve WCP management. However,
additional efforts were needed to strengthen case management to assure the appropriateness of some
claims which would reduce annual costs by $3 million with an estimated lifetime benefit reduction of $38
million.

Veterans Benefits Administration

At the request of the Under Secretary for Benefits, and with other OIG components, we audited internal
controls for the adjudication and payment of Compensation and Pension (C&P) benefits at VA Regional
Office (VARO) St. Petersburg, FL. The purpose of the audit was to determine whether internal control
vulnerabilities existed that may facilitate fraud or claims examination error, and to probe for potential on-
going fraud that may have escaped detection by VA and VARO controls. We confirmed that 16 of 18
categories of vulnerability reported in our last semiannual report were present at VARO St. Petersburg.
Also, 139 cases of potential fraud were referred for investigation or administrative review.

Office of Management

As part of the Consolidated Financial Statements (CFS) audit, we issued eight management letters
addressing financial reporting and control issues. The management letters provided Department
managers additional observations and advice that will enable the Department to improve day-to-day
accounting operations and controls, and help sustain VA’s efforts in achieving an unqualified opinion on
its CFS. The management letters contained observations concerning: (i) VBA’s benefit program; (ii)
property, plant, and equipment; (iii) payroll; (iv) medical facility receivables; and (v) automated data
processing (ADP) security.

Contract Review and Evaluation

During the period, we completed 24 contract reviews – 12 postaward and 12 preaward reviews. Contract
reviews identified monetary benefits of $7.8 million associated with postaward and preaward reviews,
resulting from contractor actual or potential overcharges to VA.

Multiple Office Action

As part of our audit of VA's FY 1999 CFS, the OIG, together with a contracted independent public
accounting firm, conducted penetration tests of selected VA systems. The review identified significant
control weaknesses that allowed unauthorized access to sensitive VA data. We made several
recommendations as well as additional specific findings and measures for enhancing security of the
systems tested. The results of this audit led to a hearing by the House Committee on Veterans’ Affairs
and establishment of a Department wide correction plan to eliminate VA’s ADP vulnerability to
penetration.




                                                     iii
OFFICE OF HEALTHCARE INSPECTIONS

During this reporting period, CAP reviews occupied approximately 75 percent of Office of Healthcare
Inspections (OHI) resources. In addition, OHI focused on more active oversight of the 82 Hotline cases
sent to VHA program offices and the VHA Medical Inspector. In 11 of these cases, OHI was not satisfied
with the VHA response and recommended that it receive further study. The reporting period also saw the
culmination of the Swango case. Throughout the 7 years of this investigation, which is detailed elsewhere
in this report, OHI staff worked diligently as clinical team member/consultants to the Office of
Investigations in order to locate and develop evidence sufficient for conviction of Dr. Swango.

Program Review

A major program review of this period was conducted in response to inquiries received from veterans
service organizations on whether VHA clinicians were appropriately discharging long-term VA nursing
home care unit (NHCU) patients to community-based facilities. OHI visited 6 of the 13 sites found to
have an average length-of-stay over the national average, concentrating on patients who had been in a VA
NHCU for more than 730 days. We concluded that effective discharge planning was accomplished at the
sites visited using interdisciplinary treatment teams. However, clinicians did not document that they
advised patients and families of their due process discharge appeal procedures.

OFFICE OF MANAGEMENT AND ADMINISTRATION

Hotline

The Hotline program provides an opportunity for employees, veterans, and other concerned citizens to
report fraud, waste, abuse, and mismanagement. The identification and reporting of issues such as these
are integral to the goal of improving the efficiency and effectiveness of the Government. During the
reporting period, the Hotline received 8,319 contacts. We opened 537 cases, and closed 461 cases which
contained 204 substantiated allegations. Hotline staff responded to 139 inquiries received from members
of the Senate and House of Representatives. The cases we opened led to 46 administrative sanctions
against employees and 75 corrective actions taken by management to improve VA operations and
activities. Our reviews identified: (i) employees and contractors who abused time and leave; (ii)
supervisors who abused their authority and accepted gifts from subordinates; (iii) several instances of
misconduct by medical staff in the care and treatment of veteran patients; and (iv) problems in VBA
operations with a number of compensation and pension cases that warranted corrective action by
management.

Follow Up on OIG Reports

The Operational Support Division tracks implementation actions on issued audits, inspections, and
reviews with over $946 million of actual or potential monetary benefits as of September 30, 2000. Of this
amount, $857 million is resolved as VA officials have agreed to implement the recommendations, but
have not yet done so. In addition, $89 million relates to unresolved reviews awaiting contract resolution
by VA contracting officers. After obtaining information that showed VA officials had fully implemented
corrective actions, the Division took action to close 67 internal reports and 279 recommendations with a
monetary benefit of $65 million.




                                                   iv
Status of OIG Reports Unimplemented for Over 3 Years

VA management officials are required to provide the OIG with documentation showing the completion of
corrective actions taken on OIG reports. In the majority of cases, program offices provide us with the
actions required to implement the reports in a reasonable period. However, we are concerned about five
OIG reports that were issued in FY 97 and earlier that remain unimplemented. VHA has three reports
(one report issued in each of FYs’ 94, 96, and 97), and VBA has two reports (both issued in FY 97).




                                                  v
vi
VA AND OIG MISSION, ORGANIZATION, AND
RESOURCES
The Department of
Veterans Affairs (VA)
Background
In one form or another, American governments                          810 Vermont Avenue
have provided veterans benefits since before the
Revolutionary War. VA’s historic predecessor                          [picture not available]
agencies demonstrate our Nation’s long
commitment to veterans.

The Veterans Administration was founded in
1930, when Public Law 71-536 consolidated the            810 Vermont Avenue, NW, Washington, DC
Veterans’ Bureau, the Bureau of Pensions, and
the National Home for Disabled Volunteer
Soldiers.
                                                         Organization
The Department of Veterans Affairs was
established on March 15, 1989, by Public Law
100-527, which elevated the Veterans                     VA has three administrations that serve
Administration, an independent agency, to                veterans:
Cabinet-level status.                                    • Veterans Health Administration (VHA)
                                                         provides health care,
                                                         • Veterans Benefits Administration (VBA)
Mission                                                  provides benefits, and
                                                         • National Cemetery Administration (NCA)
VA's motto comes from Abraham Lincoln's
                                                         provides interment and memorial services.
second inaugural address, given March 4, 1865,
"to care for him who shall have borne the battle
                                                         To support these services and benefits, there are
and for his widow and his orphan." These words
                                                         six Assistant Secretaries:
are inscribed on large plaques on the front of the
VA Central Office building on Vermont Avenue             • Management (Budget, Finance, Acquisition
in Washington, DC.                                       and Materiel Management),
                                                         • Information and Technology,
The Department’s mission is to serve America’s           • Policy and Planning,
veterans and their families with dignity and             • Human Resources and Administration
compassion and to be their principal advocate in         (Equal Opportunity, Human Resources
ensuring that they receive the care, support, and        Management, Administration, Security and Law
recognition earned in service to this Nation.            Enforcement, and Resolution Management),
                                                         • Public and Intergovernmental Affairs, and
                                                         • Congressional Affairs.




                                                     1
VA and OIG Mission, Organization and Resources
In addition to VA’s Office of Inspector General,        be guaranteed in FY 2000, with a value of
other staff offices providing support to the            almost $32 billion.
Secretary include the Board of Contract
Appeals, the Board of Veterans’ Appeals, the            The National Cemetery Administration currently
Office of General Counsel, the Office of Small          operates and maintains 119 cemeteries with
and Disadvantaged Business, the Centers for             approximately 1,400 employees in FY 2000.
Minority Veterans and for Women Veterans, and           Operations of NCA and all of VA’s burial
the Office of Employment Discrimination                 benefits account for approximately $300 million
Complaint Adjudication.                                 of VA’s $45.5 billion budget. Interments in VA
                                                        cemeteries continue to increase each year, with
Resources                                               83,300 estimated for FY 2000. Approximately
                                                        343,000 headstones and markers will be
                                                        provided for veterans and their eligible
While most Americans know that VA exists,
                                                        dependents in VA and other Federal cemeteries,
few have any idea of the size of the Department,
                                                        state veterans’ cemeteries, and private
which is the Nation’s second largest in terms of
                                                        cemeteries.
staffing. For FY 2000, VA had a $45.5 billion
budget and approximately 202,600 employees.
There are an estimated 25.9 million living              VA Office of Inspector
veterans. To serve our Nation’s veterans, VA
maintains facilities in every state of the union,       General (OIG)
the District of Columbia, the Commonwealth of
Puerto Rico, Guam, and the Philippines.                 Background
Approximately 186,000 of VA’s employees                 VA’s OIG was administratively established on
work in the health care system. Health care is          January 1, 1978, to consolidate audit,
funded at $19.6 billion, approximately 43               investigation, and related operations into a
percent of VA’s budget in FY 2000. VHA                  cohesive, independent organization. In October
provides care to an average of 58,100 inpatients        1978, the Inspector General Act (Public Law 95-
daily. During FY 2000, slightly more than 40            452) was enacted, establishing a statutory
million episodes of care are estimated for              Inspector General (IG) in VA.
outpatients. There are 172 hospitals, 766
outpatient clinics, 132 nursing home units, and
40 domiciliaries.
                                                        Role and Authority
                                                        The Inspector General Act of 1978 states that
Veterans benefits are funded at $24.8 billion,
                                                        the IG is responsible for: (i) conducting and
almost 55 percent of VA’s budget in FY 2000.
                                                        supervising audits and investigations; (ii)
The 11,300 employees of VBA provide benefits
                                                        recommending policies designed to promote
to veterans and their families. Approximately
                                                        economy and efficiency in the administration of,
2.6 million veterans and their beneficiaries
                                                        and to prevent and detect fraud and abuse in, the
receive compensation benefits valued at
                                                        programs and operations of VA; and (iii)
$19 billion. Also, over $3 billion in pension
                                                        keeping the Secretary and the Congress fully
benefits are provided to veterans and survivors.
                                                        informed about problems and deficiencies in VA
VA life insurance programs have 4.5 million
                                                        programs and operations and the need for
policies in force with a face value of over
                                                        corrective action.
$450 billion. Almost 280,000 home loans will




                                                    2
                                                VA and OIG Mission, Organization and Resources
The Inspector General Act Amendments of 1988               The percent of OIG resources, which have been
provided the IG with a separate appropriation              devoted during this semiannual reporting period
account and a revised and expanded procedure               in VA’s major organizational areas, are
for reporting semiannual workload to Congress.             indicated in the following chart.
The IG has authority to inquire into all VA
programs and activities as well as the related
activities of persons or parties performing under                                VHA
                                                                                 49%
grants, contracts, or other agreements. The
inquiries may be in the form of audits,
investigations, inspections, or other appropriate
actions.                                                                                        Financial
                                                                                               Management
                                                                        A&MM                       12%
                                                                         11%
Organization                                                                                     Information
                                                                                                 Technology
                                                                                       VBA           2%
Allocated full time equivalent (FTE) for the FY                                        26%
2000 staffing plan was as follows:

                                                           The following chart indicates the percent of OIG
                                 ALLOCATED                 resources which have been devoted to mandated,
           OFFICE
                                    FTE                    reactive, and proactive work.
 Inspector General                       4
 Counselor                               5
 Investigations                                                       Reactive               Mandated
                                      108                                 48%                    12%
 Audit                                166
 Management and
 Administration                         52
                                                                                               Proactive
 Healthcare Inspections                 34                                                          40%
           TOTAL                      369

In addition, 24 FTE are reimbursed for a                   Mandated work is required by law and the
Department contract review function.                       Office of Management and Budget (OMB);
                                                           examples are our audits of VA’s consolidated
FY 2000 funding for OIG operations was                     financial statements, follow up activities, and
$45.4 million, with $43.2 million from                     Freedom of Information Act information
appropriations and $2.2 million through                    releases.
reimbursable agreements. Approximately
72 percent of the total funding was for salaries           Reactive work is generated in response to
and benefits, 6 percent for official travel, and the       requests for assistance received from external
remaining 22 percent for all other operating               sources concerning allegations of fraud, waste,
expenses such as contractual services, rent,               abuse, and mismanagement. Most of the work
supplies, and equipment.




                                                       3
VA and OIG Mission, Organization and Resources
performed by the Offices of Investigations is         OIG Mission Statement
reactive.
                                                        The OIG is dedicated to helping VA ensure
Proactive work is self-initiated, focusing on           that veterans and their families receive the
areas where the OIG staff determines there are          care, support, and recognition they have
significant issues; some healthcare inspections         earned through service to their country.
and most audits fall into this category.                The OIG strives to help VA achieve its
                                                        vision of becoming the best managed
                                                        service delivery organization in
                                                        Government. The OIG continues to be
                                                        responsive to the needs of its customers by
                                                        working with the VA management team to
                                                        identify and address issues that are
                                                        important to them and the veterans served.

                                                        In performing its mandated oversight
                                                        function, the OIG conducts investigations,
                                                        audits, and health care inspections to
                                                        promote economy, efficiency, and
                                                        effectiveness in VA activities, and to detect
                   TechWorld                            and deter fraud, waste, abuse, and
                                                        mismanagement. The OIG’s oversight
             [picture not available]                    efforts emphasize the goals of the National
                                                        Performance Review and the Government
                                                        Performance and Results Act (GPRA) for
                                                        creating a Government that works better
                                                        and costs less. Inherent in every OIG
                                                        effort are the principles of quality
                                                        management and a desire to improve the
                                                        way VA operates by helping it become more
                                                        customer driven and results oriented.

                                                        The OIG will keep the Secretary and the
    TechWorld, home to the VA Office of                 Congress fully and currently informed
            Inspector General                           about issues affecting VA programs and
                                                        the opportunities for improvement. In
                                                        doing so, the staff of the OIG will strive to
                                                        be leaders and innovators, and perform
                                                        their duties fairly, honestly, and with the
                                                        highest professional integrity.




                                                  4
                                                              DEPARTMENT OF VETERANS AFFAIRS
                                                                OFFICE OF INSPECTOR GENERAL

                                                                                     Inspector General
                                       Executive Assistant                           ______________                          Counselor to Inspector General
                                                                                          Deputy


         Assistant Inspector General
                                                             Assistant Inspector General            Assistant Inspector General                         Assistant Inspector General
              Management and
                                                                    Investigations                           Auditing                                     Healthcare Inspections
               Administration
                                                               __________________                     _________________                                    _________________
           _________________
                                                                       Deputy                                 Deputy                                              Deputy
                   Deputy




                            Operational              Administrative               Criminal          Contract Review                               Medical Officer         Planning and
       Hotline
                             Support                 Investigations            Investigations       and Evaluation                                 Consultant            Special Projects


                                                                                      Benefits




5
      Information                                                                      Fraud             Financial
                            Resources                Analysis and                                                                   EDP Audit                Regional Offices
    Technology and                                                                                         Audit
                           Management                 Oversight                                                                                                  Atlanta
     Data Analysis
                                                                                     Computer                                                                   Chicago
                                                                                     Crimes and                                                               Los Angeles
                                                                                     Forensics                                                               Washington D.C.
     Field Office                                                                                                                   Operational
       Austin                                                                                       Audit Planning
                                                                                                                                     Support
                                                                                     Healthcare
                                                                                       Fraud


                                                      Field Offices                 Procurement                Operations Divisions
                                                        Chicago                        Fraud                     Central Office
                                                      Los Angeles                                                   Atlanta
                                                       New York                                                     Bedford
                                                     St. Petersburg                   Forensic                      Chicago
                                                                                     Documents                       Dallas
                                                                                     Laboratory                   Kansas City
                                                                                                                  Los Angeles
                                                   Resident Agencies                                                Seattle
                                             Atlanta           Boston
                                             Columbia          Dallas
                                             Denver            Houston
                                             Kansas City       Nashville
                                                                                                                     Sub-Offices
                                             New Orleans       Newark
                                                                                                                       Austin
                                             Phoenix           Pittsburgh
                                                                                                                     Philadelphia
                                             San Francisco     Washington
                                                     West Palm Beach
VA and OIG Mission, Organization and Resources




                                       6
COMBINED ASSESSMENT PROGRAM
Combined Assessment Program                            privileging, agent cashier activities, data
Overview                                               integrity, and the medical care cost fund.

                                                       Representatives from the Office of Healthcare
The Combined Assessment Program (CAP) is               Inspections conduct proactive reviews which
part of the OIG's effort to ensure that quality        incorporate the use of standardized survey
health care service is provided to our Nation’s        instruments. The reviews evaluate care provided
veterans. The CAP provides cyclical oversight          in VA health care facilities and procedures for
of VA medical facility operations; focusing on         ensuring the appropriateness and safety of
the quality, efficiency, and effectiveness of          patient care. The facilities are evaluated to
service provided to veterans.                          determine the extent to which they are
                                                       contributing to VHA's ability to accomplish its
The CAP combines the skills and abilities of the       mission of providing high quality health care,
OIG’s major components to provide                      improved patient access to care, and high patient
collaborative assessments of VA medical                satisfaction.
facilities. The OIG team consists of
representatives from the Offices of                    The following is a summary of the 14 CAP
Investigations, Audit, and Healthcare                  reports completed this period. It includes
Inspections. They provide an independent and           highlights of our activities and areas that we
objective assessment of key operations and             identified as vulnerable and in need of greater
programs at VAMCs on a cyclical basis.                 management attention. During these 14 on-site
                                                       CAP visits, the Office of Investigations
Special agents from the Office of Investigations       conducted 88 fraud and integrity briefings for
conduct fraud and integrity awareness briefings.       approximately 2,600 employees attending.
The purpose of these briefings is to provide key
staff of the VAMC with insight into the types of
fraudulent activities that can occur in VA
                                                       VA Medical Center Omaha
programs. The briefings include an overview
                                                       Patient Care and Quality Management (QM)
and case-specific examples of fraud affecting
                                                       Review - The VAMC had a comprehensive QM
health care procurements, false claims, conflict
                                                       program that includes national and local
of interest, bribery, and illegal gratuities.
                                                       performance measures. The clinical program
Special agents also investigate certain matters
                                                       review identified various issues that required
which have been referred to the OIG by VA
                                                       management attention. We recommended the
employees, members of Congress, veterans, and
                                                       VAMC: (a) improve communication about
others.
                                                       quality and performance improvement activities
                                                       between the quality council and the executive
Auditors from the Office of Audit conduct a
                                                       committee of the medical staff; (b) assess
limited review to ensure that management
                                                       waiting times for ambulatory care, specifically
controls are in place and working effectively.
                                                       primary care, cardiology clinic, pain clinic,
Auditors assess key areas of concern which are
                                                       prescription filling, and radiology studies; (c)
derived from a concentrated and continuing
                                                       improve patient transfers and referral from other
analysis of VHA, VISN, and VAMC databases
                                                       facilities in the Greater Nebraska Healthcare
and management information. These areas may
                                                       System; (d) improve the primary care process to
include patient management, credentialing and
                                                       ensure that all patients have an assigned primary




                                                   7
Combined Assessment Program
care provider; (e) improve patient transition            were generally operating satisfactorily and
from inpatient specialty care, such as surgery, to       management controls were generally effective.
primary care; (f) take action to correct the             To improve controls, we recommended that the
physical environmental concerns in the                   VAMC: (a) reduce excess supply inventories,
operating room; and (g) review the effectiveness         (b) strengthen timekeeping for part-time
of the home glucose-monitoring program,                  surgeons, (c) perform required annual equipment
including documentation, education, and quality          inventories, (d) improve collection of vendor
control.                                                 accounts receivable, (e) include expired drugs in
                                                         controlled substances inspections, and (f) ensure
Management Control Issues - The VAMC's                   that signed means test forms are obtained from
financial and administrative activities were             patients.
generally operating satisfactorily and controls
were effective. We identified a number of areas          The Director concurred with the findings and
where management control could be                        recommendations and provided acceptable
strengthened. Specific areas needing                     implementation plans. (CAP Review, Carl T.
improvement included: (a) enhance the fee-basis          Hayden VAMC, Phoenix, AZ, 0001072-64,
program, (b) enhance medical transportation              5/4/00)
services, (c) improve the purchase card program,
(d) enhance controlled substances security, (e)          VA Medical Center Denver
improve security of information systems, and (f)
enhance agent cashier controls.                          Patient Care and QM Review - VAMC
                                                         management created an environment that
The Director agreed to address the areas of              supported QM and performance improvement.
concern and provided specific plans for                  The VAMC had a comprehensive, well-
corrective action. (CAP Review, Department of            organized QM program that effectively
Veterans Affairs Medical Center, Omaha, NE,              coordinated patient care activities and provided
00-00025-37, 04/03/00)                                   strong oversight of the quality of care. We made
                                                         recommendations for VAMC management to
Carl T. Hayden VA Medical Center                         review and take appropriate action on various
Phoenix                                                  patient care issues and concerns, to include: (a)
                                                         securely storing and properly labeling
Patient Care and QM Review - The VAMC had                medications, (b) correcting potential safety
a comprehensive QM program that effectively              hazards in a psychiatric unit, (c) improving
coordinated patient care activities and provided         medication error data collection, and (d)
strong oversight of the quality of care. We made         performing tuberculosis screening for certain
two recommendations to improve patient care              high-risk patients.
management. First, stronger controls were
needed to ensure that problematic bedside                Financial and Administrative Management - The
glucose test results were referred for laboratory        VAMC's financial and administrative activities
analysis as required by VAMC policy. Second,             were generally operating satisfactorily and
management needed to address several issues              controls were generally effective. To improve
and concerns pertaining to the patient care              controls, we recommended the VAMC: (a)
environment, staffing, and medical records.              obtain better pricing data and improve
                                                         performance monitoring for clinical services
Financial and Administrative Management - The            contracts, (b) transfer purchase card coordinator
VAMC's financial and administrative activities           duties, (c) reduce supply inventories, (d) include




                                                     8
                                                                   Combined Assessment Program
expired drugs in controlled substances                   were generally operating satisfactorily and
inspections, (e) pursue collection of delinquent         management controls were generally effective.
accounts receivable, (f) improve reviews of              We made recommendations in the following
unliquidated obligations, and (g) strengthen             areas: (a) community based outpatient clinic
information technology security by providing             management, (b) accountability and security
training to employees and by designating an              over controlled substances, (c) radiology
alternative computer processing site.                    services contracting, (d) laboratory service
                                                         staffing, (e) informed consent for surgery, (f)
The Medical Center Director concurred with the           reviews of state of Indiana administration and
findings and recommendations and provided                oversight of contract community nursing homes,
acceptable implementation plans. (CAP Review,            (g) medical supplies inventory controls, (h)
VAMC Denver, CO, 00-00473-63, 5/4/00)                    supply processing and distribution operations, (i)
                                                         agent cashier audits, (j) controls over third-party
                                                         payer checks, (k) information technology
“The OIG conducted the review in a                       systems access, and (l) monitoring the drug
highly efficient and effective manner that               prescription backlog.
included close coordination with the
Medical Center. This allowed for a                       The Director concurred with the findings and
comprehensive review of numerous                         recommendations and provided acceptable
important activities with minimal                        implementation plans. (CAP Review, VA
disruption to our operations. We have                    Northern Indiana Healthcare System, Ft. Wayne
found the findings and                                   and Marion, IN, 00-01199-72, 5/25/00)
recommendations reasonable and useful
in our efforts to improve our systems for
the delivery of safe, quality, and fiscally              VA Medical and Regional Office
responsible health care.”                                Center (VAMROC) White River
                                                         Junction
                                     Director
                                 VAMC Denver             Patient Care and QM Review - While we
                                                         concluded that the VAMROC had a
                                                         comprehensive QM program in place, we
VA Northern Indiana Health Care                          identified opportunities to further enhance its
System, Fort Wayne and Marion                            effectiveness. We also identified several issues
                                                         that required increased management attention to
Patient Care and QM Review - The QM review               ensure high quality patient care. To further
identified areas of concern that affected the            enhance patient care quality management, we
quality of care. The report discusses: (a) long          recommended the VAMROC: (a) improve
term care; (b) the facility treatment environment;       focused reviews/root cause analyses, (b) ensure
(c) quality management and performance                   patient concerns are addressed in a timely and
improvement issues; (d) medication policy,               efficient manner, (c) document informed
availability, and security; (e) patient care             consent, (d) ensure that ambulatory care patients
services; and (f) employee assistance program            obtain ordered follow up services, (e) monitor
and training.                                            prescribing practices for elderly and chronic
                                                         pain patients, (f) improve oversight of contract
Financial and Administrative Management - The            and state nursing home patients, (g) monitor
VAMC’s financial and administrative activities           clinic utilization, (h) improve patient waiting




                                                     9
Combined Assessment Program
times, (i) enhance the safety of patients who              functioning for approximately 3 years organized
smoke, (j) improve the appearance of patient               by product lines, they have reorganized to a
care areas, (k) replace outdated radiology                 more traditional service/department
equipment, (l) establish a viable surgical service,        organization. The net result of the many
and (m) resolve clinical staffing needs.                   organizational changes and differing
                                                           philosophies regarding the right approach to
Financial and Administrative Management - The              patient care and competing priorities has
VAMROC’s financial, administrative, and                    polarized many staff and patients. We
benefit program activities were generally                  recommended that management develop a
operating satisfactorily and management                    system to address employee perceptions and
controls were generally effective. To improve              concerns regarding quality of care, work
controls over medical center activities, we                environment, and personnel practices.
recommended the VAMROC: (a) reduce excess
medical supplies inventory costs, (b) improve              Patient Care and QM Review - We identified
billing procedures for inpatient care, (c) pursue          several issues that required increased
collection of delinquent debts, (d) strengthen             management attention to ensure high quality
narcotic inspections, (e) improve research                 patient care. We made recommendations in the
corporation accounting controls, and (f) address           following areas: (a) clinical staffing, (b) quality
employee concerns regarding the recognition                management program, (c) ambulatory care, and
and awards program.                                        (d) community nursing homes.

Regional Office Program Operations - To                    Financial and Administrative Management - We
improve controls over regional office activities,          concluded that overall, the medical center
we recommended the VAMROC: (a) improve                     generally maintained an effective system of
security over automated information systems,               internal controls in the 14 areas we reviewed and
(b) strengthen controls over benefit adjustments           tested. We made recommendations in the
for veterans receiving long-term care at VA                following areas: (a) contracting for radiologists,
expense, and (c) ensure that vocational                    (b) inventory of medical supplies, (c) food
rehabilitation and employment service improves             preparation, (d) employee receivables, (e)
initial claims processing.                                 Government purchase card, (f) agent cashier,
                                                           and (g) third-party receivables.
The Director concurred with the
recommendations and findings and provided                  The Director agreed with the findings and
acceptable implementation plans. (CAP Review,              recommendations and provided acceptable
VA Medical and Regional Office Center, White               implementation plans. (CAP Review, VA Gulf
River Junction, VT, 00-01062-84, 6/5/00)                   Coast Veterans Health Care System, Biloxi and
                                                           Gulfport, MS, 00-00933-88, 6/19/00)
VA Gulf Coast Veterans Health
Care System, Biloxi and Gulfport                           VA Central California Health Care
                                                           System, Fresno
Polarization of Staff and Management - There
was significant change in the top management in            Patient Care and QM Review - Management
the past 2 years including the assignment of a             created an environment that supported quality
new medical center Director, Chief of Staff, and           patient care and performance improvement.
Associate Director for Patient Care                        There is also a comprehensive QM program that
Services/Nurse Executive. Also, after                      provided strong oversight of the quality of care.




                                                      10
                                                                     Combined Assessment Program
To improve patient care management, the facility            staffing needs, and (e) improving medical
needed to: (a) perform required inspections of              records documentation.
contract nursing homes; (b) complete medical
records more promptly, reduce the backlog of                Financial and Administrative Management -
unfiled medical record documents, and ensure that           Financial and administrative activities were
medical records are securely stored; and (c)                generally operating satisfactorily and
address various patient care environment, staffing,         management controls were generally effective.
and appointment scheduling issues.                          To further improve operations, we
                                                            recommended that management: (a) reduce
Financial and Administrative Management - The               supply inventories, (b) improve controls over the
financial and administrative activities were                purchase card program, (c) ensure required
generally operating satisfactorily and management           means tests are properly completed, (d) improve
controls were generally effective. To improve               inspections of community nursing homes, and
controls, the facility needed to: (a) reduce medical        (e) improve information technology security.
and engineering supply inventories, (b) strengthen          We also identified opportunities for management
information technology security by promptly                 to: (a) improve reviews of unliquidated
deactivating unneeded user access to information            obligations, (b) enhance collection of delinquent
systems and by designating an alternative                   debts, (c) improve controls over the contract
computer processing site, (c) include expired               beneficiary transportation program, (d)
drugs in controlled substances inspections, (d)             strengthen the timeliness and thoroughness of
reconcile accounts receivable and pursue                    controlled substance inspections, and (e) ensure
delinquent debts, and (e) ensure that signed means          printing services are properly obtained.
test forms are obtained from patients.
                                                            The Director concurred with the findings and
The Director agreed with the CAP review findings            recommendations and provided acceptable
and recommendations and provided acceptable                 implementation plans. (CAP Review, VA New
plans to take corrective action. (CAP Review, VA            York Harbor Healthcare System, Brooklyn and
Central California Health Care System, Fresno,              Manhattan, NY 00-01223-104, 8/3/00)
CA, 00-01227-94, 7/14/00)
                                                            William Jennings Bryan Dorn
VA New York Harbor Healthcare                               Veterans’ Hospital, Columbia
System, Brooklyn and Manhattan
                                                            Patient Care and QM Review - We found that
Patient Care and QM Review - A comprehensive                appropriate monitors were in place and
QM program is in place that effectively                     effectively working. We identified opportunities
coordinated patient care activities and provided            to improve: (a) access to outpatient care, (b)
strong oversight of the quality of care. We                 access to care in the primary and specialty
identified several opportunities to further                 clinics, (c) inpatient medical record
improve patient care services and quality                   documentation, (d) design and allocation of
management. Management was in the process                   space in the physical medicine and rehabilitation
of addressing, or agreed to take appropriate                clinic, (e) nursing proficiency evaluations, (f)
action on, various patient care issues and                  security issues in the mental health building, and
concerns, including: (a) improving the patient              (g) restorative nursing therapy and patient
care environment in some inpatient areas and                participation in structured therapies in the
wards, (b) improving pharmacy services, (c)                 nursing home care unit.
improving mental health services, (d) addressing




                                                       11
Combined Assessment Program
Financial and Administrative Management -                 controlled substances storage areas monthly,
Overall, the medical center generally maintained          including expired drugs.
an effective system of internal controls in the
areas we reviewed. We recommended that                    The Medical Center Chief Executive Officer
management develop a measurable statement of              concurred with the findings and
work for the surgical service contract. We                recommendations and provided acceptable
identified minor deficiencies and made                    implementation plans. (CAP Review, VAMC
suggestions for improvements in six areas: (a)            Portland, OR, 00-1217-105, 8/18/00)
contracted otolaryngology services, (b)
Government purchase card program, (c) means               VA Medical Center Tuscaloosa
test certifications, (d) unannounced audits of the
agent cashier, (e) pharmacy service security, and         Patient Care and QM Review - We found that
(f) third-party reimbursable insurance accounts           appropriate patient care and QM monitors were
receivable.                                               in place and effectively working. We made
                                                          suggestions in six patient care areas to: (a)
The Director concurred with the findings and              eliminate the medical acute care unit and
recommendations and provided acceptable                   redirect critically ill patients to other medical
implementation plans. (CAP Review, William                facilities, (b) restructure the residential program
Jennings Bryan Dorn Veterans’ Hospital,                   to better support mental health treatment, (c)
Columbia, SC, 00-01202-107, 8/18/00)                      ensure that clinicians record treatment activities
                                                          in the medical record, (d) ensure timely and
VA Medical Center Portland                                accurate tray preparation and improve quality
                                                          control in nutrition service, (e) contract for
Patient Care and QM Review - VAMC                         additional community nursing home beds, and
management had created an environment that                (f) improve timeliness and documentation of
supported quality patient care and performance            contract care inspection team activities. We also
improvement. The VAMC had a comprehensive                 made suggestions for two treatment environment
QM program that provided strong oversight of              issues to ensure that wardrobes in patient rooms
the quality of care. To improve patient care              in building 61 were secured to the wall to
management, the VAMC needed to: (a) perform               prevent injury and to arrange for emergency
required inspections of contract nursing homes,           communications by patients and visitors in
(b) reduce the backlog of unfiled medical record          connecting tunnels.
documents, and (c) address several issues and
concerns pertaining to the patient care                   Financial and Administrative Management - The
environment, staffing, and waiting times.                 VAMC's financial and administrative activities
                                                          were generally operating satisfactorily and
Financial and Administrative Management - The             management controls were generally effective.
VAMC's financial and administrative activities            To improve operations, we made suggestions to:
were generally operating satisfactorily and               (a) pursue the opportunity to establish a
management controls were generally effective.             centralized food processing center, (b) address
To improve controls, the VAMC needed to: (a)              contracting issues for leased space for non-
strengthen timekeeping for part-time physicians;          Federal use, (c) ensure that the canteen dining
(b) improve collection of medical care cost fund          area is kept clean, (d) address inappropriate sales
receivables; (c) ensure that signed means test            of cigarettes by canteen service, (e) dispose of
forms are obtained from patients; (d) reduce              unusable drugs quarterly rather than
excess supply inventories; and (e) inspect all            semiannually, and (f) enhance various aspects of




                                                     12
                                                                    Combined Assessment Program
the agent cashier function. We also made                  community nursing home inspections, and (f)
recommendations to develop more detailed                  conduct random audits of the agent cashier. We
automated information system contingency                  also made recommendations to pursue reducing
plans, and improve controls over inventory                community nursing home rates, improve
management.                                               controls over controlled substances, improve
                                                          administration over research consent forms, and
The Medical Center Director concurred with the            reduce the agent cashier’s advance.
findings and recommendations and provided
acceptable implementation plans. (CAP Review,             The Director concurred with the findings and
VAMC Tuscaloosa, AL, 00-02003-108, 8/18/00)               recommendations and provided acceptable
                                                          implementation plans. (CAP Review, VAMC
VA Medical Center Hampton                                 Hampton, VA, 00-1225-109, 8/31/00)

Patient Care and QM Review - Appropriate                  VA North Texas Health Care
patient care and QM monitors were in place and            System, Dallas and Bonham
effectively working. We made suggestions to:
(a) ensure that clinicians properly and accurately        Patient Care and QM Review - While we
record the services that they provide, (b)                concluded that the system had a comprehensive
decrease waiting times in the gastroenterology            quality management program in place, we
and neurology clinics, (c) increase gynecology            identified some opportunities to further enhance
attendant services in the women veterans’                 its effectiveness. We also identified several
treatment program, (d) secure medications and             issues that required increased management
supplies in the emergency room, (e) install               attention to ensure high quality patient care.
additional panic buttons in mental health service,        These issues include: (a) waiting times for
(f) provide the compensated work therapy van              prescribed medications, (b) delays in obtaining
driver with emergency communications                      specialty clinic appointments, (c) adequacy of
equipment, (g) fill pharmacist vacancies and              the computer system, (d) adequacy of facilities
provide medication bar coding training prior to           for the treatment of mental health patients, (e)
implementing 24-hour coverage, and (h) revise             cleanliness in certain areas, (f) patient privacy in
competency assessment checklists for addiction            consultation rooms, (g) preparation of surgical
specialists. We also made suggestions to resolve          instrument trays, (h) perceptions of the
ward 2N solarium environmental deficiencies,              employee recognition and awards program, (i)
and provide for a consistent smoking policy               documentation of treatment goals, (j)
throughout the facility.                                  documentation of informed consent, and (k)
                                                          documentation of actions taken in response to
Financial and Administrative Management - The             recommendations by a board of investigation.
VAMC's financial and administrative activities
were generally operating satisfactorily and               Financial and Administrative Management -
management controls were generally effective.             Overall, the system maintained effective
To improve operations, we made suggestions to:            financial and administrative controls. For most
(a) turn in excess research equipment, (b) assess         controls tested, we identified only minor
monitoring of approvals for information                   deficiencies. Areas which require greater
technology equipment, (c) address internal                management attention include: (a) security
control issues in the purchase card program, (d)          measures at the Bonham facility, (b)
follow guidelines for approving and reporting             reconciliation and approval of purchase card
commercial printing costs, (e) improve                    transactions, (c) medical supply inventories, (d)




                                                     13
Combined Assessment Program
access to information systems, (e)                      Financial and Administrative Management -
documentation of means tests, (f) controls over         Financial and administrative activities were
time and attendance reporting, and (g) accrued          generally operating satisfactorily and controls
services payable and undelivered orders.                were generally effective. Management could
                                                        further improve operations by: (a) reducing
The system Director concurred with the                  excess medical supply inventories, (b)
recommendations and provided acceptable                 strengthening controls over the purchase card
implementation plans. (CAP Review, VA North             program, (c) improving information technology
Texas Health Care System, 00-01065-117,                 security, (d) strengthening controls over the
9/8/00)                                                 means test program, (e) ensuring inpatient
                                                        episodes of care are appropriately billed, (f)
                                                        strengthening controlled substance inspections,
 “… VANTHCS was appreciative of the                     (g) strengthening controls over the contract
constructive approach taken by each                     beneficiary transportation program, and (h)
member of the OIG team during the                       improving sharing agreement negotiations.
review. The review proved to be
informative and has provided VANTHCS                    The Director concurred with the
recommendations that will further                       recommendations and provided acceptable
improve quality care and service to our                 implementation plans. (CAP Review, VA
veterans. ”                                             Western New York Healthcare System, Buffalo
                                                        and Batavia, NY, 00-01230-120, 9/25/00)
                   Director, VA North Texas
                        Health Care System


VA Western New York Healthcare
System, Buffalo and Batavia
Patient Care and QM Review - The system had
demonstrated a strong commitment to quality
management and performance improvement.
However, we identified a number of
opportunities to further improve patient care
services and quality management. These issues
and concerns include: (a) ensuring that medical
records are promptly completed and securely
stored, (b) properly documenting informed
consents for surgical procedures, (c) ensuring
compliance with VHA patient safety directive,
(d) assessing staffing needs in post-traumatic
stress syndrome and long-term care programs,
(e) ensuring that nurses properly record patient
pain level assessments, (f) improving clinical
appointment timeliness, and (g) enhancing
management oversight of the patient care
environment.




                                                   14
OFFICE OF INVESTIGATIONS
Mission Statement                                        Resources
    Conduct investigations of criminal                   The Office of Investigations has 115 FTE
    activities and administrative matters                allocated to the following areas.
    affecting the programs and operations of
    VA in an independent and objective
    manner, and assist the Department in
    detecting and preventing fraud and other
    violations.                                               Criminal
                                                                Inv.
                                                                86%
The Office of Investigations is responsible for
conducting criminal and administrative
investigations affecting the programs and
operations of VA. The office consists of three
divisions.                                                                                     Analysis
                                                                                                 5%
I. Criminal Investigations Division - The                                         Admin Inv.
Division is primarily responsible for conducting                                     9%
investigations into allegations of criminal
activities related to the programs and operations
of VA. Criminal violations are referred to the
Department of Justice for prosecution. The
Division is also responsible for operation of the        I. CRIMINAL
forensic document laboratory.
                                                         INVESTIGATIONS
II. Administrative Investigations Division - The
Division is responsible for investigating
                                                         DIVISION
allegations, generally against high-ranking VA
officials, concerning misconduct and other               Mission Statement
matters of interest to the Congress and the
Department.                                                  Conduct investigations of criminal
                                                             activities affecting the programs and
III. Analysis and Oversight Division - The                   operations of VA in an independent and
Division is responsible for the oversight                    objective manner, and assist the
responsibilities of all Office of Investigations             Department in detecting and preventing
operations through a detailed, recurring                     fraud and other criminal violations.
inspection program. The Division is the primary
point of contact for law enforcement                     Resources
communications through the National Crime
Information Center, the National Law                     The Criminal Investigations Division has 96
Enforcement Telecommunications System, and               FTE for its headquarters and 19 field locations.
the Financial Crimes Criminal Enforcement                These individuals are deployed in the following
Network.                                                 program areas:




                                                    15
Office of Investigations

                                                           Attorney was 7.1 months versus our goal of 6
                                                           months.

                                                           Customer Satisfaction
                              VHA
                                                           • Customer satisfaction survey forms were
                              30%
                                                           provided to each prosecutor upon referral of an
          VBA
                                                           investigation for criminal prosecution. All
          64%                                              ratings received exceeded 4.0 and averaged 4.7
                                                           out of a possible 5.0 (5.0 means highly satisfied
                                 A&MM
                                  6%
                                                           and 1.0 means dissatisfied).

                                                           Following are summaries of some of the
                                                           investigations conducted during the reporting
                                                           period by VA component. We discuss VHA,
Overall Performance                                        VBA, Board of Veterans’ Appeals, Office of
                                                           Human Resources and Administration, and
Output                                                     NCA. This is followed by the OIG forensic
• 316 investigations were concluded during                 document laboratory summary.
the reporting period. We met the performance
goal for output.

Outcome
                                                           Veterans Health
• Arrests - 174                                            Administration
• Indictments - 156
• Convictions - 122                                        Fraud and other criminal activities committed
• Monetary benefits - $13.9 million ($7.2                  against VHA include actions such as patient
million - fines, penalties, restitutions, and civil        abuse, theft of Government property, drug
judgements; $5.0 million - efficiencies/funds put          diversion, bribery/kickback activities by
to better use; and $1.7 million - recoveries)              employees and contractors, false billings, and
• Administrative sanctions - 138                           inferior products.

Cost Effectiveness                                         The Criminal Investigations Division
• The average cost of conducting the 316                   investigates those instances of criminal activity
closed investigations was $4,031. Each                     against VHA that have the greatest impact and
investigation averaged a return of $35,939,                deterrent value. Working closely with VA police
resulting in approximately $9 returned for every           the office has placed an increased emphasis on
$1 spent.                                                  crimes occurring at VA facilities throughout the
                                                           nation to help ensure safety and security for
Timeliness                                                 those working in or visiting VA medical centers.
• Average work days from receipt of
allegation to initiation of investigation averages
42 days against a goal of 30 days.
• Average work days from initiation of
investigation to referral to an Assistant U.S.




                                                      16
                                                                              Office of Investigations

Employee Integrity                                       charge of the destruction of outdated or unused
                                                         medications and drugs. He wrongfully removed
                                                         some of these drugs from VA property, and
Theft/Diversion of Pharmaceuticals
                                                         covertly administered them to individuals to
                                                         incapacitate them. The individual video taped
• An individual employed as a pharmacist in
                                                         the incapacitated individuals without their
the private sector was sentenced to 5 years’
                                                         knowledge, in some cases sexually assaulting
probation, a fine of $10,000, and restitution of
                                                         them. During the course of the investigation, the
$1,000 after a joint investigation by the VA OIG
                                                         individual admitted to the production of the
and a state board of pharmacy disclosed he had
                                                         pornographic images as well as admitting to
received pharmaceuticals stolen from a VAMC.
                                                         stealing various items from the VAMC,
The investigation showed an individual
                                                         including a television and computer equipment.
employed as a VAMC pharmacist stole the
                                                         The value of the stolen items was estimated to
pharmaceuticals from the VA pharmacy and
                                                         exceed $110,000.
sold them to the private pharmacist at a
discounted rate. The private pharmacist then
placed the stolen pharmaceuticals in his drug
store where they were sold at full retail rate.
The VA pharmacist previously was sentenced
and resigned from his VAMC position.
                                                                     Ex-hospital worker gets
• A VAMC registered nurse was indicted on
                                                                          25-year term
13 counts of fraudulent acquisition of a
                                                                      for taping sex abuse
controlled substance and 13 counts of theft of
public property. The charges follow a joint
                                                                      [picture not available]
investigation by the VA OIG and Drug
Enforcement Administration (DEA) which
disclosed the individual used his position to
divert controlled substances from the VAMC
pharmacy for his own use. As a result of the
investigation, the individual was terminated
from his employment.                                     “… this case could be used as a ‘model’
                                                         on how an investigation should be
• An individual employed as a VAMC laborer               handled. … Through the collective
was sentenced in U.S. District Court to 300              efforts of all those involved in this case,
months’ imprisonment, 36 months’ supervised              a criminal of the worst variety has been
release, and a $25,000 fine. He had previously           removed from the streets for what will
pleaded guilty to two counts of using a minor to         prove to be most of the remainder of his
produce visual images of a minor engaged in              life. … On behalf of this office and the
sexual activity and to one count of possessing           citizens of my district, let me express my
stolen Government property. The sentencing               thanks and gratitude to your agency… .”
was the result of a joint investigation by the VA
OIG, Federal Bureau of Investigations (FBI),                               United States Attorney,
and state and local law enforcement. It was                            Western District of Arkansas
disclosed that, during the course of his regular
duties at the VAMC, the individual was in




                                                    17
Office of Investigations

• A former VAMC pharmacy technician                      her own personal use, believing that he was
pleaded guilty and was convicted on one count            actually signing prescriptions for his patients.
each of possession of dangerous drugs and
possession for purposes of sale of prescription-         • A registered nurse, formerly employed at a
only drugs. The individual was subsequently              VA nursing home, surrendered to authorities in
sentenced to 3 years’ supervised probation, 60           response to a criminal summons. He previously
days’ imprisonment, a $2,000 fine, and ordered           had been charged in a criminal information with
to complete 600 hours of community service. A            theft of Government property after a VA OIG
joint investigation by the VA OIG, VA police,            investigation disclosed the nurse engaged in a
and local police disclosed the individual stole          scheme to divert prescription narcotics from VA
more than 20 different types of pharmaceuticals          supplies for his own use. The individual
from the VA pharmacy and attempted to sell the           diverted prescription drugs by recruiting VA
drugs.                                                   nursing home patients who were willing to allow
                                                         the nurse to take some of their as-needed
• A VAMC pharmacy technician was arrested                medications, and by making fictitious entries on
at her residence by VA OIG special agents on             documentation associated with other patients.
charges of theft of Government property. At the          Over a 1-year period, the individual diverted
time of her arrest the individual consented to a         more than 10,500 milligrams of liquid narcotics
search of her residence, which revealed four             and more than 750 narcotic tablets. The criminal
shopping bags filled with pharmaceuticals and            investigation continues.
controlled substances stolen from the VAMC.
The drugs had a value of more than $21,000.              • A former VAMC nurse was charged in a
An additional consent search of her handbag              five-count criminal indictment with possession
uncovered VA pharmaceuticals valued at                   of prescription or dangerous drugs, criminal
approximately $900, that she had taken on the            attempt to possess prescription or dangerous
day of her arrest. The individual agreed to              drugs, and forgery. A joint investigation by the
cooperate in the investigation.                          VA OIG, U.S. Food and Drug Administration
                                                         (FDA), local sheriffs, and VA police disclosed
• A VAMC registered nurse resigned from his              the former nurse contacted the VAMC and
position pursuant to a joint VA OIG and VA               falsely claimed to be the wife of a veteran. By a
police investigation into the diversion of               scheme in which false information was provided
controlled substances from a VA pharmacy.                to the VAMC, the former nurse improperly
The joint investigation disclosed the individual         obtained prescription drugs.
diverted more than 60 doses of controlled
substances from VA supplies for personal use.            Possession/Sale of Illegal Drugs
The investigation continues and criminal charges
are pending.                                             • A VAMC food service worker was
                                                         sentenced to 1-year probation, and a second
• A VAMC registered nurse was indicted on                individual not employed by VA was sentenced
three counts of drug diversion. A joint                  to 3 years’ supervised probation, after pleading
investigation by the VA OIG and the DEA                  guilty to one count each of possession of
disclosed the individual allegedly                       controlled substances. A VA OIG investigation
misrepresented herself to a physician at the             disclosed both individuals engaged in the sale of
VAMC by presenting her prescription profile              controlled substances on VA property, including
with other VA patient’s profiles. The physician          marijuana and cocaine. Over the course of a 6-
proceeded to sign prescriptions for the nurse for        month period, the VAMC employee engaged in




                                                    18
                                                                                Office of Investigations
the selling of crack cocaine to an undercover             accepting delivery of personal items that had
informant on VAMC grounds.                                been charged to one of the suspect cards and
                                                          sent to his office. He was charged with one
• A VAMC compensated work incentive                       count of theft, one count of receiving stolen
therapy program employee was arrested and                 property, one count of access device fraud, and
indicted on charges of dealing illegal drugs on           one count of unlawful use of a computer.
VAMC property. A joint investigation by the               Additional charges are pending and the
VA OIG and VA police disclosed the individual             investigation continues.
was also suspected of selling marijuana to other
VA employees and patients. At the time of                 • A former VAMC warehouse worker pleaded
arrest on VA property, the individual was in              guilty to a one-count criminal information
possession of a large amount of cash and a                charging him with the theft of $20,000 in
substance believed to be marijuana. The                   Government property. A joint investigation by
investigation continues.                                  the VA OIG, FBI, and Department of Defense
                                                          (DoD) disclosed the individual stole VA
• Two VAMC employees, a housekeeper and                   computer equipment that was excessed to DoD
a clerk, as well as two VAMC patients, one of             and sold the equipment to an agent acting in an
whom was a compensated work therapy                       undercover capacity. When confronted with
program participant, were arrested and charged            evidence of the transaction with the undercover
with multiple counts of sale of narcotics. A joint        agent, the individual chose to cooperate in the
investigation by the VA OIG and VA police                 investigation and filed the guilty plea.
disclosed the two patients sold their prescription
narcotics to the two employees as well as to              • A former VAMC environmental
other patients and employees. In addition, the            management service employee pleaded guilty to
two employees sold prescription narcotics and             theft pursuant to a fraudulent scheme, and
marijuana on VAMC grounds.                                subsequently was sentenced to 3 years’
                                                          supervised probation, and 100 hours’
Theft and Embezzlement                                    community service. Restitution in an
                                                          unspecified amount, to be determined at a later
• A VAMC patient service assistant in the                 time, has also been ordered. The guilty plea and
behavioral health office was arrested on charges          sentencing are the result of a joint investigation
of wrongfully accessing and misusing patient              by the VA OIG and VA police, which disclosed
information. A joint investigation by the VA              the individual used his position at the VAMC to
OIG and FBI disclosed the individual accessed             wrongfully access patient identifying
the files of VAMC personnel and patients and              information, which he provided to a wireless
obtained sensitive information from those files           telephone company employee, who in turn used
for the purpose of opening credit card accounts           the information to create new phone accounts.
in the individuals’ names without their                   The VA employee then sold the accounts to
knowledge. The scheme came to light after a               others, including other VA employees, and
number of individuals complained about charge             profited from the scheme. The individual was
accounts that had been opened in their names;             terminated from employment.
accounts for which they had never applied.
Investigation disclosed that a number of items            • A VAMC custodian and clerk was convicted
had been mailed to the behavioral health office,          on charges of theft following a referral from the
where the employee was assigned. He became a              VAMC after they discovered a series of thefts of
suspect and was subsequently arrested after               patient property dating as far back as 1994. A




                                                     19
Office of Investigations
VA OIG investigation disclosed the individual,            and wife pleaded guilty to criminal charges of
who was responsible for check-in and storage of           workers’ compensation benefits fraud.
patient property as part of his duties, would
return to the storage room after the property was         Credit Card Fraud
checked-in to remove valuables and money from
the patient property. The individual admitted             • A former VAMC administrative clerk in the
during the course of the investigation that he had        engineering service was arrested on charges of
removed property from the storage room valued             conspiracy to defraud the Government by
in excess of $8,000. A pre-sentence                       allowing individuals to use Government credit
investigation was ordered and sentencing is               cards for personal gain. A VA OIG
pending. Based on his conviction, he was issued           investigation disclosed the individual conspired
a letter of proposed removal from VAMC                    with two other individuals to steal VA credit
employment.                                               cards and use them to purchase more than
                                                          $10,000 in merchandise for personal use. The
Workers’ Compensation Benefits Fraud                      individual, who delivered the mail at the VAMC
                                                          as part of her duties, intercepted the incoming
• A former VAMROC nurse was convicted on                  credit card bills to avoid detection of the fraud
charges of submitting a false statement to the            by VAMC officials. The two other individuals,
Government in order to receive workers’                   not employed by VA, were previously sentenced
compensation benefits to which she was not                for their roles in the conspiracy.
entitled. A joint investigation by the VA OIG
and Department of Labor (DoL) OIG disclosed               • A former VAMC supervisory respiratory
the individual submitted forms to DoL claiming            therapist was sentenced to 1 year supervised
she was unable to work due to an injury.                  probation, 100 hours’ community service, fined
However, she was earning income working at                $500, and ordered to make restitution to VA of
her husband’s home improvement business. Her              more than $4,900. The individual previously
deception resulted in a loss to the Government            had pleaded guilty to a criminal information
of more than $60,000. Sentencing is pending.              charging him with theft of Government funds
                                                          after a joint investigation by the VA OIG and
• A summary judgement of $345,000 was                     VA police disclosed he used a Government
entered in U.S. District Court against a former           purchase card to buy over $4,900 worth of
VAMC food service manager and his wife for                household appliances and other items for
making false statements made to collect Federal           personal use. Pursuant to the investigation, he
Employees Compensation Act benefits. A VA                 resigned from the VAMC.
OIG investigation disclosed that after the
individual allegedly suffered an on the job               • A VAMC environmental management
injury, for which he claimed workers’                     service employee was accepted into a pre-trial
compensation benefits for an inability to work,           diversion program after being indicted on
he started running a limousine business. At the           charges of theft of Government property. A VA
same time he continued to collect FECA benefits           OIG investigation disclosed that, in the course of
and did not report the employment to the DoL.             his regular duties, the individual used a
The individual’s wife, a former VAMC human                Government-issued credit card to purchase
resources employee, assisted her husband in               supplies for the VAMC. The individual engaged
making false statements on DoL forms. In                  in a scheme to return items he had purchased for
previous judicial proceedings both the husband            the VAMC to various vendors and then directed
                                                          the vendors not to refund the money back to the




                                                     20
                                                                                Office of Investigations
Government credit card, but rather to send                False Statements
refund checks directly to his home.
Investigation found that a total of six refund            • A former VAMC nursing assistant was
checks were sent to the employee’s home. All              sentenced to 5 years’ probation and ordered to
were cashed and kept for personal use.                    pay $10,152 in restitution after previously
                                                          pleading guilty to submitting false claims to the
Assault and Threats Against Other VA                      Department of Housing and Urban Development
Employees                                                 (HUD) OIG. A joint investigation by the VA
                                                          OIG and HUD OIG disclosed the individual
• A former VAMC radiology technician was                  falsely under-reported her salary, and forged the
sentenced to 36 months’ supervised probation              name of the chief of human resources at the
after pleading guilty to one count of assault of a        VAMC on a HUD employment verification
Federal employee. A joint investigation by the            form, in order to gain rental benefits to which
VA OIG and FBI disclosed the individual, who              she was not otherwise entitled.
had previously been terminated from
employment for insubordination and assaulting             • A VAMC therapist was terminated from her
two other VA employees, made telephone                    position due to her personal involvement with a
threats to her former VAMC supervisor.                    veteran who provided false income information
                                                          to secure a VA guaranteed loan that went into
• A VAMC licensed practical nurse pleaded                 default. The therapist, falsely claiming to be an
guilty to charges of introducing a firearm on             assistant director of personnel, signed a VA
Government property, was fined $500 and                   form which stated the veteran was employed at
relieved of the weapon. The employee                      the VAMC as a record auditor. The veteran was
previously had been arrested and indicted                 never employed at the VAMC, although he did
following a VA OIG investigation which                    receive medical care at the facility.
disclosed the employee had made threats of
violence regarding his supervisor, claiming that          Other Employee Misconduct
he had the means to carry out the threats by
possessing the weapon. A sentencing date is               • An individual employed in a VAMC morgue
pending.                                                  was sentenced to 3 months’ home confinement,
                                                          2 years’ probation, and a $200 fine. The
Patient Abuse                                             individual previously had pleaded guilty to a
                                                          four count criminal information charging him
A former VAMC registered nurse was sentenced              with assisting in the preparation of false income
to 24 months’ supervised probation and ordered            tax returns, conspiring to bribe a public official,
to pay a court assessment after having pleaded            conspiring to commit mail fraud, and filing false
guilty to charges of sexual abuse of a VA                 personal tax returns. A joint investigation by the
patient. The sentencing was the result of a joint         VA OIG, DoL, and Internal Revenue Service
investigation by the VA OIG and VA police into            (IRS) determined the individual engaged in the
allegations that, over the course of 3 years, the         preparation and filing of more than 31 false tax
individual engaged in non-permissive sexual               returns during business hours at the VAMC
conduct with patients in his care at the VAMC             morgue. In addition, investigation disclosed the
while performing patient care duties. The                 individual misappropriated more than $190,000
individual resigned in lieu of termination.               in American Federation of Government
                                                          Employees union funds from a union office
                                                          located at the VAMC.




                                                     21
Office of Investigations

• A doctor was sentenced to 4 months’                        Theft/Diversion of
imprisonment and 36 months’ supervised                       Pharmaceuticals (non-employee)
probation after pleading guilty to two counts of
mail fraud. A joint investigation by the VA OIG              • An individual was arrested and charged in a
and FBI disclosed the doctor, along with another             criminal complaint with conspiracy to steal VA
doctor who faced separate charges and has                    pharmaceuticals after a VA OIG investigation
already been sentenced, submitted false bills in             disclosed the individual, a patient at a VAMC,
order to receive insurance payments for elective             conspired with VAMC pharmacy technicians to
cosmetic procedures not normally covered by                  steal drugs for him. A trial date is pending and
insurance providers. A marketer in the scheme                the investigation is continuing.
also was charged and pleaded guilty to mail fraud.
The marketer acknowledged that several surgery               • An individual who was a patient at a VAMC
centers paid her a commission to recruit patients,           pleaded guilty to forging prescriptions for
including VA employees, who were promised free               controlled narcotics and obtaining controlled
plastic surgery procedures. Investigation revealed           narcotics using an unlawful prescription.
that marketers would refer patients to one of the            Subsequent to entering his guilty plea, the
surgery centers with the understanding that the              individual was sentenced to 3 months’
center and doctors would bill the patients’                  incarceration and 3 years’ probation. A joint
insurance companies for the cosmetic surgeries.              investigation by the VA OIG and VA police
The marketers also would arrange for the patients'           determined the individual forged the name of a
travel and hotel accommodations. In order to                 VAMC physician on multiple prescriptions,
obtain payments for the cosmetic surgeries, the              which he then used to obtain narcotics through
doctors falsely diagnosed the patients to justify the        the VAMC pharmacy.
billings as "medically necessary" procedures. As
part of the scheme, the two doctors also submitted
                                                             • An individual pleaded guilty to charges of
bills that claimed they had been assisted by
                                                             theft after being indicted on charges of stealing
another surgeon during various procedures when,
                                                             VA pharmaceuticals from the U.S. mail. A joint
in fact, they never had any assistance.
                                                             investigation by the VA OIG, VA police, and
                                                             U.S. Postal Inspection Service disclosed that a
• A former VAMROC police officer was                         Postal Service employee was responsible for the
sentenced to 12 months probation after pleading              theft of VA pharmaceuticals that were being
guilty to one count of false statements. A joint             mailed to patients via a U.S. mail facility. The
investigation by the VA OIG, Defense Criminal                VA pharmaceuticals, which he kept for his own
Investigative Service (DCIS), and VA police                  use, included large quantities of controlled
disclosed the individual falsely claimed his                 substances and dangerous prescription
girlfriend to be his wife on official personnel              medications, with a street value of $39,240.
documents in order for her to fraudulently obtain            During the course of this investigation the
Government health insurance benefits to which                individual admitted he had stolen the VA
she was not otherwise entitled. The individual               pharmaceuticals and voluntarily resigned as a
resigned from his position while under                       mail handler. Sentencing is pending.
investigation.




                                                        22
                                                                              Office of Investigations

Possession of Illegal Drugs on                           Theft of Other Property
VAMC Property
                                                         • An individual who had been a patient at a
• An individual found to be in possession of             VAMC was arrested after failing to appear in
illegal narcotics while undergoing care at a             U.S. District court for arraignment following a
VAMC admitted to the illegal possession of the           prior indictment on 21 counts of forgery of U.S.
drugs and agreed to cooperate with authorities           Treasury checks. A joint investigation by the
by turning in his drug supplier, an outpatient at        VA OIG, U.S. Secret Service (USSS) and VA
the VAMC. Under the auspices of a joint VA               police disclosed the individual, who was once a
OIG and VA police investigation, the individual          patient at a VAMC, diverted forged and cashed
contacted his drug supplier, agreeing to meet            civil service retirement benefits checks payable
him on VAMC property in order to exchange                to another veteran patient at the VAMC who had
prescription drugs for illegal narcotics. Both           a similar name. Investigation disclosed the other
parties have agreed to further cooperation in the        veteran patient, who was a long-term care
case, and the investigation continues.                   patient at the VAMC, was moved in 1995 from
                                                         the VAMC to a private nursing facility. At the
• Two individuals were arrested and charged              time of the move, the Office of Personnel
in a criminal complaint with possession with             Management mailed a change of address form to
intent to distribute heroin at a VAMC. A joint           the veteran patient at the VAMC in order to
investigation by the VA OIG and FBI disclosed            effect a change of address for his benefits
the two individuals, who were patients at a VA           checks. Because the veteran patient and the
methadone clinic, were selling heroin to other           subject individual had similar names, the veteran
patients at the clinic. A trial date is pending.         patient’s checks were inadvertently mailed to the
                                                         home of the subject. The individual
                                                         subsequently filed a formal change of address in
                                                         order to continue receiving the retirement checks
                                                         at his residence. The individual continued this
                                                         scheme from July 1995 to March 1997, at which
                   2 Accused of                          time the fraud was discovered when the veteran
                  Heroin Sales to                        patient’s family filed a claim for non-receipt of
             Patients at Rehab Center                    the checks. The individual diverted more than
                                                         $14,200 in retirement benefits to which he was
                                                         not entitled. A trial date is pending.
              [picture not available]
                                                         • An individual was sentenced to 15 years’
                                                         incarceration, 5 years’ probation, ordered to pay
                                                         restitution of $5,600 to VA, and ordered to
                                                         participate in a substance abuse treatment
                                                         program after pleading guilty to charges of
                                                         burglary and theft from a VA outpatient center.
                                                         An accomplice also pleaded guilty and was
                                                         subsequently sentenced to 5 years’ incarceration
                                                         and 3 years’ probation. A joint investigation by
                                                         the VA OIG, VA police, and local police
                                                         disclosed the two individuals were responsible
                                                         for burglaries committed at a VA outpatient




                                                    23
Office of Investigations
center and at local businesses. Computer                 resource management division, used his position
equipment and other items were stolen.                   controlling the inventory of computers to
                                                         remove and sell computers and related items for
• A VAMC canteen service volunteer pleaded               personal gain. During the course of the
guilty to one count of theft and was sentenced to        investigation, an undercover agent purchased a
1-year probation and ordered to perform 80               quantity of drugs and approximately $30,000 in
hours of community service. A VA OIG                     stolen VA computers from the patient/employee
investigation disclosed the individual had               while on VAMC grounds. The second
accessed a VAMC employee’s office without                individual was arrested when the investigation
her permission and removed blank money orders            disclosed that she was supplying the illegal
for $1,000 and $400 from the employee’s purse.           drugs that were being sold by the
Within a half-hour of the theft, the individual          patient/employee on VAMC property.
negotiated the $1,000 money order.                       Sentencing on both individuals is pending.

• Five VAMC in-patients were arrested,                   Credit Card Theft
indicted, pleaded guilty, and sentenced on
charges of theft of telephone services. The five         An individual was sentenced to 12 months’
were sentenced to probation terms ranging from           imprisonment and 36 months’ probation after
18 to 24 months and ordered to pay restitution to        pleading guilty to a criminal information
VA. A joint investigation by the VA OIG and              charging him with the unauthorized and
VA police disclosed the individuals conspired to         fraudulent use of a Government credit card. A
fraudulently make long distance telephone calls          VA OIG investigation disclosed the individual
by obtaining unauthorized access to a long               formerly was employed as a credit collection
distance personal identification number code             clerk at a medical supply company that did
belonging to a VAMC employee. Investigation              business with VA. As a clerk, the individual had
disclosed the VAMC telephone system required             been granted access to sensitive credit card
that a code be used to dial long distance                information pertaining to Government,
telephone calls. During a review of the                  corporate, and private accounts. Investigation
computer program that tracks usage at the                disclosed the individual used his access to the
VAMC, it was discovered that several codes               sensitive information to obtain and fraudulently
were being abused. All of the illegal usage was          use a Government credit card account number
occurring at two hospital buildings, which               that was issued to a VAMC purchasing agent.
housed the post-traumatic stress disorder                The fraudulent transactions included the
program. A review revealed approximately                 purchase of a computer, printer, and related
$25,000 in fraudulent calls.                             software, which he had delivered to an out of
                                                         state address.
• A former patient, who had been given
employment at a VAMC as part of his                      Assault and Threats to VA
rehabilitation, pleaded guilty to three counts of        Employees
selling cocaine and one count of theft of
Government property. A second individual was             A patient at a VAMC was arrested after
arrested on charges of conspiracy to possess             threatening and verbally abusing VA police and
with intent to distribute crack cocaine. A joint         VA medical staff. The individual, who has an
investigation by the VA OIG, VA police, and              extensive criminal record, including a prior
DEA disclosed the patient/employee, who had
been assigned work in the VAMC information




                                                    24
                                                                                Office of Investigations
escape from Federal custody, was being held               military or VAMC. She instructed the vendors
pending further judicial action.                          to deliver the products directly to the facility,
                                                          and then billed the facility for the goods,
Procurement Fraud                                         keeping the payment for herself and not
                                                          reimbursing the vendors. Sentencing is pending.
• An individual was sentenced to 41 months’
incarceration, 3 years’ supervised release, 300           • An individual who operated as president and
hours’ community service, restitution of                  owner of a company that contracted with VA to
$329,200 to VA, and restitution of more than              supply medical goods to VAMCs pleaded guilty
$3 million to victims of a mail fraud scheme.             to one count of distribution of misbranded
The individual previously was indicted and                medical devices. A VA OIG investigation
convicted on one count each of mail fraud,                disclosed the individual’s company improperly
introduction of mislabeled devices into interstate        labeled and promoted medical supplies as being
commerce, and filing a false income tax return.           sterile, when they actually had not been
A joint investigation by the VA OIG, FDA, FBI,            subjected to any approved sterilization process.
and IRS disclosed the individual, purchasing              The misbranded goods consisted primarily of
director for an import/export company,                    gauze medical pads which were to be used by
purchased non-medical grade latex gloves and              the VAMCs for the treatment of ulcers and
repackaged the gloves, falsely labeling them as           burns. According to false promotional materials
medical grade. He sold more than eight million            distributed by the company, the gauze pads
of the mislabeled gloves to a VA contractor               assisted in the prevention of infection and
who, in turn, sold the gloves to VA, and                  promoted healing.
distributed them to 14 VAMCs nationwide.
                                                          Contract Fraud
• The owner and president of a medical
supply company was charged in a 24-count                  A company that had contracted with VA entered
indictment with mail fraud, making false                  into a civil settlement for $105,000 with the U.S.
statements to the Government, and bankruptcy              Attorney’s office. A VA OIG investigation
fraud, after a joint investigation by the VA OIG,         disclosed the owner of the company charged VA
FBI, Army Criminal Investigative Division, and            for the alleged installation of adaptive
DCIS. The investigation disclosed the                     equipment into vans sold to disabled veterans,
individual misrepresented her company as a                when in fact they never installed the equipment.
Government contractor, misrepresented herself             The company provided full cooperation during
and others as being Government officials, and             the course of the investigation and adopted self-
falsely certified that medical products she               initiated compliance measures to prevent future
supplied were made in the U.S. Investigation              problems.
disclosed the individual was awarded contracts
for her company to provide medical supplies and           Fee Basis Fraud
equipment to U.S. military installations and
VAMCs. To fulfill the contracts, the company              • An individual formerly employed by VA as
had to purchase many of the supplies from                 a doctor in a fee-basis program was sentenced to
outside sources. In the course of procuring some          39 months’ imprisonment, 3 years’ supervised
of these supplies, the individual presented               release, and was ordered to pay $4.9 million in
herself as being a Government procurement                 restitution after pleading guilty to six counts of
officer, convincing vendors that they were                defrauding health care benefit programs and one
receiving supply orders directly from the




                                                     25
Office of Investigations
count of criminal forfeiture. A joint                     joint VA OIG and VA police investigation
investigation by the VA OIG, FBI, and DCIS                disclosed the individual fraudulently claimed
disclosed that in 1981 the individual                     round trip travel reimbursement benefits to a
fraudulently obtained a state license to practice         VAMC, claiming that he traveled more than 140
medicine and then presented to authorities that           miles when, in fact, he traveled only a fraction
he was licensed and qualified to practice                 of that distance.
medicine. He continued this practice for almost
20 years. By using the false credentials he was           • An individual was arrested on charges of
able to defraud Medicare/Medicaid programs,               falsifying vouchers to receive travel benefits to
state health benefits programs, and VA health             which the individual was not entitled. A joint
care benefits programs of more than $4 million.           investigation by the VA OIG and local police
                                                          disclosed the individual, an outpatient at a
• A VAMC claims clerk in the fee basis                    VAMC, entered a relative’s address on
program resigned from his position during the             paperwork provided to VA, telling VA that it
course of a VA OIG investigation into the theft           was the individual’s own address, thereby
of checks sent to the VAMC by fee basis                   obtaining increased travel reimbursement
contractors. Investigation disclosed the                  payments. Total loss to VA was more than
individual instructed a contractor to refund more         $2,500 through the submission of more than 80
than $5,400 to VA by making checks payable to             fraudulent travel vouchers.
him in care of VA. He admitted during the
investigation that he deposited the checks in his         • An individual was arrested based on a joint
girlfriend’s bank account, diverting the funds for        investigation by the VA OIG and local police,
his own use.                                              which disclosed the individual, a veteran
                                                          outpatient at a VAMC, was receiving travel
• An individual employed as a nurse                       benefits to which he was not entitled. The
participating in VA’s fee basis program was               individual provided fictitious residential
sentenced to 5 months’ imprisonment, 5 months’            addresses to VA so that he could obtain
home confinement, 2 years’ probation, and was             increased travel reimbursement payments. Total
ordered to pay $34,600 restitution to VA and a            loss to VA was more than $27,000, through the
$3,000 fine. The individual previously had                submission of more than 650 fraudulent travel
pleaded guilty to two counts of submitting false          vouchers.
claims to the Government. A joint investigation
by the VA OIG and U.S. Postal Inspection                  • An individual was indicted on felony
Service disclosed the individual, who had been            charges of theft by taking and theft by deception,
under contract with VA to perform skilled                 after a joint investigation by the VA OIG and
nursing visits to veterans in their own homes,            local police disclosed the individual, a veteran
submitted false invoices to VA for nursing visits         who was an outpatient at a VAMC, received
that she did not perform.                                 travel benefits to which he was not entitled. The
                                                          individual provided fictitious residential
Travel Benefits Fraud                                     addresses to VA so that he could obtain
                                                          increased travel reimbursements in cash. The
• An individual was sentenced to 12 months’               total loss to VA was in excess of $25,800
incarceration, 36 months’ probation, ordered to           through the submission of more than 650
pay a court fee of $200 and make VA restitution           fraudulent travel vouchers.
of $10,794 after pleading guilty to a one-count
criminal complaint charging him with theft. A




                                                     26
                                                                               Office of Investigations

• A VAMC outpatient was convicted on one                  guaranteed property loans, equity skimmers
count of theft of VA benefits. A joint                    dupe veterans out of their homes, and
investigation by the VA OIG and VA police                 educational benefits are obtained under false
disclosed the individual misrepresented his               representations. The Office of Investigations
address to VA, reporting that he lived farther            spends considerable resources in investigating
from the VAMC than he actually did, in order to           and arresting those who defraud the benefits
collect travel benefits to which he was not               operations of VA.
entitled. Investigation disclosed that, over a 2-
year period, the individual fraudulently collected        Death Match Project
more than $8,000 in travel benefits. He was
subsequently sentenced to 5 years’ supervised             A proactive death match 2000 project was
probation and ordered to make restitution to VA.          conducted by the OIG Information Technology
                                                          and Data Analysis Division at the request of the
• An individual pleaded guilty to a criminal              Office of Investigations. The results of the
information in U.S. District Court charging him           match were transmitted to the investigative field
with theft of Government property. A joint                offices for appropriate action. The death match
investigation by the VA OIG and VA police                 identified in excess of 350 possible cases.
disclosed the individual submitted 114 false              Currently, 129 cases have been opened and 41
claims for beneficiary travel expenses,                   cases closed. These cases have resulted in the
indicating he resided in and traveled from a city         actual recovery of $783,000, with another
located more than 400 miles from the VAMC                 $981,000 in expected recoveries. The five-year
when, in fact, he lived in a metropolitan area            projected cost savings to VA is $3.5 million. In
very close to the VAMC. Over the course of a              addition, there have been two arrests with
3-year period, the individual diverted more than          several others awaiting indictment.
$5,100 in travel benefits to which he was not
entitled. During the course of the investigation,         Employee Misconduct
the individual admitted to filing the false claims
and agreed to make restitution to VA.                     Theft and Embezzlement

                                                          A VARO program support assistant was charged
Veterans Benefits                                         in a criminal complaint with misdemeanor theft.
                                                          A VA OIG investigation disclosed the
Administration                                            individual, who served as treasurer of the VA
                                                          employee association located at the VARO,
VBA provides wide-reaching benefits to veterans           embezzled funds from the VA employee
and their dependents including pension and                association fund. Investigation revealed the
compensation payments, home loan guaranty                 individual made numerous unauthorized cash
services, and educational opportunities. Each of          and automatic teller machine withdrawals from
these benefits programs is subject to fraud by            the association’s account, removing more than
those who wish to take advantage of the system.           $1,200 which she diverted for her personal use.
For example, individuals submit false claims for
service connected disability, third parties steal         Credit Card Theft
pension payments issued after the unreported
death of the veteran, individuals provide false           A VARO vocational rehabilitation counselor
information so that veterans qualify for VA               resigned and agreed to make restitution to VA.




                                                     27
Office of Investigations
A VA OIG investigation disclosed the individual             first $200,000 in January 1997. This was to be
used a Government-issued credit card to make                used for specific purposes including the
personal purchases, including paying for a                  purchase and rehabilitation of a building which
personal trip to France, concert tickets, furniture,        was to become a veteran’s living skills center.
electronic gear, and personal dental care.                  Investigation determined the building was never
Additional investigation of purchases made                  purchased and the pastor used more than
using the card has revealed the employee may                $118,900 for purposes unrelated to the project.
have purchased as much as $100,000 of personal
goods using the Government credit card. The                 Threats to VA Employees
investigation continues and further charges are
pending.                                                    A Federal grand jury indicted an individual on
                                                            three counts of knowingly and willfully
Contract Fraud                                              transmitting interstate communications
                                                            containing threats to injure another person. A
An individual pleaded guilty to converting                  joint investigation by the VA OIG and USSS
money belonging to VA for his own use. A VA                 disclosed the individual, a veteran, made several
OIG investigation disclosed the individual, a               interstate telephone calls threatening to kill an
pastor of a church, acted as the president of a             attorney appointed by VA to act as his fiduciary
nonprofit organization whose purpose it was to              and guardian. He also made interstate telephone
improve the quality of life for persons living in           calls to a VARO during which he threatened to
the area around the church. While acting as                 kill two VARO employees.
president, the individual applied for a $500,000
“VA Homeless Providers and Per Diem” grant,
to be used to provide transitional housing and
vocational skills to homeless veterans. The
application was approved and VA forwarded the




        Pastor in $119,000 scam

        [picture not available]




                                                       28
                                                                               Office of Investigations

Loan Guaranty Program Fraud                              sales company produced fraudulent W-2 forms
                                                         and other employment verification documents
Loan Origination Fraud                                   for potential buyers, and the second employee
                                                         facilitated the payment of outstanding debts.
• A husband and wife, who contracted with a              The money used for payment of the debt would
VARO to participate in the VA loan guaranty              result in a second loan between the homebuyer
program, were each suspended for 12 months               and the home sales company which would not
from participation in the program after it was           be disclosed on the mortgage application. The
found they had engaged in fraudulent practices.          individual formerly employed by a new home
A joint investigation by the VA OIG and HUD              development company submitted documents
OIG disclosed that the wife created fraudulent           which contained false information. The former
endorsements on a master certificate of                  mortgage broker arranged for fake cash gifts to
reasonable value for condominium units, which            loan applicants who did not meet the criteria for
increased the number of units approved for sale          guaranteed loans. These gifts enabled the
and the selling price of units under VA’s loan           applicant to appear to be financially capable of
guaranty program. She forged the names and               handling the mortgage payments. After the
signatures of two VARO employees on the                  mortgage closing, the loan applicants had to re-
documents in order to make the transaction look          pay the cash gifts with interest. The real estate
legitimate. The husband was general manager              sales representative assisted applicants in paying
of the company which built and managed the               off existing loans and hiding the pay-offs from
condominium units and stood to benefit from the          the lender by wrapping the new loan in an
increases created by the fraudulent documents.           inflated property appraisal or gift letter. The
Prosecution was declined by the Department of            investigation continues against additional
Justice and further administrative action by the         individuals.
VARO is pending.
                                                         • French law enforcement authorities arrested
• A joint investigation by the VA OIG, U.S.              two individuals when they attempted to pick up
Postal Inspection Service, and HUD OIG                   money that was wired to them by relatives in the
disclosed evidence of a loan origination fraud           U.S. Their arrest was the result of an indictment
scheme for properties with loans guaranteed by           charging them with 14 counts of mail fraud. A
VA and HUD. A group of individuals falsified             joint investigation by the VA OIG and FBI
documents in order to qualify buyers for                 disclosed the individuals were engaged in a
properties for which they were not qualified.            nationwide bankruptcy fraud and equity-
Thus far, six individuals have pleaded guilty to         skimming scheme. They would attempt to delay
charges of making false statements. Those who            foreclosure on VA-guaranteed home loans by
pleaded guilty include an attorney for a private         taking over the loans and then filing bankruptcy
mortgage company, two individuals employed               under different company names. They also
by a home sales company, an individual                   charged the homeowners exorbitant fees for
formerly employed by a new home development              participation in the service. In November 1999,
company, a mortgage broker, and a real estate            a search warrant was executed on the residence
sales representative. Investigation disclosed the        where they were operating the scheme. Shortly
attorney’s role in the scheme was to falsify VA          thereafter, they fled the U.S. Additional charges
loan applications by facilitating the payment of         are expected to be filed against the individuals in
outstanding credit debts for potential buyers.           a pending superseding indictment.
One of the individuals employed by the home




                                                    29
Office of Investigations

• An individual was sentenced to 6 months’              pay the down payment and closing costs to
imprisonment and 3 years’ probation after               purchase the properties.
pleading guilty to a criminal information
charging him with making a false statement to a         Other Loan Guaranty Fraud
federally insured lending institution. A joint
investigation by the VA OIG and FBI disclosed           An individual was indicted on charges of
the individual operated a “credit repair”               making a false statement. A joint investigation
business, which furnished documentation to              by the VA OIG and the Social Security
home loan providers showing that borrower’s             Administration (SSA) disclosed the individual
bad credit had been cleared, when in fact, the          falsified an application for a VA-guaranteed
bad credit remained unchanged. Among the                mortgage, providing misleading information
individual’s customers in the scam were persons         regarding his identity, earnings, and employment
applying for VA-guaranteed home loans.                  in order to obtain a mortgage for which he
                                                        otherwise would not have been qualified. The
• An individual was arrested and charged with           individual subsequently defaulted on the loan,
making false statements and fraudulent use of a         causing a $36,300 loss to the Government.
Social Security number after a joint
investigation by VA OIG, HUD OIG, and FBI,              Possession of Explosive Devices
disclosed the individual made false statements
on a Federal mortgage loan application and              An individual was charged with possession of
falsely represented himself using another               explosive devices and reckless endangerment
person’s Social Security number. During the             after a large amount of military-type explosives,
course of an interview subsequent to his arrest,        weapons, and ammunition were discovered in
the individual admitted making false statements         his house during a routine foreclosure inspection
to the Government and admitted that he had              being conducted by VA loan guaranty personnel.
fraudulently used a Social Security number              When the VA personnel located the weapons
which did not belong to him. The investigation          they immediately contacted the VA OIG and
continues and charges are pending against other         county police. Once on the scene, VA OIG
individuals involved in the fraud scheme.               personnel assisted police officials in conducting
                                                        a search of the property and with subject
Property Management Fraud                               interviews. Items found during the search
                                                        included 81mm mortar rounds, ammunition for
Ten individuals were charged with conspiring to         grenade launchers, parts for machine guns and
commit bank fraud, loan application fraud, mail         mortars, and jugs of sulfuric and nitric acids.
fraud, wire fraud and defrauding the                    Other agencies involved in the continuing
Government in connection with the purchase of           investigation include the Bureau of Alcohol,
foreclosed properties. A joint investigation by         Tobacco, and Firearms; state fire marshals;
the VA OIG and HUD disclosed the individuals            Army Explosive Ordinance Division; and state
unlawfully profited through the sale of real            police.
estate by submitting false information to banks,
mortgage brokers, and the Government. The
individuals used “straw buyers” to acquire
foreclosed VA and HUD homes. The true
buyers of the properties did not have sufficient
income or assets to qualify for the loans and to




                                                   30
                                                                                 Office of Investigations

Beneficiary Fraud                                           more than 5 years, the individual allowed VA to
                                                            send the benefits checks to the aunt’s home.
VA Dependency and Indemnity                                 According to VA regulations, benefits should
Compensation (DIC) Benefits Fraud                           terminate at the time of death. Investigation
                                                            showed the individual endorsed and deposited
• An individual was sentenced to 18 months'                 the checks into a joint account bearing his and
imprisonment, 30 months' probation, and VA                  his aunt's names, converting more than $65,000
restitution of more than $80,000, following a               in benefits to his own use. At one point, he also
prior guilty plea to charges of theft of VA                 completed a VA form requesting a replacement
benefits. A joint investigation by the VA OIG               check, forging his deceased aunt's name to the
and USSS determined the individual's wife had               form.
been receiving DIC benefits prior to their
marriage, as the surviving spouse of a deceased             • An individual was sentenced to 8 months’
veteran. VA regulations provide that remarriage             imprisonment, 36 months’ supervised probation,
or death terminates entitlement to DIC                      and ordered to pay VA restitution of more than
payments. Investigation disclosed the wife                  $43,800 after pleading guilty to theft of public
failed to notify VA upon her remarriage in 1983.            money. A VA OIG investigation disclosed the
The individual failed to notify VA when his wife            individual, a legitimate recipient of DIC benefits
died in 1988. Subsequent to the wife’s death,               as the surviving spouse of a deceased veteran,
DIC benefits totaling more than $80,000 were                failed to advise VA of her remarriage. She
deposited into her checking account and then                collected more than $44,000 in benefits to which
withdrawn by the individual. The theft of these             she was not entitled. According to VA
VA benefits was discovered in 1997, when the                regulations, DIC benefits terminate upon
individual shot his present wife who had                    remarriage.
threatened to notify VA authorities that he was
stealing VA benefits funds.                                 • An individual was sentenced to 5 years’
                                                            probation and VA restitution of $38,500 after a
• An individual was indicted and charged with               VA OIG investigation disclosed that, for almost
five counts of theft. A VA OIG investigation                15 years, he engaged in a scheme to steal VA
disclosed that for more than 6 years the                    DIC benefits intended for his mother, a VA
individual failed to notify VA of the death of her          beneficiary. Investigation showed the individual
mother, a VA beneficiary in receipt of DIC                  failed to report his mother’s death to VA and
benefits. The individual allowed VA to continue             arranged for the funds to be direct-deposited into
to electronically deposit the funds into a bank             an account, which he and his mother had shared.
account she had shared with her mother,                     He established a second bank account by forging
allowing her access to more than $78,500 to                 his deceased mother's signature, transferred
which she was not entitled.                                 funds from the first account into this new
                                                            account and proceeded to access and spend the
• An individual was charged with two counts                 funds.
of false statements after having been previously
indicted on one count of theft of Government                • An individual was sentenced to 6 months’
money. A joint investigation by the VA OIG                  confinement in a halfway house, 3 years’
and U.S. Postal Inspection Service disclosed the            supervised probation, and was ordered to pay
individual failed to report the death of his aunt, a        restitution of $41,500 after pleading guilty to
VA beneficiary in receipt of DIC benefits. For              charges of forgery of VA benefits checks. A
                                                            joint VA OIG and FBI investigation disclosed




                                                       31
Office of Investigations
the individual concealed the death of his mother,         was subsequently sentenced to 30 months’
a beneficiary in receipt of DIC benefits as the           probation and ordered to pay $13,532 restitution
surviving spouse of a deceased veteran, in order          to VA. A VA OIG investigation disclosed the
to wrongfully divert the benefits checks as they          individual failed to notify VA in 1993 of the
were mailed to her post office box. The                   death of his mother, a VA beneficiary in
individual negotiated the checks at a local bank          recipient of DIC benefits. He continued for
after forging the signature of his deceased               almost 6 years to divert benefits payments.
mother, thus diverting more than $40,000 in
benefits for personal use.                                • An individual was sentenced to 3 years’
                                                          probation and ordered to make restitution of
• An individual was arrested after failing to             more than $28,100 after pleading guilty to theft
appear in U.S. District Court to answer charges           of Government funds. A VA OIG investigation
of theft of Government property, after being              disclosed the individual failed to disclose the
indicted on 16 counts of theft. A joint                   death of her mother, a widow in receipt of DIC
investigation by the VA OIG, SSA OIG, and                 benefits, and continued for more than 3 years to
Health and Human Services (HHS) OIG                       allow the benefits payments to be electronically
disclosed the individual failed to report to VA           deposited in a joint account she had shared with
the death of his mother, a VA beneficiary, and            her mother. She proceeded to access the funds,
continued to divert more than $31,000 in DIC              diverting more than $28,100 to which she was
and SSA benefits to which he was not entitled.            not entitled.
Investigation disclosed the payments were being
electronically deposited into a joint account that        • An individual was sentenced to 5 years’
the individual shared with his mother, but the            probation, 6 months’ home detention, and was
receipt of benefits should have been terminated           ordered to pay $47,800 restitution to VA after
at the time of her death. A trial date is pending.        being arrested and pleading guilty to charges of
                                                          theft of Government funds. A VA OIG
• Three individuals who had previously been               investigation disclosed the individual failed to
arrested and charged with conspiracy and mail             report the death of her mother, who had been
fraud for taking part in a benefits theft scheme          receiving DIC benefits as surviving spouse of a
pleaded guilty and were each sentenced to 5               veteran and continued for more than 5 years to
years’ probation, 300 hours’ community service,           allow VA to electronically deposit the benefits
and restitution for their participation in the            payments into a bank account she had held
scheme. A joint investigation by the VA OIG,              jointly with her mother. Each month, the
USSS, and local police disclosed the individuals          individual would use her deceased mother’s
had been acting as caregivers for an elderly              teller-machine card and personal identification
individual, who was receiving DIC benefits as             number to withdraw the funds deposited into the
the surviving spouse of a veteran. The                    account by VA. By means of this scheme, the
individuals failed to notify VA when the                  individual wrongfully converted more than
recipient died and continued for almost 2 years           $47,800 to her own use.
to receive, negotiate, and use benefits payments.
Restitution was ordered in the amounts of                 • An individual was arrested and pleaded
$10,691 from one individual, $4,010 from the              guilty to charges of theft of Government funds
second, and $1,620 from the third.                        and passing forged U.S. Treasury checks. A VA
                                                          OIG investigation disclosed the individual failed
• An individual pleaded guilty to a criminal              to report to VA the death of her mother, a VA
information charging him with felony theft. He            beneficiary, and continued for more than 3 years




                                                     32
                                                                               Office of Investigations
to divert DIC benefits to which she was not              remarriage. Since the remarriage in 1998, the
entitled. During that time she assumed her               individual diverted more than $17,700 in DIC
mother’s identity in order to intercept and              benefits to which she was not entitled.
negotiate DIC checks that continued to be
mailed to her mother. The total loss to VA               • An individual was sentenced to 5 years’
exceeded $32,000. Sentencing is pending.                 probation and 500 hours’ community service for
                                                         her actions. A VA OIG investigation disclosed
• An individual pleaded guilty to a one-count            the individual wrongfully diverted DIC benefits
criminal information charging him with                   checks issued to her mother, as surviving spouse
fraudulently receiving more than $63,000 in DIC          of a deceased veteran. The individual failed to
benefits intended for his mother, the widow of a         notify VA of her mother’s death and continued
veteran. A VA OIG investigation disclosed the            for more than 3 years to receive and negotiate
individual failed to report the death of his             the benefits checks. Loss to VA exceeded
mother in 1988 and continued for almost 10               $21,500. A restitution hearing is pending.
years to allow the benefits to be electronically
deposited into a joint bank account. Sentencing          • An individual was charged in a criminal
is pending.                                              indictment filed in U.S. District Court with one
                                                         count of theft of VA property. A joint
• An individual was sentenced to 3 years’                investigation by the VA OIG and FBI disclosed
supervised release and restitution of $103,963           the individual failed to notify VA of the death of
after being indicted on charges of theft of DIC          her mother, the widow of a veteran in receipt of
benefits intended for his mother, the widow of a         DIC benefits. This continued for 7 years and
deceased veteran. Additionally, $14,510 was              wrongfully diverted more than $86,700 in
recovered from the bank where the VA benefits            benefits intended for her mother.
had been electronically deposited. A VA OIG
investigation disclosed that for 8 years, the            Pension Benefits Fraud
individual fraudulently diverted more than
$118,000 in DIC benefits intended originally for         • An individual was sentenced to 5 years’
his mother and later for his step-sister, who was        probation, 6 months’ confinement to a halfway
designated recipient of the benefits after the           house, and ordered to pay VA restitution of
mother died.                                             $13,000 after pleading guilty on charges of theft
                                                         of Government funds. A VA OIG investigation
• A criminal complaint was filed in U.S.                 disclosed the individual failed to notify VA of
District Court charging an individual employed           the death of her father, a VA beneficiary in
as a special agent for the U.S. Air Force, Office        receipt of VA pension benefits. The individual
of Special Investigations, with theft of                 accessed more than $14,000 in benefits to which
Government funds. A joint investigation                  she was not entitled.
determined that the individual had been
receiving DIC benefits since 1977, as the                • An individual was sentenced to 3 years’
surviving spouse of a deceased veteran. VA               probation and ordered to pay VA restitution of
regulations provide that remarriage or death             $33,462. The individual, a veteran, previously
terminates entitlement to DIC payments.                  had pleaded guilty to a criminal indictment
Investigation disclosed the individual remarried         charging him with theft of Government funds
in 1998 and failed to notify VA. On a benefits           after a VA OIG investigation disclosed he had
questionnaire sent by a VARO, the individual             been receiving VA pension benefits based on no
provided false information regarding the




                                                    33
Office of Investigations
reportable income while failing to report                years, the individual annually submitted false
earnings his wife received from various jobs.            VA income reports declaring that no
                                                         employment income was received while actually
• An individual was sentenced to 3 years’                working full-time in a personally-owned
probation and ordered to pay VA restitution of           residential maid service. The actual
$24,800. The sentencing follows a guilty plea to         employment income far exceeded the amount
charges of theft of Government money after a             allowed by law for the individual to be eligible
VA OIG investigation disclosed the individual, a         to receive VA pension benefits.
veteran in receipt of VA pension based on no
reportable income, failed to disclose income             • An individual was arrested and indicted on
from various jobs and thereby received VA                charges of theft and forgery of a $19,700 U.S.
benefits to which he was not entitled.                   Treasury check intended to provide VA pension
                                                         benefits for the widow of a veteran. A joint
• An individual was indicted and charged with            investigation by the VA OIG, U. S. Postal
theft of public monies. A VA OIG investigation           Service, and local police disclosed the individual
disclosed the individual submitted false                 engaged in a scheme with her boyfriend to steal
eligibility documents to VA, on which he failed          the check from the widow’s mail. The pair then
to disclose family income, in order to receive           duped a local businessman into assisting them in
pension benefits to which he was not entitled.           negotiating the stolen check, using the proceeds
Through the submission of the false documents,           to open personal bank accounts. Criminal
the individual received more than $9,700 in              charges are pending and the investigation
benefits.                                                continues.

• An individual pleaded guilty to one count of           • An individual pleaded guilty to charges of
fraudulent acceptance of payments. A joint               theft of Government funds and was sentenced to
investigation by the VA OIG and Naval                    5 years’ probation, 6 months’ home detention,
Criminal Investigative Service disclosed the             and ordered to pay VA restitution of $28,400.
individual, for more than 5 years, received VA           The sentencing was the result of a VA OIG
pension benefits based on his claim of no other          investigation which disclosed the individual, the
income. However, he was concealing the receipt           sister of a deceased veteran, failed to report her
of workers’ compensation benefits for a work-            brother’s death to VA and continued for more
related knee injury. Investigation showed the            than 3 years to forge and negotiate VA pension
individual submitted forms to VA concealing the          benefit checks that were issued to her brother.
receipt of more than $57,000 in workers’
compensation benefits and through this                   Education Benefits Fraud
deception was able to receive more than $40,800
in pension benefits to which he was not entitled.        An individual pleaded guilty after being indicted
Sentencing is pending.                                   on charges of using a false Social Security
                                                         number, bank fraud, and theft of Government
• An individual was sentenced to 5 years’                property relative to the wrongful receipt of VA
probation, 1,000 hours’ community service, and           educational benefits. A joint investigation by
was ordered to pay a $2,000 fine and $18,500             the VA OIG, FBI, SSA OIG, and local police
restitution to VA. He had previously pleaded             disclosed the individual used the name, Social
guilty to making a false statement to                    Security number, and identity of another
fraudulently obtain VA pension benefits. A VA            individual enrolled at a university to enroll
OIG investigation disclosed that, for more than 5        himself in a master’s degree program at the




                                                    34
                                                                                Office of Investigations
same university. Using the false information,              in the U.S. Marine Corps during the Vietnam
the individual applied for and received VA                 War. The individual claimed these events
educational benefits to which he otherwise                 caused him to develop post-traumatic stress
would not have been entitled. The individual               disorder, for which he was rated 100 percent
was a veteran, but would not have qualified for            disabled. A separate investigation by the FBI
the educational benefits on his own because his            and U.S. Secret Service into threats made
grade point average did not qualify him for                against the President disclosed the individual
admission. He arranged for payment of the                  was involved in making the threats in question,
tuition and supplies by using VA’s vocational              and further investigation resulted in findings of
rehabilitation program, which paid for tuition,            his involvement in the fraud. The individual
books, and supplies and paid a monthly                     pleaded guilty to possession of explosive
subsistence to the student. By engaging in this            devices in that separate matter and is serving a
scheme, the individual defrauded VA into                   13-year prison sentence for those charges. The
paying for an education to which he otherwise              current investigation into VA compensation
would not have been entitled. Loss to the                  fraud came about during plea negotiations in the
Government was more than $17,000.                          separate investigation. Loss to VA as a result of
Sentencing is pending.                                     the individual’s false statements was more than
                                                           $262,000.
Compensation Benefits Fraud

• An individual was indicted on five counts of
wire fraud and one count of theft of public
monies. A joint investigation by the VA OIG
and FBI disclosed the individual, a veteran,
made numerous misrepresentations to the VA
relative to his military duties, injuries received,
and traumatic events he witnessed while serving




        Pickering

        [picture not available]




                                                      35
Office of Investigations

• An individual was arrested and charged with             more than $48,900 in VA benefits intended for
negotiating forged U.S. Treasury checks and               the widow and the veteran’s children.
stealing Government funds after a VA OIG
investigation disclosed the individual, the               • An individual was indicted and charged with
daughter of a deceased veteran, diverted VA               one count of making false claims to the
compensation benefits checks that were mailed             Government. A VA OIG investigation disclosed
to her father’s residence. VA had originally              the individual applied for increased VA
been notified of the veteran’s death, and the             compensation benefits by declaring he was not
benefits payments had ceased, but by contacting           employed and could not obtain future
authorities she convinced them that the veteran           employment due to a service-related disability.
was alive and was able to get the benefits                However, he was employed full time. Based on
payments started again. Once the checks were              his declaration of unemployability, he received
mailed to her father’s residence, she diverted the        more than $16,000 in benefits to which he was
checks, forged the name of the deceased veteran           not entitled.
on the checks, and deposited them into her own
account. Judicial actions are pending.                    • An individual was charged with violating
                                                          the conditions of his supervised release after a
• A former VARO senior claims examiner                    VA OIG investigation disclosed he had made
was sentenced to 12 months’ imprisonment and              false statements to the U.S. Probation Service
ordered to pay VA restitution of $40,000. An              while serving a sentence for a prior conviction
investigation disclosed the individual created            on mail fraud and aiding and abetting. In order
records which fraudulently inflated the disability        to qualify for a work-release program, the
rating for a co-worker’s disability compensation          individual falsely certified that he was gainfully
award and thereby enabled her to wrongfully               employed and not in receipt of any other
obtain $40,000 in benefits payment from VA to             income. However, investigation disclosed he
which she was not otherwise entitled.                     was receiving VA compensation benefits at a
Investigation further disclosed the former claims         rate of 100 percent due to his “unemployable”
examiner endeavored to obstruct the                       rating. Sentencing is pending.
investigation by counseling the co-worker to lie
to special agents during the course of the                • An individual pleaded guilty to one count of
investigation and by destroying evidence.                 theft after a VA OIG investigation disclosed the
                                                          individual had wrongfully engaged in a scheme
• An individual was indicted and charged with             to receive VA compensation benefits under two
four counts of mail fraud and one count of theft          separate claim numbers. Investigation disclosed
of Government funds. A VA OIG investigation               the individual initially collected more than
disclosed the individual devised and executed a           $21,800 in benefits based on the submission of
scheme where, by means of false pretenses and             an altered military discharge document and a
representations, he gained power of attorney              VA benefits application containing false
over the affairs of the widow of a deceased               information. During the time period that he was
veteran. He alleged he was trying to assist the           collecting these benefits, the individual had not
widow in overcoming difficulties she was                  yet been discharged from the military.
having to obtain VA compensation benefits                 Investigation further disclosed that, while
based on her husband’s military service. In               receiving monthly benefits payments under the
reality, he used the power of attorney to                 first claim, he also received more than $10,600
fraudulently obtain and convert to his own use            in VA benefits based on a second claim. Total




                                                     36
                                                                                  Office of Investigations
monetary loss is $32,825. Sentencing is                     • An individual serving as fiduciary for her
pending.                                                    minor child was sentenced to 18 months’
                                                            probation, 50 hours’ community service, and must
Fiduciary Fraud                                             pay $10,000 restitution in accordance with a pre-
                                                            trial diversion program she entered into, pursuant
• The former wife of a veteran was sentenced                to an indictment and arrest on charges of
to 2 years’ probation and was ordered to pay VA             misappropriation by a fiduciary. A VA OIG
restitution of $21,100 after having pleaded guilty          investigation disclosed the individual, while
to charges of mail fraud. A VA OIG                          serving as fiduciary for her minor child,
investigation disclosed that, for more than 25              converted to her own use veteran’s life insurance
years, the individual submitted documents to VA             proceeds totaling $10,000 which were intended
which fraudulently reflected the veteran resided            for the benefit of the child. After being indicted,
at certain addresses, requesting that his benefits          the individual withdrew as representative payee
checks be mailed there. Investigation disclosed,            for Social Security benefits that were also being
however, that only the wife resided at the                  issued to the minor child. VA and the SSA
addresses that were given, not the veteran. The             designated the child’s paternal aunt to take over
wife opened a bank account in both names,                   the duties of VA fiduciary and SSA representative
forging the veteran’s name on the account and               payee in order to oversee the child’s benefits.
on the benefits checks that were received,
wrongfully converting the benefits monies to her            • An individual was sentenced to 2 months’
own use.                                                    imprisonment, 36 months’ probation, a $5,000
                                                            fine, and 250 hours’ community service after
• A VA fiduciary who previously had been                    pleading guilty to a criminal information
arrested and had pleaded guilty to charges of theft         charging him with one count each of
of Government funds was sentenced to 3 years’               misappropriation by a VA fiduciary and
probation, 6 months’ home detention, and was                fraudulent conversion of SSA benefits. A joint
ordered to pay VA restitution of $17,091. A VA              investigation by the VA OIG and SSA OIG
OIG investigation disclosed that from May 1997              disclosed the individual stole money from six
through January 1998, the individual, acting as             veterans entrusted to his care, using the money
fiduciary for her half-brother, a veteran in receipt        for his own purposes.
of VA disability payments, stole the half-brother’s
disability payments that exceeded $1,900 per                • An individual was sentenced to 18 months’
month. In May 1997, the veteran was convicted               incarceration, 36 months’ supervised release,
of felony charges and was sentenced to serve 5              500 hours’ community service, and was ordered
years in prison. The fiduciary failed to notify VA          to pay VA restitution of $7,896. He had earlier
that her half-brother was incarcerated and                  been convicted on six counts of theft of
continued for 8 months to receive the disability            Government funds after a VA OIG investigation
payments until VA discovered the incarceration              disclosed the individual, while serving as a
and terminated the benefits. Benefits should have           veteran’s financial guardian, diverted the
been terminated after 60 days incarceration. The            veteran’s VA pension benefits and personally
fiduciary wrongfully obtained approximately                 used the funds.
$17,000 as a result of this scheme. At the time
of her arrest, the fiduciary was on probation for           • An individual was sentenced to 32 months’
homicide.                                                   incarceration, 3 years’ supervised release,
                                                            ordered to pay $214,745 restitution to VA and
                                                            the SSA, and reimburse the Government




                                                       37
Office of Investigations
$89,929 in fees that he earned as a fiduciary.           Social Security disability insurance benefits as
The individual previously had pleaded guilty to          well as workers’ compensation benefits at the
a one count criminal information charging him            same time. According to regulations, he was not
with embezzlement after a VA OIG                         allowed to receive benefits under both programs.
investigation disclosed the individual embezzled         Investigation disclosed the individual obtained
funds while acting as a fiduciary for SSA and            different Social Security numbers and used
VA beneficiaries.                                        different names in order to obtain multiple
                                                         benefits payments. Sentencing is pending.
• An individual was sentenced to 366 days’
imprisonment, 36 months’ supervised probation,           • An individual who formerly served as
and ordered to make restitution of $65,000 as the        national service officer for the Disabled
result of a criminal conviction on charges of            American Veterans pleaded guilty to a criminal
embezzling VA benefits paid to an incompetent            information charging him with soliciting and
veteran. A VA OIG investigation disclosed the            receiving funds from a veteran. A VA OIG
individual misused his position as fiduciary for         investigation disclosed the individual solicited
an incompetent veteran to access funds to which          and received $500 as payment from a veteran
he was not entitled.                                     who sought his assistance in applying for VA
                                                         disability benefits.
Theft of Benefits
                                                         Work-Study Program Fraud
Two individuals were arrested pursuant to
charges that they engaged in a conspiracy to             • Two individuals were indicted and charged
negotiate stolen U.S. Treasury checks and                with conspiracy to submit false claims to the
possess stolen mail. The arrests resulted from a         Government. A VA OIG investigation disclosed
joint investigation by VA OIG, USSS, and U.S.            that one of the individuals, a VA work-study
Postal Inspection Service into the theft and             program participant at the Congressional Medal
negotiation of a veteran’s VA compensation               of Honor Society, submitted biweekly claims for
check of $27,711. Investigation disclosed the            salary payments during a period of almost a year
individuals conspired to divert a check from the         when she did not work at the Society. She was
veteran’s mail, wrongfully negotiate the check           aided in the scheme by the second individual,
and then split the proceeds, each depositing a           her sister, who was employed as a secretary by
share of the funds into personal bank accounts.          Society. The sister, in her capacity as secretary,
Authorities were notified of the theft of VA             intercepted contracts and claims forms issued by
benefits after the veteran failed to receive the         VA and furnished them to the first individual
payment and requested a duplicate check be               who completed and returned them to VA via
issued. A criminal complaint previously was              U.S. mail. Loss to the Government was
filed against the individuals in U.S. District           approximately $5,100. A trial date has not yet
Court and criminal proceedings are pending.              been set.

Other Benefits Fraud                                     • Three individuals, two former VA
                                                         employees and one current VA employee, were
• An individual pleaded guilty to wire fraud             arrested and charged in three criminal
after a joint investigation by the VA OIG, SSA           informations with knowingly and willfully
OIG, and the U.S. Postal Inspection Service              making materially false statements on work-
disclosed the individual, a veteran, knowingly           study time records maintained by VA. A joint
engaged in a scheme to wrongfully receive                investigation by the VA OIG and FBI disclosed




                                                    38
                                                                                Office of Investigations
that work-study time records filed for the                 with the stolen card. A records check of the
summer and fall semesters of 1999 falsely                  license plates indicated that it was owned by a
claimed that one of the subjects was still                 relative of the VA employee, who admitted
enrolled as a student at a university when he              during a subsequent interview to stealing the
already had graduated. Investigation further               card. The relative further admitted to each
disclosed that neither the first individual nor the        transaction as it appeared on the card statement.
second, allegedly a co-worker, performed any               Further judicial action is pending.
duties for VA when they were filing the false
time records. The third individual, a veterans
service representative whose duty it was to
supervise the work-study students, approved the
                                                           Board of Veterans’
false work-study time records and transmitted              Appeals
the information for payment.
                                                           Employee Misconduct
• An individual was sentenced to 3 years’
probation and ordered to make VA restitution of            An individual employed as an attorney with the
$3,800 and to undergo counseling after pleading            Board of Veterans’ Appeals was suspended for
guilty to two counts of fraud and two counts of            30 calendar days after being charged with
forgery. The sentencing was the result of a joint          unauthorized use of a Government computer and
investigation by the VA OIG and state police               harassment. A VA OIG investigation disclosed
which disclosed the individual, a veteran                  the individual used her Government computer to
participating in a VA-sponsored work-study                 access an Internet e-mail provider to create a
program, forged her supervisor’s initials and              fictitious account, which she then used to send
filed at least 12 fraudulent time sheets, falsely          threatening and harassing e-mail messages to
claiming that she worked more than 400 hours.              two co-workers.

Credit Card Fraud
                                                           Office of Human
An individual was charged in a criminal
information with one count of theft and one
                                                           Resources and
count of credit card fraud, after a joint                  Administration
investigation by the VA OIG, VA police, and
local authorities disclosed the individual stole a         Support to VA Central Office
VA credit card from a VA employee’s wallet
while visiting the employee’s home. The                    An individual formerly employed as a contract
individual used the card to purchase more than             security guard assigned to VA was arrested and
$3,300 in merchandise for personal use,                    charged with the theft of $3,700 in Government
including purchasing custom wheels and special             property. A joint investigation by the VA OIG,
tires for his automobile. Surveillance was                 Federal Protective Service, FBI, and VA police
conducted on the employee’s home and an                    disclosed the individual and two associates were
adjacent parking lot during the course of the              involved in a series of thefts of computers and
investigation, in order to gain information that           computer-related equipment from VA offices.
may have led to the identification of the                  The individual and his associates were observed
individual who stole the card. During the                  removing equipment from VA offices and
surveillance, a vehicle was observed parked with           concealing it for pickup at a later time. One of
wheels and tires identical to the ones purchased




                                                      39
Office of Investigations
the associates has already been charged in the            There were a total of 40 reports issued during
case; the other associate still has charges               this semiannual period.
pending. The total loss was nearly $100,000.
                                                              Laboratory Cases for the Period
                                                                                         Cases
                                                                   Requester
                                                                                       Completed
National Cemetery                                         OIG Office of Investigations     17
Administration                                            VA Regional Offices                      20
                                                          Office of Security and Law
Employee Integrity                                        Enforcement
                                                                                                   1

A former assistant director of operations at a VA         Other Federal Agency                     2
national cemetery was convicted on five counts                        TOTAL                        40
of converting Government property to his own
personal use or the use of others, and one count          The following are examples of completed
of mail fraud. A VA OIG investigation                     laboratory work:
disclosed the individual initiated the illegal
removal of 400,000 tons of soil from the                  • Laboratory examinations during this period
cemetery where he worked. In an effort to                 identified fraudulent documents in two cases
justify the illegal removal of soil, he prepared a        submitted by VARO Manila that prevented
false service contract in an attempt to validate          payment of $87,505 in VA benefits.
the operation. The contractor with whom he
made the fraudulent arrangement made over                 • The laboratory identified forged signatures
$17,000 in profit from the operation. The                 and fraudulent documents in seven Government
individual has been on leave without pay since            life insurance cases that prevented payment of
he was indicted. The chief operating officer for          $79,082 to the wrong beneficiaries.
the company that removed the soil pleaded
guilty in a separate hearing in U.S. District             • The U.S. Small Business Administration
Court to one count of obstruction of justice.             OIG submitted two requests for handwriting
                                                          analysis. Two top executives of a company
                                                          were charged with receiving $3.2 million in
OIG Forensic Document                                     progress payments from the Government on
                                                          construction contracts. Subsequently, they did
Laboratory                                                not pay subcontractors $1.2 million for work
                                                          they certified had been completed. Both
The OIG operates a nationwide forensic                    executives were charged with conspiracy to
document laboratory service for fraud detection           defraud, false claims, and major fraud against
that can be used by all elements of the VA. The           the Government. Laboratory analysis identified
types of requests routinely submitted to the              the executives as the authors of handwriting on
laboratory include handwriting analysis,                  the fraudulent documents and checks submitted
typewriting analysis, ink and paper analysis,             by the executives. One of the executives
analysis of photocopied documents, and                    pleaded guilty and the other is awaiting trial.
suspected alterations of official documents.
                                                          • A former VAMC physician was the subject
                                                          of a major VA OIG investigation to determine




                                                     40
                                                                             Office of Investigations
whether he intentionally murdered VA patients
under his care at a VAMC. The laboratory was
                                                        II. ADMINISTRATIVE
called upon for assistance several times during         INVESTIGATIONS
this high profile investigation. Handwriting and
medical document analysis was conducted, as             DIVISION
well as coordination with the FBI laboratory,
regarding the analysis of hair samples taken            Mission Statement
from the doctor’s deceased girlfriend. The role
of the laboratory supported an indictment of the
                                                            Independently review allegations and
doctor and his guilty plea to, among other
                                                            conduct administrative investigations
charges, three counts of murder.
                                                            generally concerning high ranking senior
                                                            officials and other high profile matters of
• The VA loan guaranty service requested                    interest to the Congress and the
laboratory examinations of power of attorney                Department.
and real estate loan documents to determine if
the signatures were genuine. Laboratory
examinations determined the documents were              Resources
forged and identified a law enforcement officer
as the author of the documents. The case was            The Administrative Investigations Division has
sent for further investigation.                         nine FTE assigned. The following chart shows
                                                        the percentage of resources utilized in reviewing
• VA OIG investigated an individual who                 allegations by program area.
assisted the widow of a 100-percent service
connected veteran in obtaining DIC benefits.
The widow did not understand English.
Laboratory examinations identified that the
individual forged the widow’s signature on U.S.
Treasury checks as well as on 41 other                        VHA
                                                                                  V BA
documents. The subject was responsible for                    95%
                                                                                  5%
defrauding the widow of $48,915. During the
trial, the defense agreed with the laboratory
findings, which played a major role in the jury
finding the defendant guilty on four counts of
mail fraud and one count of theft.

                                                        Overall Performance
                                                        During the reporting period, the Division closed
                                                        22 cases, 2 of which had Congressional interest.

                                                        Output
                                                        • During the reporting period, eight reports
                                                        were issued. Fourteen cases resulted in
                                                        administrative closures.




                                                   41
Office of Investigations

Outcome                                                    Sale and Consumption of Alcohol
• Administrative sanctions: VA managers                    Issue
agreed to take 11 administrative sanctions
against high-ranking officials.                            An administrative investigation substantiated
• Corrective actions: VA managers agreed to                that a VAMC Director violated Federal
take seven corrective actions to improve                   regulations and state law by not giving written
operations and activities, to include issuing bills        approval for the consumption of alcohol during a
of collection in three instances for collection of         fundraising event on the facility's grounds and
monies due VA.                                             by not obtaining a state license for the sale of the
                                                           alcohol. VHA officials agreed to our
The Administrative Investigations Division                 recommendations to take appropriate
reports discussed below address serious issues of          administrative action against the Director and to
misconduct against high-ranking officials and              advise him to fully inform regional counsel of
other high profile matters of interest.                    the circumstances when assessing the
                                                           appropriateness of selling alcohol on-station.
                                                           (Improper Approval for the Sale and
Veterans Health                                            Consumption of Alcohol, Carl T. Hayden
                                                           VAMC, Phoenix, AZ, 99-01793-102, 8/4/00)
Administration
                                                           Conflict of Interest Issue
Travel Reimbursement Issue
                                                           An administrative investigation substantiated
An administrative investigation substantiated              that a VISN Director created an improper
that a VAMC Director, while detailed to another            conflicting financial interest by participating in
facility, routinely claimed and was reimbursed             an official capacity (in her former position as a
daily lodging expenses that were above the                 VAMC Director) in negotiations with a
maximum rate allowed by the General Services               corporation on whose board of directors she
Administration. As a result, the Director                  served. The negotiations resulted in VA
improperly received $495. VHA officials                    granting a license to the corporation to use real
agreed with our recommendation to take                     property, rent free, at the medical center. VHA
appropriate administrative action against the              officials agreed to our recommendation to take
Director and issue him a bill of collection.               appropriate administrative action against the
Officials also agreed to take appropriate                  Director and to review the appropriateness of the
administrative action against another senior               license granted. (Conflict of Interest and Other
official who approved the expenses and against a           Issues, VA Great Lakes Health Care System,
third employee who knowingly disregarded                   Hines, IL, 99-00875-50, 5/11/00)
established per diem rates requesting actual
expenses without proper justification. (Travel             Quarters Issues
Reimbursement Issue, Central Alabama
Veterans Health Care System, 99-01455-54,                  An administrative investigation substantiated
4/3/00)                                                    that a VAMC Director claimed reimbursement
                                                           for extensions to his temporary quarters
                                                           authority, without adequate justification. We
                                                           concluded the Director provided no compelling
                                                           reason beyond his control to remain in




                                                      42
                                                                                 Office of Investigations
temporary quarters longer than 60 days, as                 take appropriate administrative action against
required, and therefore received $2,886 in                 the officials and to ensure that they are provided
excessive reimbursements. VHA officials did                training on the proper use of appropriated funds
not agree that the Director's extensions were              for the purchase of meals and refreshments.
unjustified, stating that his commitment to his            (Use of Appropriated Funds for Meals and
work at the medical center precluded him from              Refreshments, VBA Regional Office, Seattle,
finding permanent housing in a more timely                 WA, 00-00894-121, 9/26/00)
manner. VHA officials therefore did not concur
with our recommendation that the Director
reimburse the Government. Although we
continue to believe the Director made decisions
within his control regarding his house-hunting
efforts, we withdrew the recommendation. Our
investigation also substantiated that the Director
and Associate Director improperly converted
clinical space to temporary quarters for the
Director, using VA resources. Further, we
substantiated that the Director and Chief of
Facilities Management did not ensure that the
Director paid the full value of the furniture and
services he received while in temporary quarters.
VHA officials agreed with our recommendations
that appropriate administrative action be taken
against the officials involved in these
improprieties. They also agreed to issue a bill of
collection to the Director for additional furniture
rental fees. (Employee Quarters and Other
Issues, VAMC Houston, TX, 99-01208-124,
9/27/00)



Veterans Benefits
Administration
Misuse of Appropriated Funds

An administrative investigation substantiated
that senior VARO officials, including the
Director, improperly used appropriated funds to
purchase meals and refreshments on four
occasions over a 5-month period. The food was
purchased for VA and non-VA individuals
attending a variety of meetings and a reception.
VBA officials agreed to our recommendations to




                                                      43
Office of Investigations




                           44
OFFICE OF AUDIT
Mission Statement                                      and Materiel Management. This Division
                                                       conducts preaward and postaward reviews of
   Improve the management of VA programs               certain categories of VA contracts.
   and activities by providing our customers
   with timely, balanced, credible, and                Overall Performance
   independent financial and performance
   audits and evaluations that address the             Output
   economy, efficiency, and effectiveness of           • We issued 33 performance, financial, and
   VA operations, and that identify                    CAP audits, evaluations, and reviews, for an
   constructive solutions and opportunities for        output efficiency of 1 report per 4 FTE during
   improvement, and to conduct preaward and            this 6-month period. Additionally, we issued 24
   postaward reviews to assist contracting             contract review reports (12 preaward contract
   officers in price negotiations and to ensure        reviews and 12 postaward reviews), for an
   reasonableness of contract prices.                  output efficiency of about 2.5 reports per FTE
                                                       for the 6-month period.
Resources
                                                       Outcome
The Office of Audit had an average 144 FTE             • We made recommendations to enhance
assigned in VA Central Office and 10 operating         operations and correct operating deficiencies
divisions throughout the country during the 6-         with monetary benefits totaling $32.8 million.
month period covered by this report. The               In addition, contract reviews identified monetary
following chart shows the allocation of                benefits associated with preaward and postaward
resources utilized in auditing each of VA’s            contract reviews of $7.8 million.
major program areas.
                                                       Cost Effectiveness
                                                       • We achieved a return of $3 in monetary
                                                       benefits for every dollar spent in performance
                         A&MM                          and financial audits and evaluations during this
                          17%
                                                       6-month period. We also achieved a return of
                                                       $8 in monetary benefits for every dollar spent on
                               Financial
                                                       contract reviews. Additionally, contracting
                              Management
           VHA                   21%                   officers sustained 74 percent of our
           49%                                         recommended better use of funds during
                                Information
                                Technology             negotiations.
                        VBA          4%
                         9%
                                                       Customer Satisfaction
                                                       • Customer satisfaction with performance and
                                                       financial audits and evaluations was 4.2 on a
                                                       scale of 5, for reports issued during the period.
                                                       The average customer satisfaction rating for
In addition, the Office of Audit’s Contract            contract reviews was 4.7 out of a possible 5.
Review and Evaluation Division had 24 FTE
authorized for reimbursement under an                  Audits completed during the period identified
agreement with the VA Office of Acquisition            opportunities to improve services to veterans,




                                                  45
Office of Audit
and identified savings that could be used to            million found that about $820,000 (48 percent)
increase service. The following summarizes              was excess. The excess inventories occurred
some of the audits completed during the                 because VAMCs relied on informal inventory
reporting period organized by VA component:             methods and cushions of excess stock as a
VHA, VBA, Office of Management, and issues              substitute for more structured inventory
requiring action by multiple offices. This is           management. Inventory managers had not
followed by an assessment of the validity and           consistently or systematically determined their
integrity of the data used to evaluate GPRA             current inventory requirements based on item
performance.                                            demand, safety requirements, and replenishment
                                                        cycles.
Veterans Health                                         To address the inventory issues, we
Administration                                          recommended that VHA: (a) require VAMCs to
                                                        establish goals for reducing inventories and to
Resource Utilization                                    use automation for managing their inventories,
                                                        (b) monitor progress in reducing inventories, (c)
                                                        provide VAMC staff training aimed at
Issue: Pharmaceutical supply                            improving inventory management, and (d)
   inventories.                                         discourage the practice of using year-end funds
Conclusion: VAMCs could further                         to purchase unnecessarily large quantities of
   reduce inventories by effectively                    pharmaceuticals. We estimated that better
   using modern techniques and                          management could reduce VAMC
   automated inventory management                       pharmaceutical inventories by $25 million which
   controls.                                            is a potential inventory reduction of 59 percent.
Impact: Better use of $31 million.                      Additionally, $6 million could be freed up by
                                                        eliminating unnecessary year-end spending. The
We performed an audit to evaluate how                   Under Secretary for Health concurred with the
effectively VAMCs managed their                         audit findings and recommendations and
pharmaceutical inventories. This was the third          provided acceptable implementation plans.
in a series of audits to assess VA inventory            (Audit of VAMC Management of Pharmaceutical
management practices for various categories of          Inventories, 99-00186-86, 6/30/00)
supplies. In FY 1999, VAMC pharmaceutical
purchases totaled $951 million. At any given
time during FY 1999, the value of VAMCs’                “OIG’s assistance in helping us to
inventories was about $41 million. As a result          prioritize    inventory   management
of the successful transition to a pharmaceutical        improvement opportunities throughout
prime vendor distribution program over the past         the system is very much appreciated,
several years, VAMCs have substantially                 and we look forward to ongoing sharing
reduced their pharmacy inventories from levels          of action progress.”
previously maintained under VA's centralized
depot system.                                                            Under Secretary for Health

However, inventories still exceeded current
operating needs for many pharmaceutical items.
Our audit at four VAMCs with combined
pharmaceutical inventories valued at $1.7




                                                   46
                                                                                           Office of Audit

Issue: Fee basis claim payments are                       (Audit of Fee Basis Claims Payments, Alaska VA
   appropriate.                                           Health Care System and Regional Office,
Conclusion: The fee program was                           Anchorage, AK, 99-00180-53, 4/3/00)
   operating satisfactorily. Some
   improvements related to separation                     VAMC Long Beach
   of duties, insurance billings,
   authorization, and coding and pricing                  Overall, the fee basis program was operating
   will help avoid overpayments.                          satisfactorily. Veterans who received fee care
Impact: Better use of funds.                              were eligible. In FY 1998, fee payments at
                                                          VAMC Long Beach totaled $2 million. While
We performed the following four audits as part            some payment errors occurred due to pricing
of a national audit of fee basis claim payments.          issues; these errors were not material when
The fee basis program enables eligible veterans           compared to the size of the program.
to obtain health care at VA expense from non-             Alternatives to fee care had been and continue to
VA providers. The purpose of the audits was to            be explored to help reduce costs.
determine whether fee payments for outpatient
and inpatient medical care were appropriate.              Areas in need of improvement included third
Specifically, the audit objectives were to                party billings, authorizations, coding, and
determine whether: veterans receiving fee care            pricing for fee care. Based on our sample
were eligible, amounts paid for fee care were             results, we estimated FY 1998 billing and
appropriate, and fee care was the best alternative        payment efficiencies totaling $154,000 could
for providing medical services. We also                   have been achieved. The Director agreed with
evaluated whether third party billings were made          the findings and to take corrective action. (Audit
when appropriate.                                         of Fee Basis Claims Payments, VAMC Long
                                                          Beach CA, 99-00180-85, 6/7/00)
Alaska VA Health Care System and Regional
Office, Anchorage                                         South Texas Veterans Healthcare System,
                                                          Audie L. Murphy Division, San Antonio
Overall, the fee basis program was operating
satisfactorily. Veterans who received fee care            Overall, the fee basis program was operating
were eligible. In FY 1998, fee payments by the            satisfactorily and veterans who received fee care
Alaska VA Health Care System totaled                      were eligible. In FY 1998, fee payments at the
$26 million. While some payment errors                    Audie L. Murphy Division totaled $5 million.
occurred due to authorization, coding, and                Fee basis program management was very
pricing issues; these errors were not material            knowledgeable about Federal, state, and local
when compared to the size of the program.                 laws that were relative to fee basis claims and
Alternatives to fee care had been and continue to         had streamlined workload processes and
be explored to help reduce costs.                         controls. Some payment errors occurred due to
                                                          authorization and pricing issues; however, these
Areas in need of improvement included                     were not material when compared to the size of
insurance billings, authorizations, coding, and           the program. Alternatives to fee care had been
payment for fee care. Based on our sample                 considered for high-cost/high-use services.
results, we estimated that FY 1998 billing and            Areas in need of improvement included:
payment efficiencies totaling $476,000 could              veterans placed in state centers under warrant (a
have been achieved. The Director agreed with              legal process for family or friends to commit
the findings and agreed to take corrective action.        potentially dangerous psychiatric patients for




                                                     47
Office of Audit
evaluation and care), appropriateness of                   inventories of automated data processing (ADP)
admissions and length of stay, and coding of fee           equipment identified missing items valued at
care. Based on our sample results, we estimated            hundreds of thousands of dollars, and (c)
that FY 1998 payments totaling $73,000 could               falsified information was provided to the OIG
have been avoided. The Director agreed with the            during the FY 1997 consolidated financial
findings and agreed to take corrective action.             statement audit.
(Audit of Fee Basis Claims Payments, South
Texas Veterans Healthcare System, Audie L.                 We substantiated the allegation that the
Murphy Division, San Antonio, TX, 99-00180-                equipment program was mismanaged, and
91, 6/28/00)                                               partially substantiated the allegation that
                                                           hundreds of thousands of dollars worth of ADP
VAMC Little Rock                                           equipment could not be located during past
                                                           inventories. New computers and monitors
Overall, the fee basis program was operating               valued at over $336,000 were in storage, but
satisfactorily. Veterans who received fee care             were excess to facility needs; the inventory,
were eligible. In FY 1998, fee payments at                 excess/turn-in, and reports of survey programs
VAMC Little Rock totaled $6 million. Some                  were severely backlogged; controls over the
payment errors occurred due to authorization,              loan-out program were inadequate to safeguard
coding, and pricing issues; however, these were            VA property; and the facility could not locate
not material when compared to the size of the              equipment with a total acquisition cost of
program. Alternatives to fee care had been                 $460,000. This occurred because the facility
implemented to help reduce costs.                          purchased ADP equipment based on availability
                                                           of funds, rather than from a formalized plan; the
Areas in need of improvement included                      equipment program was centralized to logistics
separation of duties, authorizations, coding, and          service without sufficient resources to meet the
pricing for fee care. Based on our sample                  workload requirements; and equipment had
results, we estimated that FY 1998 payments                previously been disposed of without preparing
totaling $316,000 were not properly documented             the required paperwork to remove the items
or could have been avoided. The Director                   from the inventory database. We did not
agreed with the findings and agreed to take                substantiate the allegation that falsified
corrective action. (Audit of Fee Basis Claims              information was provided to the OIG during the
Payments, VAMC Little Rock, AR, 99-00180-92,               FY 1997 consolidated financial statement audit.
6/28/00)
                                                           We recommended that the medical center
Issue: Mismanagement of the equipment                      develop a formal, written plan to acquire ADP
   program at VAMC Decatur.                                equipment based on need; ensure that new
Conclusion: The equipment program                          unused computers and monitors were put to use
   was mismanaged, ADP equipment                           or excessed to another VA facility; and that
   could not be located, and new                           responsibility for equipment accountability be
   computers and monitors were in                          decentralized to the using services to ensure
   storage.                                                greater control over facility equipment. The
Impact: Better use of funds.                               Director provided acceptable implementation
                                                           plans. (Allegations of Mismanagement of the
We conducted the evaluation to determine the               Equipment Program at VAMC ((Atlanta))
validity of allegations that: (a) logistics service        Decatur, GA 98-00160-57, 4/5/00)
mismanaged the equipment program, (b) past




                                                      48
                                                                                        Office of Audit

Fraud Detection                                        Veterans Benefits
Issue: High-risk areas in VHA’s Workers’               Administration
   Compensation Program (WCP).
Conclusion: Costs can be reduced with
   enhanced management and oversight
                                                       Fraud Detection
   of claims in certain high-risk areas.
Impact: Reduction in program costs.                    Issue: Implications of employee thefts
                                                          from the Compensation and Pension
The purpose of the review was to identify                 (C&P) program, and internal control
opportunities for VISN 4 (VA Stars and Stripes            vulnerabilities.
Network) to enhance oversight, review, and             Conclusion: VBA needs to improve
implement cost containment measures to reduce             internal controls in the C&P program.
costs associated with WCP claims. The VISN 4           Impact: Assuring program integrity.
Director requested assistance from the OIG to
improve WCP management in the Network. We              The Under Secretary for Benefits asked the OIG
provided training on case management,                  to help identify internal control weaknesses that
identification of potential WCP fraud, and             might facilitate or contribute to fraud in VBA’s
implementation of the OIG WCP protocol                 C&P program. The request followed the
package and handbook. In addition, we                  discovery that three VBA employees had
reviewed selected claims and assisted Network          embezzled nearly $1.3 million by exploiting
facility WCP Coordinators/Specialists in               internal control weaknesses in the C&P benefit
identifying required case management actions.          program. As a follow up to our June 17, 1999,
                                                       vulnerability assessment, Management
The review found the Network had initiated             Implications of Employee Thefts from the C&P
actions to improve management. However,                System, and Observed Internal Control
additional effort was needed to strengthen case        Vulnerabilities, we audited internal controls for
management to assure the appropriateness of            C&P benefits at VARO St. Petersburg, FL. We
some claims. Based on the review results, we           selected VARO St. Petersburg for follow up
identified opportunities for the Network to            audit because it is one of the largest VAROs,
reduce annual costs by about $2.9 million, with        accounting for 6 percent of C&P workload, and
an estimated lifetime benefit cost reduction of        it was the location where 2 of the 3 known
over $37.9 million. The review also identified         embezzlements took place. The objectives of
10 claims that were potentially fraudulent. The        the audit were to determine whether internal
review results were provided for the Network           control vulnerabilities existed that may facilitate
Director’s use and information. (Management            fraud or claims examination error, and to probe
Advisory Letter: Workers’ Compensation                 for potential on-going fraud that may have
Program Assist-VISN 4, 99-00046-116, 9/25/00)          escaped detection by VA and VARO controls.

                                                       We confirmed that 16 of 18 categories of
                                                       vulnerability reported in our vulnerability
                                                       assessment were present at VARO St.
                                                       Petersburg. Two vulnerabilities identified in our
                                                       June 1999 vulnerability assessment were not
                                                       present at VARO St. Petersburg: the issuance of
                                                       multiple employee Benefit Delivery Network




                                                  49
Office of Audit
command authorities that would allow them to              management information systems, information
both adjudicate and authorize the same claim,             system security, and cost accounting standards.
and employee accountability issues associated
with non-traditional organizational models. We            Correction of noncompliance items is in process.
also performed a series of tests to identify              VA has taken a number of steps to establish a
potentially fraudulent C&P benefit payments,              comprehensive information system security
including a review of over 1,000 benefit awards           program and established a target date of FY
that evidenced potential fraud indicators. As a           2003 for completing corrective actions
result of our tests, 64 cases were referred to the        concerning Department-wide information
OIG Office of Investigations for further                  system security weaknesses. The Department
investigation and 72 cases were referred to               reported to us that they have completed
VARO St. Petersburg for administrative review.            correction of the housing credit assistance
                                                          program financial management information
We made 15 recommendations to strengthen                  system noncompliant issues. Previously
internal controls for the C&P program over such           reported target dates for completing
areas as the physical and electronic security for         implementation of systems to fully comply with
sensitive files; access, controls, and security           managerial cost accounting requirements
over the Benefit Delivery Network; and                    changed from FY 1999 to FY 2000 for NCA,
employee conflict of interest. The Under                  and FY 2000 to FY 2001 for VHA.
Secretary for Benefits concurred with the
findings and recommendations in the report.               We are in the process of testing and evaluating
(Audit of the C&P Program’s Internal Controls             the actions as part of our audit of VA’s FY 2000
at VARO St. Petersburg, FL, 99-00169-97,                  CFS.
7/18/00)
                                                          Issue: Financial management.
                                                          Conclusion: Management letters were
                                                             issued to assist the Department in
Office of Management                                         improving financial management.
                                                          Impact: Improved financial reporting
VA’s Consolidated Financial                                  and control.
Statements (CFS)
                                                          As part of the CFS audit, we issued eight
Issue: Public Law 104-208, Federal                        management letters addressing financial
   Financial Management Improvement                       reporting and control issues. The letters
   Act (FFMIA) of 1996.                                   provided Department managers additional
Conclusion: Correction of                                 observations and advice that will enable the
   noncompliance items is in-process.                     Department to improve accounting operations
Impact: Improved stewardship of VA                        and controls. These issues included: VBA
   assets and resources.                                  benefit programs; property, plant, and
                                                          equipment; payroll; medical facility receivables;
Our Report on Compliance with Laws and                    and ADP security.
Regulations included in our report on the Audit
of VA’s FY 1999 CFS discussed the                         None of the conditions noted had a material
Department’s noncompliance with FFMIA                     effect on the FY 1999 CFS, but correction of the
(Public Law 104-208) requirements concerning              conditions was considered necessary for
housing credit assistance program financial               effective operations. Where needed, appropriate




                                                     50
                                                                                        Office of Audit
adjustments were made to the financial                  improved timeliness of billing insurance
statements. [(i) Management Letter: FY 1999             carriers, follow up of first party accounts
Financial Statements, VA Life Insurance                 receivable, and enhanced collection efforts for
Programs and Selected Loan Guaranty Program             employee and vendor debts. The Director
Financial Activities 1999-00002-60, 4/21/00;            agreed with the findings and initiated corrective
(ii) Management Letter: Accuracy of FY 1999             action. As a result, we made no formal
Property, Plant, and Equipment Financial                recommendations. (Evaluation of Accounts
Information, 1999-00001-75, 6/1/00;                     Receivable Management, VAMC Washington,
(iii) Management Letter: Accuracy of                    DC, 1999-00155-0066, 4/3/00)
Department of Veterans Affairs’ Payroll Data
for FY 1999, 1999-00008-76, 6/1/00;                     Preaward Contract Reviews
(iv) Management Letter: Medical Facility
Receivables, 1999-00008-77, 6/1/00;                     Issue: Federal Supply Schedule
(v) Management Letter: ADP Security at                     vendors’ best prices.
Veterans Affairs Stars and Stripes Healthcare           Conclusion: Contractors can offer better
Network, 1999-00003-81, 7/1/00;                            prices to VA.
(vi) Management Letter: ADP Security at VHA,            Impact: Potential better use of $595,674.
1999-00003-83, 7/1/00;
(vii) Management Letter: ADP Security at                Preaward reviews of offers from three
Veterans Affairs Pittsburgh Healthcare System,          wheelchair manufacturers’ resulted in potential
1999-00003-74-7/1/00; and                               savings of $595,674.
(viii) Management Letter: FY 1999 Consolidated
Financial Statement Audit - Benefits Programs,
                                                        Issue: Nuclear imaging equipment
1999-00005-99, 7/14/00]
                                                           vendors’ best prices.
                                                        Conclusion: Vendors can offer better
Issue: Management of accounts
                                                           prices to VA.
   receivable.
                                                        Impact: Potential better use of
Conclusion: Progress was made in
                                                           $2,770,990.
   improving the effectiveness of
   accounts receivable management.
                                                        Preaward reviews of three direct delivery
Impact: Enhanced revenues.
                                                        nuclear imaging equipment vendors resulted in
                                                        potential savings of $2,770,990.
The purpose of this evaluation was to determine
the effectiveness of VHA’s accounts receivable
                                                        Issue: Health care resource contracts.
management, the appropriateness of medical
                                                        Conclusion: VA can negotiate reduced
care collection fund debt write-offs and
                                                           contract costs.
adjustments, and to identify opportunities to
                                                        Impact: Potential better use of $499,210.
enhance collections. We found that
management has generally made progress in
                                                        We completed reviews of four proposals for
improving the effectiveness of accounts
                                                        scarce medical specialists’ services wherein we
receivable management. This included pursuing
                                                        concluded that the contracting officer should
collection of delinquent third-party accounts
                                                        negotiate reductions of $499,210 to the proposed
with insurance carriers, contractually adjusting
                                                        contract costs.
accounts receivable balances, and documenting
accounts receivable write-offs. We identified
three areas needing management attention:




                                                   51
Office of Audit

Postaward Contract Reviews                                materialized. As a result, the medical center
                                                          overpaid $612,475 on medical/surgical supplies
Issue: Contractor overcharges for                         because the prime vendor could not deliver on
   pharmaceuticals and medical                            promised savings and overcharged VA on
   supplies.                                              several items. The contracting officer issued
Conclusion: Postaward audits and                          final decision letters to the prime vendor to
   surveys disclosed overcharges.                         recover $400,000 in guaranteed contract savings
Impact: Recovery of $3,225,642.                           and $212,475 in contract overcharges. Those
                                                          decisions have been appealed by the prime
• We completed six Public Law 102-585                     vendor to the VA Board of Contract Appeals.
compliance reviews at pharmaceutical
companies. For five of the six companies, we
discovered errors in the calculation of Federal
Ceiling Prices that resulted in contract
                                                          Multiple Office Action
overcharges. The five companies agreed to pay
$2,561,588 to VA. We also made                            Security Controls
recommendations to all of the companies
reviewed suggesting ways they could improve               Issue: Security controls for VA systems.
their policies and procedures so that the                 Conclusion: Security controls need to
Government and the company could be assured                  be strengthened to ensure that VA
that its systems were producing accurate Federal             systems are adequately protected.
Ceiling Prices.                                           Impact: Improved ADP controls.

• We completed three reviews of subsistence               As part of our audit of VA's FY 1999
prime vendors. Monetary findings amounted to              consolidated financial statements, the OIG
$464,054. We have recommended that the                    contracted with an independent public
contracting officer issue a bill of collection for        accounting firm to conduct penetration tests of
the amount due.                                           selected VA systems. OIG staff assisted in the
                                                          testing. The review identified a number of
                                                          significant control weaknesses, and provided
• A pharmaceutical company agreed to pay
                                                          several high-level recommendations as well as
$200,000 related to pricing disclosures that were
                                                          additional specific findings and measures for
not accurate, complete, and current during
                                                          enhancing security of the systems tested. The
negotiations leading to a Federal Supply
                                                          Under Secretary for Benefits and the Principal
Schedule contract with VA.
                                                          Deputy Assistant Secretary for Information and
                                                          Technology provided responsive comments.
Issue: Contract with medical/surgical                     (Final Report - Department of Veterans Affairs
   prime vendor.                                          Penetration Review, 99-00003-83, 7/1/00)
Conclusion: VA overpaid on
   medical/surgical supplies.
Impact: Potential recovery of $612,475.

A VA medical center’s contract with a
medical/surgical prime vendor was not cost-
effective and many of the claimed savings such
as reductions in full-time employees never




                                                     52
                                                                                           Office of Audit

                                                             Review of Implementation of NCS’s Strategic
Implementation of GPRA                                       Plan and Performance Measurements,
within VA                                                    5R1-B18-082, 7/6/95.

The OIG has a significant role to play in                    Review of Implementation of VBA’s Strategic
informing both VA and Congress on issues                     Plan and Performance Measurements,
concerning efforts to implement GPRA. As                     5R1-B18-100, 8/25/95.
background for our efforts in this area, it is
relevant to note that VA was an OMB-                         Audit of Data Integrity for Veterans Claims
designated pilot agency for performance                      Processing Performance Measures Used for
measurement. As such, VA began establishing                  Reports Required by the GPRA,
performance measures for its programs and                    8R5-B01-147, 9/22/98.
operations in FY 1992.
                                                             Accuracy of Data Used to Measure Claims
In FY 1998, at the request of the Assistant                  Processing Timeliness, 9R5-B01-005, 10/15/98.
Secretary of Planning and Analysis, we initiated
a multi-stage audit to examine the integrity of              Accuracy of Data Used to Measure Percent of
the data used for GPRA reports. This ongoing                 Veterans with a Burial Option,
project involves a series of audits to evaluate the          9R5-B04-103, 5/12/99.
validity, reliability, and integrity of the data used
to evaluate GPRA performance.                                Accuracy of Data Used to Count the Number of
                                                             Unique Patients, 9R5-A19-161, 9/20/99.
Current Status

As part of our ongoing assessment to validate
the accuracy and reliability of VA’s
performance measures in accordance with
GPRA, the OIG is auditing two VHA
performance measures and one VBA
performance measure. These measures are:

VHA Performance Measures: Prevention index
and addiction severity index.

VBA Performance Measure: Foreclosure
avoidance through servicing.

We will issue reports on each performance
measure as audits are completed. GPRA related
audit reports issued to date include:

Review of Implementation of VHA’s Strategic
Plan and Performance Measurements,
5R1-A19-026, 2/6/95.




                                                        53
Office of Audit




                  54
OFFICE OF HEALTHCARE INSPECTIONS
Mission Statement                                           Customer Satisfaction
                                                            • Program managers’ satisfaction and
    Promote the principles of continuous                    acceptance level of our work was an average of
    quality improvement to provide effective                4.8 on a 5.0 scale for the year.
    inspections, oversight, and consultation to
    enhance and strengthen the quality of VA’s
    health care programs for the well being of
    veteran patients.
                                                            Veterans Health
                                                            Administration
Resources
                                                            Nationwide Health Care Program
The Office of Healthcare Inspections (OHI) has              Review
34 FTE assigned to staff headquarters and field
operations. OHI inspectors commit all of their              Issue: VHA’s long-term care patient
staff time to healthcare inspections and                       discharge planning.
evaluation issues. CAPs occupy approximately                Conclusion: Interdisciplinary
75 percent of OHI resources.                                   treatment/discharge planning teams
                                                               use appropriate caution before
Overall Performance                                            discharging long-term care patients.
                                                            Impact: Improved access and efficiency
Output                                                         of long-term care resources.
• We published nine final reports during the
reporting period.                                           This review was initiated after several veterans
• We published findings in 14 CAP reports                   service organizations questioned the
during the reporting period.                                appropriateness of VHA clinicians discharging
• We evaluated responses for 82 Hotline cases               long-term VA nursing home care unit (NHCU)
to ensure the Department adequately responded               patients to community-based facilities. This
to allegations of poor patient care and                     followed the 1998 report of the Federal
management.                                                 Advisory Committee on the future of VA long-
• We conducted oversight evaluations on 12                  term care.
Office of the Medical Inspector projects.
                                                            We concentrated our review on those facilities
Outcome                                                     which regularly discharged patients who had
• We made 32 recommendations, focused on                    occupied a NHCU bed for more than 730 days.
improving both clinical care delivery                       We found that clinicians did not consider
management efficiency, and holding responsible              patients for discharge unless they were
staffs accountable for their actions.                       medically and psychologically stable and could
                                                            be transferred to a more appropriate level of
• We followed up on 11 Department
                                                            care. Interdisciplinary treatment/discharge
responses to Hotline allegations because not all
                                                            planning teams used appropriate caution before
of the issues appeared to be satisfactorily
                                                            deciding to discharge long-term patients. In
resolved. Some of these cases are described
                                                            addition, clinicians effectively used the
further in the Hotline Division part of this report.
                                                            availability of community resources to facilitate
                                                            outplacement in community-based settings. VA




                                                       55
Office of Healthcare Inspections
clinicians placed patients in state veterans home        at the time of the incident did not contribute to
programs, community residential care programs,           the patient’s death. We found that clinicians
and contract nursing home programs. In                   acted properly to treat the patient and stabilize
addition, respite care programs were available in        him before transfer. The medical record
most of the VAMCs. These programs permit                 indicated that the patient’s rapid deterioration
patients being cared for by family or friends in         would have resulted in death despite transfer.
their homes to be admitted for up to 30 days,            We did find the lapse between the time the
giving the caregivers short breaks from                  physician wrote the order for transfer to arrival
providing care.                                          of the transportation appeared excessive and that
                                                         documentation of patient transfers could be
Patients’ families do receive due-process                improved. The Director concurred with the
information about their appeal rights if they            recommendations. (Inspection of Alleged
disagree with a decision to discharge patients to        Untimely Patient Transfer, Jerry L. Pettis
the community. At present, this is being done at         Memorial VAMC, Loma Linda, CA, 00-00847-
the time of admission to the VA NHCU. We                 62, 05/11/00)
suggested that this be done at the time of
discharge as well. We also suggested the                 Issue: Inadequate operating room
expansion of the use of respite care programs.              management.
This would assist caregivers and help in                 Conclusion: Managers recognized and
returning patients to home environments after a             corrected most of the problems.
period of nursing home care. (Focused Review             Impact: Improved operating room
of VHA’s Long-Term Patient Discharge                        environment.
Planning, 98-00449-89, 06/29/00)
                                                         Two complainants alleged that VA clinicians
Healthcare Inspections                                   provided improper care to two patients and
                                                         mismanaged certain medical center operations.
Issue: Emergency treatment for critically                We did not substantiate that a patient who
   ill patient.                                          presented himself for treatment at the outpatient
Conclusion: Patient transfer procedures                  clinic received improper care. We also did not
   were flawed.                                          substantiate that surgeons had to amputate a
Impact: Strengthened patient transfer                    patient’s leg because clinicians improperly
   policy.                                               positioned him on an operating room table
                                                         during an earlier surgical procedure. We
We conducted an inspection at the request of a           substantiated an allegation that the medical
member of Congress, who received allegations             center’s operating rooms were unsanitary.
from a complainant concerning the quality of             However, a new nurse supervisor corrected the
care provided at the medical center. We                  condition before our visit.
reviewed the medical care provided to a patient
before his death and the pending transfer of the         We did not substantiate that a supervisor and a
patient for emergent procedures. We reviewed             subordinate employee were involved in a
allegations that the VAMC lacked transfer                personal relationship. However, there was a
policies, and or inappropriate actions led to the        long-standing perception among employees that
patient’s death.                                         the subordinate employee received preferential
                                                         treatment, which kept the service in constant
We did not substantiate these allegations. We            turmoil. The medical center Director concurred
concluded that the VA transfer policies in place         with our recommendations and implemented




                                                    56
                                                                   Office of Healthcare Inspections
appropriate actions to resolve the issues. The           Issue: Suicide on medical center
supervisor has stepped down from the position,              grounds.
and the subordinate employee has left the                Conclusion: Clinicians treated the
VAMC for employment elsewhere. We are                       patient properly, but patient safety
continuing to follow up on recruitment efforts to           measures were not always followed.
resolve staffing issues in the section until the         Impact: Strengthened patient safety
issue is resolved. (Patient Care and                        procedures.
Management Issues at Overton Brooks VAMC,
Shreveport, LA, 99-01432-78, 06/14/00)                   We reviewed allegations that a patient
                                                         committed suicide because VAMC employees
Issue: Adequacy of care provided to                      had not properly managed his care and that the
   woman veteran.                                        availability of unsecured weapons on VA
Conclusion: Improved communication                       property provided for an unsafe environment.
   and timely responses to consult                       We reviewed the dosages and combinations of
   requests.                                             medications the patient was taking, medical
Impact: Strengthened outpatient                          records, and related documentation, and
   consultation services.                                conducted interviews with applicable
                                                         employees. We could not confirm that the
A complainant alleged that she did not receive           patient received improper care.
adequate care while hospitalized at the VA
medical center, and that the VA would not                We substantiated the patient was able to obtain a
reimburse her for medical care sought at a non-          weapon from the private quarters of a former
VA hospital. We did not substantiate allegations         employee who was living on VA grounds. The
of inadequate medical care. However, we                  patient used the weapon to commit suicide on
identified control weaknesses in processing the          the VAMC campus. We concluded that VAMC
patient’s consults and requests for home nursing         managers did not ensure employees in VA
care. We found that the medical care the patient         quarters properly registered and secured their
received at a non-VA medical facility did not            firearms on station grounds as required by
meet VA criteria for reimbursement.                      VAMC policy. Administrative action against
                                                         the responsible officials and the former
The medical center Director concurred with our           employee who owned the weapon could not be
recommendations to strengthen the VAMC's                 taken because they no longer work for the
consultation process. VAMC employees are                 Government.
currently automating this process, which should
improve controls. The Director acted to                  The new Director agreed to take administrative
dedicate one individual to conduct discharge             action against one VA employee still working at
planning and work closer with agencies                   the VAMC, who knew of the unregistered and
providing post-discharge care in response to our         unsecured weapons and did not act or report the
remaining recommendation. (Patient Care Issue            policy violation. (Patient Care Management
at VAMC Omaha, NE, 00-00025-95,                          Issue at the Carl Vinson Department of Veterans
08/04/2000)                                              Affairs Medical Center, Dublin, GA, 00-01019-
                                                         110, 08/23/00)




                                                    57
Office of Healthcare Inspections

Issue: The adequacy of treatment                         Issue: Maintenance of treatment
   provided to a neurological patient.                      records.
Conclusion: Emergency room waiting                       Conclusion: Improper disposal of
   times were excessive.                                    essential diagnostic files.
Impact: Facilitated improved admission                   Impact: Improved ability to track
   times for patients needing hospital                      patients with cardiac conditions.
   care.
                                                         We received an allegation from an anonymous
We reviewed allegations that a patient received          source that an employee destroyed
deficient care and treatment at the VAMC.                cineangiocardiography films prematurely
Managers reviewed similar complaints received            because the employee wanted more space. The
from the same complainant and initiated their            employee initially admitted to destroying films
own internal review. VAMC managers did not               that were 5 years old or older, but later stated
substantiate seven of eight allegations made by          only films 7 years and older were destroyed.
the patient’s family. They did find there was a          Regardless of whether the films were 5 or 7
delay in the patient receiving prescribed feeding        years or older, employees are required to retain
supplements. The Director took appropriate               cardiac catheterization films for 20 years after
corrective actions to prevent similar delays and         the last episode of patient care. Because of the
compensated the family for expenses that they            potential Title 18 U.S.C. violation (destruction
incurred in obtaining an interim supply of the           of Federal documents), we sought the advice of
feeding supplement.                                      the U.S. Attorney General’s office, which
                                                         declined criminal prosecution in favor of
In our oversight role, we reviewed the remaining         administrative action.
seven allegations and disagreed with VAMC
internal reviews on other issues. We disagreed           The Director concurred with recommendations
with VAMC managers that a 10 or more hour                to improve controls over film retention, and
wait in the emergency room was acceptable, and           conduct risk assessments on whether the loss of
we disagreed that the patient was ever a                 these films will affect patients. The Director
candidate for low-level home health care. We             also agreed to take administrative action against
also concluded that better documentation of the          the responsible employee regarding the
patient’s care could have enhanced the                   inappropriate destruction of Government
effectiveness of the patient’s case management.          files/records. (Destruction of
We made four recommendations and the                     Cineangiocardiography (CINE) Films, William
Director concurred and provided implementation           Jennings Bryan Dorn VAMC, Columbia, SC, 00-
plans for corrective actions. (Treatment                 01202-114, 08/31/00)
Provided to a Patient at the Department of
Veterans Affairs Medical Center, New Orleans,            Issue: Post traumatic stress disorder
LA, 99-012411-112, 08/23/00)                                program weaknesses.
                                                         Conclusion: Poor management led to
                                                            dysfunctional program.
                                                         Impact: Improved treatment and
                                                            enhanced patient satisfaction.

                                                         We reviewed multiple allegations from an
                                                         anonymous complainant pertaining to a variety
                                                         of issues at the VAMC. The complainant




                                                    58
                                                                     Office of Healthcare Inspections
provided allegations that he collected from                receiving timely primary health care
multiple individuals, most of whom are VAMC                appointments. The complainant also alleged that
patients. Additional individuals contacted the             patients were receiving substandard care and
OIG during the course of the inspection. We                that patients and employees were not safe. In
interviewed VA managers, employees, and                    addition, the complainant alleged timekeeping
patients. We grouped the allegations, many of              irregularities in the incentive therapy and
which had similar themes, into management,                 compensated work therapy programs.
clinical care, and administrative categories.
                                                           We substantiated that patients were not able to
While we did not substantiate some of the                  access their primary care providers in a timely
complaints, we did substantiate allegations                manner, and that patients were waiting too long
pertaining to the overall ineffectiveness of the           for new primary care appointments. In addition,
facility’s post traumatic stress disorder program.         we substantiated irregularities in incentive
We substantiated allegations concerning                    therapy timekeeping practices, but not in the
excessive delays in patient access to specialty            compensated work therapy program. There was
care, and patient distrust and dissatisfaction with        no conclusive evidence to support an allegation
the patient representative program. We                     that the medical center’s reorganization resulted
substantiated allegations of inadequate patient            in substandard care for patients. We did not
privacy and medical record confidentiality,                substantiate that domiciliary patients’ or
privacy and security for female inpatients in              employees’ safety had been compromised.
acute psychiatry, insufficient handicapped
restroom access, and inadequate access to                  We recommended that the medical center
hepatitis “C” follow up care. In addition, we              Director assess the timeliness of primary care
identified some cases of questionable care,                appointments for domiciliary patients on an
which required further review.                             ongoing basis with an emphasis on reducing
                                                           waiting times. The Director concurred with the
We made 16 recommendations for improving                   recommendations and provided adequate
overall services. The medical center Director              implementation plans. (Patient Care Issues of
concurred with the recommendations and                     Homeless Domiciliary Patients, Northern
provided detailed implementation plans.                    Arizona VA Health Care System, Prescott, AZ,
(Multiple Management and Patient Care Issues               98-01428-119, 09/18/00)
at the Department of Veterans Affairs Medical
Center, Omaha, NE, 00-00025-111, 09/05/00)

Issue: Substandard care.
Conclusion: Domiciliary patients were
   unable to access their primary care
   physicians in a timely manner.
Impact: Reduced waiting times.

We reviewed allegations that changes to the
current organizational structure at the VA health
care system resulted in substandard care in the
domiciliary care for homeless veterans program.
The complainant alleged that the organizational
realignments have caused delays for patients in




                                                      59
Office of Healthcare Inspections




                                   60
OFFICE OF MANAGEMENT &
ADMINISTRATION
Mission Statement                                        primary information system for case
                                                         management and decision-making. The Data
    Promote OIG organizational effectiveness             Analysis section, located in Austin, TX
    and efficiency by providing reliable and             provides data processing support, such as
    timely management and administrative                 computer matching and data extraction from VA
    support, and providing products and                  databases, to the OIG and other VA entities.
    services that promote the overall mission
    and goals of the OIG. Strive to ensure that          IV. Resources Management Division - The
    all allegations communicated to the OIG              Division is responsible for OIG financial
    are effectively monitored and resolved in a          operations, including budget formulation and
    timely, efficient, and impartial manner.             execution, OIG personnel management, and all
                                                         other OIG administrative support services.
The Office of Management and Administration
is a diverse organization responsible for a wide         Resources
range of administrative and operational support
functions. The Office includes four Divisions:           The Office of Management and Administration
                                                         has 53 FTE allocated to the following areas.
I. Hotline Division - The Division is responsible
for determining action to be taken on allegations
received by the OIG Hotline. The Division
                                                                                  Resources
receives thousands of contacts annually, mostly               Operational        Management
from veterans, VA employees, and Congress.                     Support              27%
                                                                 17%
The work includes controlling and referring
many cases to the Office of Investigation, Office
of Audit, and Office of Healthcare Inspections
                                                                                        Hotline
or impartial VA components for investigation.
                                                                                         21%

II. Operational Support Division - The Division                      IT & Data
does followup tracking of OIG report                                 Analysis
recommendations; Freedom of Information Act                             35%
releases; strategic, operational, and performance
planning; and IG reporting and policy
development.

III. Information Technology (IT) and Data
Analysis Division - The Division manages
nationwide IT support, systems development
and integration; represents the OIG on numerous
intra- and inter-agency IT organizations; and
does strategic IT planning for all OIG
requirements. The Division also maintains the
Master Case Index (MCI) system, the OIG’s




                                                    61
Office of Management & Administration

                                                         remaining 402 cases were referred to VA
I. HOTLINE DIVISION                                      program offices for review.

Mission Statement                                        Output
                                                         • During the reporting period, Hotline staff
    Ensures that allegations of fraud, waste,            closed 461 cases, of which 204 contained
    abuse, and mismanagement are responded               substantiated allegations (44 percent). The
    to in an efficient and effective manner.             Hotline staff opened 18 cases and generated 139
                                                         letters responding to inquiries received from
The Division operates a toll-free telephone              members of the Senate and House of
service five days a week, Monday through                 Representatives.
Friday, from 8:30 AM to 4 PM Eastern Time.
Phone calls, letters, and e-mail messages are            Outcome
received from employees, veterans, the general           • VA managers imposed 46 administrative
public, Congress, General Accounting Office,             sanctions against employees and took 75
and other Federal agencies reporting issues of           corrective actions to improve operations and
fraud, waste, and abuse. Due consideration is            activities as the result of these reviews. The
given to all complaints and allegations received;        monetary impact resulting from these cases
mission-related issues are addressed by OIG or           totaled $342,360.
other Departmental staff.
                                                         The Hotline Division’s most significant leads
Resources                                                are referred to other OIG elements. Hotline staff
                                                         also retain oversight on a number of other cases
                                                         that are referred to VA program officials for
The Hotline Division has 11 FTE staff positions.         resolution.
The following chart shows the percentage of
resources devoted to various program areas.              The Hotline staff worked with VA program
                                                         offices on allegations concerning patient care
                                                         and services, quality of care issues, employee
                   VBA
                             A&MM                        misconduct, outside employment concerns,
                   14%
                              13%
                                                         contracting activities, Government equipment
                                 Information
                                                         and supplies, time and attendance, and ethical
                                 Technology              improprieties. Hotline staff also worked with
                                     6%                  VBA on allegations concerning the payment of
                                 Financial               compensation and pension to incarcerated
                                Management
                                   12%
                                                         veterans, and benefits awarded to veterans and
         VHA                                             beneficiaries who were not entitled to receive
         55%
                                                         payments.

                                                         The following are some examples of Hotline-
                                                         prompted reviews that were closed during this
Overall Performance                                      reporting period.

During the reporting period the Hotline received
8,319 contacts. Of this number, 547 cases were
opened. The OIG reviewed 145 of these and the




                                                    62
                                                          Office of Management & Administration

                                                         communication with supervisory and clinical
Veterans Health                                          personnel concerning patient scheduling.
Administration
                                                         • A VHA review substantiated the allegation
Employee Misconduct                                      of destruction of Government documents. An
                                                         employee destroyed signed equipment inventory
• As the result of a Hotline inquiry, a VHA              listings, believing the forms were outdated. The
review substantiated an allegation of time and           employee will receive training to ensure
attendance abuse. The review found that two              compliance with the record keeping
VA employees, a husband and wife,                        requirements of her position.
manipulated their schedules, falsified their time
and leave, and covered for each other. The               • A VHA review determined a VAMC motor
review also found that the supervisors failed to         vehicle operator was driving with a suspended
properly administer and monitor time and leave.          license and that another motor vehicle operator
As a result, management has proposed the                 at the facility was using illegal drugs.
removal of the two employees and the demotion            Management immediately assigned both
of the service chief. Another employee will              employees to non-driving duties. The driver
receive a written counseling.                            who was using drugs has since undergone two
                                                         drug tests and faces possible termination.
• A VHA review substantiated the allegations
of misuse of official time and inadequate staff          • A VISN review substantiated the use of
supervision. The review found a chief                    inappropriate language by a VAMC’s chief of
consultant could not account for all of her time         surgery. The chief of surgery was counseled
spent away from the medical center. As a result,         that his habit of referring to female employees as
VHA will establish formal procedures for the             ‘babe’ or ‘sugar’ would not be tolerated and
chief consultant to notify her supervisor of all         would result in corrective action should he
absences from the medical center. Additionally,          continue to use this inappropriate language.
the review found that the position of director of
public relations was not being well utilized. As         • A VHA review substantiated an allegation
a result, VHA will continue to review that               that a food service employee was behaving in an
employee's work assignments and ensure that he           angry manner, scaring at least one co-worker.
is fully occupied with duties commensurate with          The employee was given a verbal counseling,
his grade level.                                         emphasizing that inappropriate behavior would
                                                         not be tolerated.
• A VHA review substantiated allegations of
problems with administrative services and a lack         • A VHA review found a pattern of serious
of courtesy. A newly hired employee failed to            misconduct and misconduct allegations
provide a veteran with specific information on           involving a VAMC physician assistant. The
the cancellation of her medical examination, the         VAMC conducted an administrative
medical center's toll-free number, and the               investigation to review the scope of practice of
purpose of the exam. Further, the employee was           the physician assistant. Management decided to
not courteous in dealing with the veteran. The           have a second staff member present during all of
facility is giving the new employee customer             the physician assistant’s examinations.
service training, access to the appointment
management menu, and will improve




                                                    63
Office of Management & Administration

Quality of Care                                           • A VHA review substantiated the allegation
                                                          of periodic low staffing levels. As a result, the
• As the result of a Hotline inquiry, VAMC                facility intensified recruitment efforts, lowered
officials verified there are occasional problems          the geriatric evaluation care unit census, floated
with noise in the sleep laboratory within the             staff from other areas, and adjusted daily
psychiatric ward. It was noted, however that              staffing.
this placement affords a level of safety to the
sleep technician, who would otherwise be                  • A VHA review substantiated the allegation
isolated with patients who can be assaultive.             of inadequate documentation; the facility lost a
The medical center will explore the addition of           veteran's dental records from 1994-95. The
soundproofing in the sleep lab bedrooms.                  facility is attempting to work with the veteran by
                                                          offering him continued dental services if he so
• A VHA review substantiated allegations of               wishes.
negligence and poor communications with a
patient. A patient suffered an unnecessary 5-             • A VHA review substantiated allegations of
hour delay in the emergency room (ER) awaiting            inappropriate treatment and poor
a surgical consult. Further, a home health care           communications with a patient. Upon the
consult was initiated for this patient by the ER          patient’s check-in, a medical clerk put the
physician, but was erroneously forwarded to the           medical record in the wrong clinical slot,
wrong service for initiation, causing an undue            causing a two-hour delay in the patient’s
delay in initiating the patient's home health care        appointment. Further, it was discovered that the
services. The senior surgical resident received           care provider did not have complete medical test
an oral counseling from the surgical service line         results from the referring facility. Additionally,
director. The importance of reporting to the ER           the patient was not correctly reimbursed for
in a timely manner was included in the                    travel mileage. The facility implemented
orientation for all surgical residents. The ER            procedures to assure that complete medical
medical director informed staff of the proper             records are available from referring facilities
procedure for processing future home health               before patients’ scheduled appointments. The
care consults. Additionally, surgical staff were          procedure for check-in and chart processing for
reminded to document all patient telephone                areas where one clerk handles multiple clinics
contacts in patients’ medical records.                    was changed. Finally, the patient was
                                                          reimbursed for the correct travel mileage.
• A joint review by two VAMCs substantiated
delays in diagnosis and treatment, poor                   • A VHA review substantiated allegations of
communications with patient and family, and               poor communications with patients and patient
inadequate staff supervision of a veteran who             abuse by a physician. The facility found the
was receiving care from both facilities within the        physician’s approach to the interpersonal aspects
VA healthcare network. The facilities                     of health care to be unacceptable. The physician
implemented a corrective process and action               was stern, demanding, and uncompromising in
plan to better coordinate and educate both staff          his dealings with some patients. He received
and patients about intra-network transfers and            counseling and a written reprimand regarding
coordination of care. These action plans will be          this behavior, and further customer service
monitored through the joint medical executive             training was proposed for him. The facility
committee for full implementation and                     reports noticeable improvement in the
performance measurement.                                  physician’s interactions with patients since
                                                          administrative action was taken.




                                                     64
                                                          Office of Management & Administration

• A VHA review substantiated a patient's                 the prescribing physician before changing a
allegations of improper diagnosis at a VA                patient’s medication. Further, the physician
outpatient clinic. Presenting with shortness of          wrote an insufficient prescription to adequately
breath, tingling, and dizziness, the patient was         cover the number of tablets needed for the
given an EKG, but not a stress EKG. He was               dosage prescribed. Pharmacy staff failed to
sent home and 6 days later required emergency            follow established procedures to ensure the
heart bypass surgery. The clinical staff received        prescribed number of tablets would cover the
training to recognize and manage angina                  dosage. The prescription was rewritten,
pectoris that presents in an atypical way.               pharmacy staff counseled, and an admonishment
                                                         issued to the pharmacist.
• A VHA review substantiated a veteran's
allegation of poor communication by medical              • A VAMC investigation substantiated an
center staff, who failed to inform the veteran           allegation that proper security measures were
when his appointment was made that his eyes              not observed as a patient was admitted to the
would have to be dilated for an examination for          hospital. This failure left the patient's
diabetic retinopathy. The VAMC Director                  belongings vulnerable. Nursing staff was
apologized in writing for the miscommunication           reminded of hospital policy regarding proper
and later telephoned the veteran.                        procedures to secure patients' belongings.

• A VHA review substantiated allegations of              • A VHA review substantiated an allegation
poor communications with a patient and a delay           of poor communication with a patient by a
in the patient’s receipt of a satisfactory               physician. The physician failed to notify a
prosthesis. Although the contractor involved             patient about his cancer test results and available
made a serious effort to satisfy the veteran,            methods of treatment. The breakdown in
additional delays in his securing a satisfactory         communication resulted in an effort to hire a
prosthesis resulted from poor follow up                  nurse case-manager to coordinate the care of
communications between the veteran and the               patients with complex cases across clinics.
VA prosthetics and sensory aid representative.
The facility has since referred the veteran to           • A VHA review substantiated allegations that
another contractor and has counseled the                 a veteran did not receive timely medical
prosthetics representative on the expected               treatment, that a doctor was insensitive to the
quality of customer service.                             patient's needs, and that communication with the
                                                         patient and family was poor. Management
• A VHA review substantiated allegations of              counseled the staff members involved and issued
poor discharge planning by a VAMC. The                   an apology to the patient and his wife.
VAMC staff made the veteran obtain his own               Corrective action included recruiting additional
transportation home following his early morning          practitioners for the clinic.
emergency room discharge. The review also
found that a social worker was on duty, but was          • A VHA review substantiated the allegation
never notified of the veteran’s situation. The           of poor communication with a patient by a VA
nurse supervisor reviewed proper discharge               employee. Both the veteran and the employee
planning with the staff.                                 conceded that they should have handled the
                                                         situation in a more professional manner. The
• A VHA review at a VAMC substantiated                   employee’s supervisor counseled her about the
allegations of inappropriate and incorrect               matter.
treatment by a pharmacist, who failed to consult




                                                    65
Office of Management & Administration

• A VHA review substantiated the allegation               franked Government envelope. Since the
of a backlog of patients waiting for outpatient           employee was previously caught stealing food
care services at a VAMC. Numerous specialty               from the canteen, management terminated the
and primary care clinics were found to have               employee.
waiting times greater than the VHA standard of
30 days. Recommendations included                         Patient Safety
consultation with other VAMCs and an
aggressive approach in addressing the backlog.            • Prompted by a Hotline inquiry, a VISN
                                                          review substantiated a violation of patient safety.
Fiscal Controls                                           The reviewers found that during a period of
                                                          extremely hot weather, senior management
• As the result of a Hotline inquiry, a VAMC              failed to properly supervise the coordination of
review found that a veteran was erroneously               services during the shutdown of air conditioning
billed for his Agent Orange examination. The              in the nursing home care unit, which placed the
facility issued a credit to the veteran.                  patients’ safety at risk. The facility has since
                                                          conducted an analysis to develop a structured
• A VAMC review substantiated an allegation               system for documenting communication and
of mismanagement of resources. An insurance               coordination of services in unusual events.
company made several requests over a 3-year
period for a refund of overpayment for care               • A VHA review substantiated the allegation
provided to a veteran. The VAMC issued a                  of an environmental safety hazard at a VA
$47,564 refund to the company.                            outpatient clinic. Although an independent
                                                          engineering firm found no immediate structural
• An Office of Financial Policy review                    danger in an overhead walkway, the report
substantiated the allegation of negligence by a           recommended that repairs be accomplished as
VAMC. The medical center made a coding                    soon as possible.
error on an employee’s court-ordered child
support deduction, resulting in an under-                 Government Equipment and Supplies
deduction of more than $100 per pay period.
The correct method for computing court-ordered            • Prompted by a Hotline inquiry, a Health
deductions was addressed in a national                    Eligibility Center review substantiated the
conference call to payroll offices.                       allegation of problems with automated data
                                                          processing services. A particular veteran’s
Outside Income                                            health enrollment record was identified as one of
                                                          those affected by a previously reported software
Prompted by a Hotline inquiry, a VHA review               problem. The veteran’s record was corrected.
substantiated violations of ethical conduct               The Center staff has initiated several database
standards. A physician was paid a $500 stipend            clean-up projects to improve the quality and
by a drug company representative to observe a             integrity of data being transmitted between
surgical procedure at a VAMC. The physician               VAMCs and the Center.
received a reprimand and was ordered to return
the $500. Additionally, the VAMC notified the             • A VHA inquiry substantiated an allegation
company of the unethical conduct of its                   of misuse of a VA e-mail account by an
representative. The review also revealed that an          employee. The employee who initiated the
employee stole a magazine from a patient and              message was counseled. The recipient, a
was caught trying to mail it to a relative using a




                                                     66
                                                          Office of Management & Administration
supervisory employee not in the direct line of           physician, which caused an unnecessary delay in
work with the sender, was also counseled.                his treatment. Based on these findings, VAMC
                                                         management recommended the Secretary of
• A VHA review substantiated the allegation              Veterans Affairs stop VA payments to the
that the chief of engineering service used a VA          nursing home and domiciliary. The Secretary
wire locating system for personal use at his             agreed with the recommendation and payments
home for over a month. As a result, the service          were stopped.
chief received an admonishment and new
procedures for the use and accountability of all         • A VHA review substantiated an allegation
equipment were enacted.                                  of misuse of official time by a VA-contracted
                                                         emergency room physician. While scheduled to
• A VHA review substantiated the allegation              be on duty in the emergency room, he was
of misuse of Government resources by a retired           conducting compensation and pension
dental technician. The retired employee was              examinations, for which he billed VA
allowed to use dental lab equipment to make a            separately. The physician was counseled about
crown for his wife. The chief, dental service has        his actions and agreed to reimburse the VA for
since reviewed the proper use of VA resources            43 illegally billed examinations. The estimated
and equipment with all dental staff.                     recovery for the VA was $3,060.

• A review by a VAMC substantiated the                   • A VHA review substantiated the allegation
allegation that major equipment in the radiology         of inappropriate treatment by a fee-basis care
department was allowed to sit idle without being         provider. The physician over-extended the
declared surplus. The equipment in question              doctor/patient relationship by making personal
was taken out of service and will be dismantled          loans to the patient. Additionally, the provider
and removed. Officials will receive training for         billed the veteran for a co-payment. VAMC
identifying equipment that should be                     management discussed the inappropriate
relinquished, and the number of inventory spot           relationship with the provider and advised her
checks will be increased.                                that third party billing is strictly prohibited under
                                                         the fee-basis program. The veteran is now under
Contracting Activity                                     the care of another provider.

• Prompted by a Hotline inquiry, a VHA                   Personnel Issues
review substantiated the allegation of
contract/procurement irregularities. A contract          Prompted by a Hotline inquiry, a VISN review
was awarded without full justification and               found conflict of interest and the appearance of
documentation, and the local contracting officer         preferential treatment towards an employee by a
failed to request needed additional justification        VAMC's associate director. VHA took
prior to initiating contracting action. VAMC             appropriate administrative action against the
management is analyzing the facility’s                   associate director.
contracting processes to prevent recurrence.
                                                         Ethical Improprieties
• A VAMC review at a state veterans home
found significant non-compliance with VA                 • Prompted by a Hotline inquiry, a VHA
standards. In an individual veteran’s case, the          review substantiated the allegation of violation
review found the veteran's medical chart was             of ethical conduct by a consolidated mail-out
improperly documented by his attending                   pharmacy supervisor, and found evidence that




                                                    67
Office of Management & Administration
some medications (inhalers) were missing. The             the Department of Labor when a timely response
supervisor, who was also the facility contracting         is not received.
officer technical representative, was found to be
in violation of a contract. Further, this                 • A VAMC investigation substantiated
supervisor was found to have threatened two VA            allegations that a VA employee delayed the
employees and one contract employee with                  processing and filing of a workers’
termination. The medical center director                  compensation claim. The employee was
counseled this supervisor regarding proper                counseled on the proper and timely processing
contracting regulations and personnel                     of such claims.
management issues. Staff members were
warned concerning the missing medications.

• A VHA review substantiated the allegation
                                                          Veterans Benefits
that a nursing supervisor accepted gifts from             Administration
staff. Although it appeared that these gifts were
given on a voluntary basis, several of them               Receipt of VA Benefits
violated 5 CFR § 2635, which sets limits on the
value of gifts given from an employee to their            • As the result of a Hotline inquiry, a VARO
supervisor. The regulations have been reviewed            found that a veteran received benefits for a child
and distributed to staff, and the facility has            who was not attending school. The VARO took
included an overview of these regulations in its          action to remove the award for the child,
new employee orientation agenda. This matter              creating an overpayment of $1,577.
was referred to the Office of General Counsel
for further action.
                                                          • A VARO review found compensation
                                                          benefits of $6,321 were withheld from a
Abuse of Authority                                        veteran's back benefits for payment of attorney
                                                          fees. It was found that a check should have been
Prompted by a Hotline inquiry, a VAMC review              issued to the veteran, not the attorney. The
substantiated an allegation of abuse of authority.        VARO issued the check to the veteran.
The police section chief abused his authority
when he took 4 days of annual leave, while he             • A VARO review substantiated an allegation
had a cancellation of annual leave in effect for          that a $10 late payment fee was assessed by a
his staff. The police chief was counseled.                veteran’s utility company when his guardian
                                                          erroneously entered a $300 payment as $30.
Workers’ Compensation                                     The guardian paid the late fee from his personal
                                                          funds.
• As the result of a Hotline inquiry, a VHA
review showed that, although the paperwork on             • A VBA review substantiated allegations of
an employee's workers’ compensation claim was             lengthy delays in processing applications for
properly completed by the VA, there is no                 purchase of repossessed homes at a VARO. A
evidence to confirm it was ever mailed to the             realty specialist was detailed from another
Department of Labor. The medical center has               VARO to process the backlog, and the other
amended its claims-handling procedures to                 VARO will continue to provide assistance, as
require a notation indicating that case                   needed.
documentation was mailed and to follow up with




                                                     68
                                                           Office of Management & Administration

Benefits Payments to Incarcerated                         inadvertently sent to another veteran. Closer
Veterans                                                  scrutiny will be given to preparation of mailings
                                                          to avoid future errors. In addition, a VARO
• As the result of a Hotline inquiry, a VARO              employee was discourteous when the veteran
review confirmed the incarceration of a veteran           called to report the mailing errors. Action was
in receipt of pension benefits. The VARO                  taken to provide representatives with routine
suspended the veteran’s benefits for a 3-month            customer service training.
period, resulting in VA savings of $2,250.

• A VBA review substantiated an allegation of             National Cemetery
mismanagement of resources by a VARO for
failing to reduce an incarcerated veteran’s               Administration
benefits award. Although the VARO initially
examined the complaint, a review of the file              As the result of a Hotline inquiry, a National
failed to show any VARO action to obtain                  Cemetery Administration review substantiated
further information until the Hotline inquired            the allegation that permanent gravesite floral
about the situation. The estimated VA recovery            containers were removed from a veteran’s grave
was $19,220.                                              at a national cemetery. Most national cemeteries
                                                          have not allowed permanent floral containers in
• A VARO review substantiated the allegation              new sections for many years, since mowers or
that a veteran continued to receive full                  other cemetery equipment can easily damage
compensation benefits while incarcerated. The             these containers. The facility offered to replace
veteran's benefits were reduced, resulting in VA          the containers with new ones; however, the
savings of $13,066 over the length of his                 family member declined the offer.
incarceration.

• A VARO review confirmed that a veteran
incarcerated in a New York state prison since
                                                          Board of Veterans’
1983 never reported his status to the VA. The             Appeals
veteran's pension will be terminated. The
potential overpayment is $169,306.                        As a result of a Hotline inquiry, a review by the
                                                          Board of Veterans’ Appeals (BVA)
• A VBA review substantiated the allegation               substantiated the allegation of a violation of the
that a veteran incarcerated in a Washington state         Privacy Act. The BVA identified 12 documents
prison since 1997 never reported his status to the        in the compilations of 1999 and 2000 decisions
VA. The regional office reduced the veteran's             of the Board that were not decisions and should
compensation benefits and created an                      not have been made available to the public. The
overpayment of $66,905.                                   Board determined that inadequate instructions
                                                          were provided to personnel responsible for the
Privacy Issues                                            deletion of these documents prior to publication
                                                          of the decisions. Management counseled the
Prompted by a Hotline inquiry, a VBA review               staff responsible for the release of the protected
substantiated allegations of privacy act                  information. The Board revised its processes for
violations, and other violations of ethical               identifying and releasing decisions to the public
conduct standards. The review found that                  and reviewed the new processes in a recent
correspondence meant for one veteran was




                                                     69
Office of Management & Administration
training session with BVA attorneys and Board          Overall Performance
members. Further, the BVA has recalled CD-
ROMs distributed to VAROs, veterans’ service
organizations, the Government Printing Office,         Follow Up on OIG Reports
and the Library of Congress.
                                                       The Division is responsible for obtaining
                                                       implementation actions on previously issued
                                                       audits, inspections, and reviews with over
II. OPERATIONAL                                        $946 million of actual or potential monetary
                                                       benefits as of September 30, 2000. Of this
SUPPORT DIVISION                                       amount $857 million is resolved, but not yet
                                                       realized as VA officials have agreed to
Mission Statement                                      implement the recommendations, but have not
                                                       yet done so. In addition, $89 million relates to
   Promote OIG organizational effectiveness            unresolved reviews awaiting contract resolution
   and efficiency by providing reliable and            by VA contracting officers.
   timely follow up reporting and tracking on
   OIG recommendations; responding to                  The Division is also responsible for maintaining
   Freedom of Information Act                          the centralized, follow up system that provides
   (FOIA)/Privacy Act (PA) requests;                   for oversight, monitoring, and tracking of all OIG
   conducting policy review and development;           recommendations through both resolution and
   strategic, operational, and performance             implementation. Resolution and implementation
   planning; and overseeing Inspector                  actions are monitored to ensure that disagreements
   General reporting requirements.                     between OIG and VA management are resolved
                                                       as promptly as possible and that corrective actions
                                                       are implemented as agreed upon by VA
Resources                                              management officials. VA’s Deputy Secretary, as
                                                       the Department’s audit resolution official, resolves
This Division has 9 FTE assigned with the              any disagreements about recommendations.
following allocation:
                                                       As of September 30, 2000, VA had 76 open
                                                       internal OIG reports with 230 resolved but
                FOIA/PA                                unimplemented recommendations and 25
                  45%
                                                       unresolved contract review recommendations
                                   Leg. Reviews        which are awaiting contracting officers’
                                        8%             decisions.

                                                       After obtaining information that showed
                                                       management officials had fully implemented
                              Planning &
                               Reports
                                                       corrective actions, the Division took action to
          Follow Up
             30%                 17%                   close 67 internal reports and 279
                                                       recommendations with a monetary benefit of
                                                       $65 million.

                                                       During this period, 100 percent of follow up
                                                       requests on immediate actions were sent within




                                                  70
                                                          Office of Management & Administration
three months. Also, 100 percent of the initial           work days for complex cases, 18 work days for
and the subsequent follow up letters were                less complicated requests, and 14 work days for
processed in less than 3 months. In both cases,          routine matters.
we met the standard.
                                                         The Information Technology and Data Analysis
Freedom of Information Act, Privacy Act,                 Division section reports on electronic FOIA
and Other Disclosure Activities                          activities.

The Division processes all OIG FOIA and                  Review and Impact of Legislation and
Privacy Act requests from Congress (on behalf            Regulations
of constituents), veterans, veterans service
organizations, VA employees, news media, law             The Division coordinated concurrences on
firms, contractors, complainants, general public,        legislative and regulatory proposals from the
and subjects/witnesses of inquiries and                  Congress, OMB, and the Department that relate
investigations. In addition, the Division                to VA programs and operations. The OIG
processes official requests for information and          commented and made recommendations
documents from other Federal Departments and             concerning the impact of the legislation and
agencies, such as the Office of Special Counsel,         regulations on economy and efficiency in the
the Department of Justice, and the FBI. These            administration of programs and operations or the
requests require the review and possible                 prevention and detection of fraud and abuse.
redacting of OIG Hotline, healthcare inspection,         During this period, we reviewed 94 legislative,
criminal and administrative investigation,               48 regulatory, and 38 administrative proposals.
contract audit, and internal audit reports and
files. We also process OIG reports and
documents to assist VA management in
                                                         Status of OIG Reports
establishing evidence files used to support              Unimplemented for Over
administrative or disciplinary actions against VA
employees.                                               3 Years
During this reporting period, we processed 165           We require management officials to provide us
requests under the Freedom of Information and            with documentation showing the completion of
Privacy Acts and released 280 audit,                     corrective actions on OIG reports, including
investigative, and other OIG reports. In one             reporting of collection actions until the amounts
instance we had no records. Information was              due VA are either collected or written off. In
partially withheld in 105 requests because               turn, we conduct desk reviews of status reports
release would have constituted an unwarranted            submitted by management officials to assess
invasion of personal privacy, interfered with            both the adequacy and timeliness of agreed upon
enforcement proceedings, disclosed the identity          implementation actions. When a status report
of confidential sources, disclosed internal              adequately documents corrective actions, the
Department matters, or was specifically                  follow up staff closes the recommendation after
exempted from disclosure by statute.                     coordination with the OIG office that wrote the
                                                         report. If the actions do not implement the
During this period, all FOIA cases received              recommendation, we requests a status update.
written responses within 20 work days, as
required. There are no cases pending over                The following chart lists the total number of
1 year. Our average processing times were 170            unimplemented OIG reports and




                                                    71
Office of Management & Administration
recommendations. It also provides the total                 2000. However, this did not occur and no
number of unimplemented reports and                         planned completion date was provided.
recommendations issued in FY 97 and earlier.                Concern: The OIG is concerned that this
We are particularly concerned about any report              report, which dates back to 1994, has not yet
which was not implemented 3 years after being               been implemented. The final report showed that
issued.                                                     inspection procedures varied between VAMCs,
                                                            appropriateness of community nursing homes
                                                            inspection team makeup could be improved, and
                Unimplemented OIG                           annual reinspections should be conducted more
            Reports and Recommendations                     timely. These are still issues which need to be
                             FY 97 and                      addressed to improve care of veterans.
 VA            Total
                               Earlier
Office                                                      Report: Evaluation of VHA’s Policies and
          Repts Recoms Repts Recoms
VHA        45       172      3         4                    Practices for Managing Violent and Potentially
A&MM       16        30      0         0                    Violent Psychiatric Patients, 6HI-A28-038,
VBA        11        46      2         2                    3/28/96
HRA         2         2      0         0                    Recommendation: VHA managers should
NCA         1         3      0         0                    explore network flagging systems that would
I&T         1         2      0         0                    ensure employees at all VAMCs are alerted
Total      76       255      5         6                    when patients with histories of violence
                                                            present for treatment to their medical
Office of Acquisition and Materiel Management (A&MM)        centers.
Office of Human Resources and Administration (HRA)          Status: VHA provided a 2-page draft directive
Office of Information and Technology (I&T)                  on transmission of information on assaultive
                                                            patients in March 2000. In September 2000,
                                                            VHA stated they felt it may be possible to
Veterans Health                                             publish the directive by the end of December.
                                                            Concern: The OIG report included
Administration                                              recommendations that were meant to strengthen
                                                            areas that may reduce that incidence of injury
Unimplemented Recommendations and                           associated with violence in inpatient psychiatric
Status (FY 97 and Earlier Reports)                          units. The original planned completion date was
                                                            October 1996. A directive provided in 1998 did
Report: VHA Activities for Assuring Quality                 not address the issue. The OIG is concerned that
Care for Veterans in Community Nursing                      very little progress has been made in
Homes, 4R3-A28-016, 1/11/94.                                implementing this recommendation, which dates
Recommendation: VHA develop                                 from 1996, while incidents of patient violence
standardized community nursing homes                        against staff and other patients continue.
inspection procedures and criteria for
approving homes for participation in the                    Report: Internal Controls Over the Fee-Basis
program.                                                    Program, 7R3-A05-099, 6/20/97
Status: VHA provided a 6-page draft directive               Recommendations: VHA improve the cost
that was provided to only a few selected field              effectiveness of home health services by: (1)
sites for comment in March 2000. In August                  establishing guidelines for contracting for
2000, they indicated that they would have the               such services, and (2) providing contracting
directive in concurrence by the end of August




                                                       72
                                                         Office of Management & Administration

officers with benchmark rates for                       the C&P Service and the General Counsel’s
determining the reasonableness of charges.              Office of Regulations Management and
Status: VHA provided a 10-page draft directive          Professional Staff II, has been formed to
on purchased skilled home health care and               implement this recommendations to the extent
homemaker/home health aide services in July             that it is legal and feasible to do. They expect to
2000, however it did not address                        complete drafting the proposed regulation by the
recommendation (2). Currently, no planned               end of October 2000.
completion date has been provided.                      Concern: The audit found that C&P
Concern: The June 1997 final report showed              overpayments could be reduced $4 million
that contracting for home health services could         annually, if actions were taken to simplify
save at least $1.8 million annually, however the        communications with beneficiaries regarding
recommendations remain unimplemented. The               their responsibility to report beneficiary status
May 1997, comments to the draft report referred         changes timely. We are concerned that very
to a pilot project that would implement the             little progress has been made in implementing
recommendations. However, 1½ years later, the           this recommendation during the past 3 years. As
December 1998 status update reported that the           a result, approximately $12 million has been lost
pilot did not address these recommendations.            to C&P overpayments that could have been
We are concerned that the last four status              avoided.
updates from the program office reported either
delays in planned completion dates or did not           Report: Review of VBA’s Procedures to
provide a planned completion date. As a result,         Prevent Dual Compensation, 7R1-B01-089,
over $5.3 million has been spent on these               5/15/97
contracts which could have been avoided. We             Recommendation: VBA follow up on FYs
are also concerned that until this condition is         1993 through 1996 dual compensation cases
corrected, at least $1.8 million annually is not        to ensure either VBA disability payments are
saved.                                                  offset or the Department of Defense is
                                                        informed of the need to offset reservist pay.
                                                        Status: The March 2000 status report stated
                                                        VBA found a number of problems with the data
Veterans Benefits                                       files received from the Defense Manpower Data
Administration                                          Center and the Center ran another FY 1999 file.
                                                        VBA planned to use the FY 1999 data and
Unimplemented Recommendations and                       conduct a test at one station. The September
Status (FY 97 Reports)                                  2000 status report stated one VARO sent 147
                                                        waiver forms to veterans and will evaluate the
Report: Review of the Causes of VBA’s                   results to determine if the revised file contains
Compensation and Pension (C&P)                          accurate data. VBA also sent a follow up
Overpayments, 7R1-B01-105, 12/2/96                      request to four original regional test offices.
Recommendation: VBA reduce C&P benefit                  When all the results are in, a decision will be
over payments by revising due process                   made as to whether to release the remaining FY
procedures to remove the requirement that               1999 cases and the FY 1993 through 1998 drill
beneficiaries must inform the VA in writing             pay cases. At that time, VBA will also be able
of status changes that will result in a                 to provide a planned completion date.
reduction of benefits.                                  Concern: The audit’s purpose was to determine
Status: In September 2000, VBA stated a fast            if VBA’s procedures ensured that disability
track regulation team, consisting of staff from         compensation benefits of active military




                                                   73
Office of Management & Administration
reservists were properly offset from their                 units nationwide to establish and support local
training and drill pay. It found that 90 percent of        and wide area networks, guarantee uninterrupted
the potential dual compensation cases reviewed             access to electronic mail, service personal
did not have offsets from their military reserve           computers, detect and defeat computer threats,
pay. We are concerned that an estimated                    and provide support in protecting all electronic
$8 million in annual dual compensation                     communications. The Division, which is
payments continue to be made each year because             managed by the OIG’s Chief Information
this recommendation has not been implemented.              Officer (CIO), represents the OIG on numerous
                                                           intra- and inter-agency IT organizations and is
                                                           responsible for strategic IT planning for all OIG
                                                           requirements. The Data Analysis section in
III. INFORMATION                                           Austin, TX provides data gathering and analysis
TECHNOLOGY AND                                             support to those employees of the OIG, as well
                                                           as the VA and other Federal agencies, requesting
DATA ANALYSIS                                              information contained in VA automated
DIVISION                                                   systems. Finally, a member of this division
                                                           serves as the OIG statistician.

Mission Statement                                          Resources
    Promote OIG organizational effectiveness               The Division has 18 FTE currently assigned in
    and efficiency by ensuring the accessibility,          Washington, Austin, and Atlanta. These FTE
    usability, and security of OIG information             are devoted to the following areas:
    assets; developing, maintaining, and
    enhancing the enterprise database
                                                                                 Programmers   PC Comp.
    application; facilitating reliable, secure,                    Sup. Comp         13%         Spec.
    responsive, and cost-effective access to this                    Spec.                        6%
                                                                      13%
    database, VA databases, and electronic                                                       Program
                                                                                                 Assistant
    mail by all authorized OIG employees;                                                          6%
    providing Internet document management                      Statisician
                                                                    6%
    and control; and providing statistical                                 CIO
    consultation and support to all OIG                                     6%

    components. Provides automated data                                                        Mainframe
                                                                  Webmaster/                   Computer
    processing technical support to all elements                   Security                      Spec.
                                                                     6%                          44%
    of the OIG and other Federal Government
    agencies needing information from VA
    files.
                                                           Overall Performance
The Information Technology (IT) and Data
Analysis Division provides IT and statistical              Master Case Index (MCI)
support services to all components of the OIG.
It has responsibility for the continued                    During this reporting period, we completed more
development and operation of the management                than 70 enhancements of the MCI, the OIG’s
information system known as the Master Case                enterprise database. Several of these
Index (MCI), as well as the OIG’s Internet                 enhancements were designed to streamline data
resources. The Division interfaces with VA IT              entry and reduced the number of OIG keystrokes




                                                      74
                                                           Office of Management & Administration
required to complete two particular forms by              data storage and e-mail encryption system to
several thousand a month. We redesigned the               protect sensitive information and to enable
MCI forms used by auditors in order to end the            secure communications both within and outside
duplication of effort previously devoted to               the OIG.
periodic reporting on projects. We significantly
improved the searching capability in MCI by               We reviewed and commented on Departmental
providing users the means to bundle multiple              policies and programs involving information
searches into a single search.                            security, accessibility, and Internet resources and
                                                          utilization. Areas we addressed included
Internet Technology/Security                              policies for ensuring information posted on VA
                                                          websites is not restricted, current plans for
The Division is responsible for processing and            public key infrastructure deployment in the VA,
controlling electronic publication of OIG                 and proposed security notices for VA websites.
reports, including maintaining the OIG websites
and posting OIG reports on the Internet. Data             Statistical Support
files on the OIG websites were accessed over
554,000 times by more than 116,000 visitors.              The OIG statistician is part of the technical
Our most popular reports were downloaded over             support team under the direction of the OIG's
50,000 times, providing both timely access to             Chief Information Officer. The OIG statistician
OIG customers and cost avoidance in the                   is the subject matter expert providing statistical
reduced number of reports that must be printed            consultation and support to the VA OIG. The
and mailed. Our vacancy announcements                     statistician provides assistance in planning,
accounted for an additional 29,000 downloads.             designing, and sampling for relevant IG projects.
                                                          In addition, the statistician provides support in
We posted frequently-requested CAP,                       the implementation of appropriate methods to
administrative investigation, and audit reports in        ensure that data collection, preparation, analysis,
our electronic reading room in compliance with            and reporting are accurate and valid.
the Electronic Freedom of Information Act. We
published 18 reports, 55 Office of Investigations         For this period, the OIG statistician and a
press releases, and other OIG publications,               computer specialist provided statistical support
including this semiannual report to Congress,             for all CAPs. This support involved preparing
online.                                                   and processing the random samples of full-time
                                                          VAMC employees who were part of the CAP's
Departmental accessibility staff checked our              employee satisfaction survey. In addition, the
electronically-redacted reports which are made            individuals provided support to process the CAP
available online in portable document format.             data collected while on-site.
They informed us the reports they tested were
accessible by the public including sight-impaired         Information Technology Training
customers using screen reader technology.                 Initiative
Other OIG web pages tested were accessible
according to current standards.                           We contracted with four vendors to provide
                                                          instructor-led training in a variety of Microsoft
We completed networking all OIG field offices             applications in our newly constructed classroom
which allows direct access to all internal VA             in our Washington, DC headquarters office and
resources without having to use outside Internet          one vendor with training facilities in each city in
services. We implemented an OIG-managed                   which the OIG is located to provide training for




                                                     75
Office of Management & Administration
our field employees. To date, 77 employees                Fraud Leads and Internal Controls
have received 125 days of instructor-led
training.                                                 During this period, the section worked closely
                                                          with OIG investigators, auditors, and the VA
As a result of a partnership with the Department          Office of Financial Policy, Financial and
of Treasury, each OIG employee also received at           Systems Quality Assurance Service. Seven
nominal cost a computer-based training package            computer profiles designed by the section to
on two compact disks originally developed for             identify potential internal and external fraud
the Internal Revenue Service. This multi-media            were tested at four VAROs. These profiles used
package contains tutorials for novice,                    patterns of fraudulent data created in the past by
intermediate, and advanced users of Microsoft             employees to illegally generate payments to
Word, Access, Excel, PowerPoint, and Outlook.             themselves or co-conspirators. Subsequently, 30
                                                          cases of potential fraud among the 306 claim
                                                          folders examined were referred to OIG
DATA ANALYSIS                                             investigators with potential VA recoveries of
SECTION                                                   more than $1.6 million. Examples include:

This section analyzes data in VA computer files           • Eight potentially non-existent veterans
and systems. They develop proactive computer              existing on VA files were identified at a
profiles that search VA computer data for                 particular VARO. The computer profile was
patterns of inconsistent or irregular data with a         developed exclusively using VA databases. One
high potential for fraud and refer these leads to         employee at this office was discovered issuing
auditors and investigators for further review.            payments in the name of a deceased veteran in
They conduct reviews that identify invalid or             care of an acquaintance of the employee.
erroneous information in VA computer files.               Judicial action is pending in this case. Potential
They provide automated data processing                    VA recoveries are $340,764.
technical assessments and support to all
elements of the OIG and other governmental                • Seventeen potentially deceased veterans still
agencies needing information from VA                      receiving VA benefits checks were identified at
computer files.                                           one VARO and were referred to OIG
                                                          investigators for further review. Potential VA
The section completed 133 ADP support                     recoveries are $645,768.
requests from VA OIG staffs during this period
to include support for 19 CAP reviews. They               Postaward and Preaward Contract
also provided end-user support to 72 OIG staff            Reviews
members and offices in response to ADP
questions or problems.                                    The section assisted OIG auditors by providing
                                                          ADP support in obtaining and analyzing the
The support provided by the staff is reported in          sales data provided by independent vendors
many of the OIG audits, inspections, and                  seeking or under contract with VA. During this
investigative cases described in other sections of        reporting period, we completed 13 requests from
this report.                                              OIG auditors reviewing post- and pre-award VA
                                                          contracts. Examples include:

                                                          • The staff completed 56 ADP reports in
                                                          support of an OIG review of a pharmaceutical




                                                     76
                                                          Office of Management & Administration
company under contract with VA. Working                  • The staff provided the Department of Justice
with Department of Justice staff, we copied and          with information to assist their investigation of
provided back to the company sales information           widespread fraud within Government agencies
the company did not have and could not                   dealing with a certain company. Allegations
reproduce. The vendor’s hardware was obsolete            focused on the fraudulent billing practices of a
and the data required special handling to convert        certain company and whether VA may have also
the company’s sales data into a medium that              been defrauded. Our research determined VA
could be processed using VA computers.                   had not been victimized.

• Most purchase of pharmaceutical products is            Requests from VA
conducted through use of a prime vendor. We
were able to obtain copies of the prime vendor           During this reporting period, the section
sales to VA that proved useful to OIG auditors           completed 31 requests for information from
in conducting post-award and pre-award reviews           other VA offices. Examples include:
of VA contracts. The data helped auditors assist
VA contracting officers in price negotiations and        • As part of the section’s support for the OIG
ensuring the reasonableness of contract prices.          audit of VA’s consolidated financial statements,
                                                         we routinely provide VHA with a quarterly file
Other Federal Agencies                                   containing VHA’s accounts receivable
                                                         transactions. VHA uses this file in performing a
The section completed 18 requests for                    national reconciliation of accounts receivable in
information from other offices. Examples                 all of its facilities. During a quarter, there are
include:                                                 approximately 10 million accounts receivable
                                                         bills and 20 million payment transactions.
• On several occasions, the staff provided data
to the Department of Health and Human                    • We provided data for the VARO Manila
Services OIG concerning allegations of                   Director that revealed an abnormally large
fraudulent submission of records to the Health           number of recipients one hundred years of age
Care Financial Administration by a variety of            or older. We also identified those recipients for
health care providers.                                   whom no date of birth or Social Security number
                                                         was recorded. The absence of this data makes it
• The staff provided data to the Department of           impossible to independently identify either
Justice regarding allegations that a manufacturer        suspiciously old or deceased payees using
of pipes may have sold defective plumbing pipes          computer matching.
to several Federal departments including VA.
We discovered 13 sales of this pipe to VA.               • We assisted VBA by providing data files to
                                                         be used in evaluating the capabilities of
• The staff provided the Department of Health            competing vendors to design software that could
and Human Services with information about a              identify potential fraud.
physician who surrendered his medical license
in one state and moved to another. We were
asked to query several databases to determine if
this physician had been employed by or done
business with VA. He had not.




                                                    77
Office of Management & Administration

                                                          Budget
IV. RESOURCES
MANAGEMENT DIVISION                                       The staff executed 99.95 percent of the OIG’s
                                                          FY 2000 budget authority.

Mission Statement                                         Human Resources Management

    Promote OIG organizational effectiveness              During this period, the staff brought 17 new
    and efficiency by providing reliable and              employees on board. In addition, the staff
    timely management and administrative                  processed 97 personnel actions, 1 distinguished
    support services.                                     career award, 6 outstanding career awards, 151
                                                          special contribution awards, 12 time-off awards,
The Division provides support services for the            30 on-the-spot awards, and 2 peer awards.
entire OIG. Our services include personnel
services and liaison; budget formulation,                 Travel
presentation, and execution; travel processing;
procurement; space and facilities management;             By the nature of our work, OIG personnel travel
and general administrative support.                       almost continuously. As a result, we processed
                                                          1,877 travel and 54 permanent change of station
Resources                                                 vouchers in addition to 10 new permanent
                                                          change of station authorities and 16 amendments
                                                          to existing authorities.
The Division has 14 FTE currently assigned.
The staff allocation for the four functional areas
                                                          Administrative Support
is as follows:
                                                          The administrative staff works closely with
                          Admin. Supt.                    central office administrative offices and building
                             25%                          management to coordinate various
         Travel                                           administrative functions, office renovation
          17%                                             plans, telephone installations, and the
                                                          procurement of furniture and equipment.
                                         Budget
                                          25%             In addition, this component processed 264
                                                          procurement actions and reviewed and
                  HRM                                     approved, each month, the 44 statements
                  33%
                                                          received from the OIG’s cardholders under the
                                                          Government’s purchase card program.

Overall Performance
Customer Satisfaction

Customer satisfaction survey forms are
randomly provided to OIG employees
throughout the year. The average customer
satisfaction rating was 4.3 out of a possible 5.0.




                                                     78
OTHER SIGNIFICANT OIG ACTIVITIES
President’s Council on Integrity                      outstanding accomplishments in the audit and
and Efficiency (PCIE)                                 investigations of the VBA compensation and
                                                      pension internal controls system. The audit and
                                                      investigations resulted in improved internal
                                                      controls for a claims processing system which
                                                      administers over $21 billion in benefits annually.

                                                      • OIG employees also received six PCIE
                                                      “honorable mention” awards.

      Hotline & IT/Data Analysis Teams                • A manager from the Central Office Audit
                                                      Operations Division was part of an IT
            [picture not available]                   roundtable subcommittee tasked to devise a
                                                      PCIE survey of IT capabilities within the IG
                                                      community. As part of the subcommittee, he
                                                      helped develop the survey, test the questions,
                                                      and collect the results from individual IGs.

                                                      • The OIG Webmaster made a presentation on
                                                      website privacy requirements, electronic
• Employees of the Hotline Division and the
                                                      redactions, E-FOIA, and the new accessibility
Information Technology and Data Analysis
                                                      standards at a PCIE webmasters conference.
Division received a PCIE award for outstanding
use of information technology (IT) tools as a
means to further the effectiveness of the OIG         OIG Management Presentations
operational elements.
                                                      8th Annual Leadership VA Alumni
                                                      Association Forum

                                                      The Inspector General spoke to VA executives
                                                      and managers at the forum. His presentation
                                                      was titled "Building One IG for One VA."

  Investigations, Audit, and Management and           50th Anniversary of the Association of
             Administration Teams                     Government Accountant's Professional
                                                      Development Conference
            [picture not available]
                                                      The Director, Audit Operational Support
                                                      Division, made two presentations on the Office
                                                      of Audit's internal quality assurance program,
                                                      including internal peer reviews and self-
                                                      assessments.
• Employees of the Office of Investigation,
Office of Audit, and the Office of Management
and Administration received a PCIE award for




                                                 79
Other Significant OIG Activities

National Occupational Health and Safety                  Coalition for Government Procurement
Conference                                               Spring Conference

A project manager from the Central Office Audit          The Director, Contract Review and Evaluation
Operations Division teamed with representatives          Division, gave a presentation on the Federal
from VHA on a presentation outlining the joint           Supply Schedule program. The presentation
OIG/VHA efforts to enhance VHA’s workers’                addressed what the VA OIG believed worked
compensation program. The conference, held in            well and what needed improving.
San Antonio, had over 300 VA health and safety
attendees.                                               VA National Acquisition Center Industry
                                                         Conference
VA Information Technology Conference
                                                         The Director and an audit manager from the
• The Director and a project manager from the            Contract Review and Evaluation Division gave a
Central Office Audit Operations Division                 presentation on the OIG contract review process.
teamed with VHA’s National Safety Director in            The presentation covered preaward and
a presentation on “Using IT for Successful               postaward reviews, reviews of compliance with
Workers’ Compensation Case Management and                the drug pricing provisions of the Veterans
Fraud Detection.” The conference offered                 Healthcare Act (Public Law 102-585, Section
training on the latest case management                   603), and voluntary disclosures by contractors.
techniques to 3,000 attendees.
                                                         Association of Military Surgeons of the
• Auditors from the Central Office Audit                 United States
Operations Division made a presentation on
“Utilization of ‘Dump ACL’ for Auditing                  An audit manager from the Contract Review and
Permissions.” The presentation highlighted the           Evaluation Division, fielded questions from
use of software that can identify vulnerabilities        industry representatives and their consultants
in system security.                                      regarding changes proposed by the VA to
                                                         improve the administration of the drug pricing
Second Annual Federal Workers’                           provisions contained in Public Law 102-585,
Compensation Conference and                              Section 603.
Exposition
                                                         Awards
The Director and a project manager from the
Central Office Audit Operations Division, and            Certified Fraud Examiners Awards
the Special Agent in Charge, Investigations
Northeast Field Office, gave a presentation on           • Stephen Gaskell, Director, Central Office
“Using Automated Analysis to Aid in Detection            Audit Operations Division was presented with
of Workers’ Compensation Fraud.” The                     the Fraud Examiner of the Year Award by the
conference was a collaborative effort between            Washington metropolitan chapter of the
VA and several Federal agencies and provided             Certified Fraud Examiners.
educational opportunities to over 1,400
attendees for managing claims under the Federal          • OIG auditor, Paul E. Sawyer, received the
Employees’ Compensation Act.                             International Association of Certified Fraud
                                                         Examiners “Association’s Distinguished
                                                         Achievement Award for 2000,” at the annual




                                                    80
                                                                       Other Significant OIG Activities
meeting of the Washington metropolitan chapter             • In September 2000, the Assistant Inspector
for a lifetime of commendable service to the               General for Auditing testified before the House
field of fraud examination.                                Committee on Veterans’ Affairs, Subcommittee
                                                           on Oversight and Investigations. The hearing
Athena Award                                               focused on OIG’s findings concerning the
                                                           Department’s automated information system
Healthcare inspector, Paula Chapman, received              security program.
the Athena Award (recognition of employee
demonstrating exceptional service to women                 Obtaining Required Information or
veterans) from the Central Texas VA Health                 Assistance
Care System, women veterans committee.
                                                           • Sections 5(a)(5) and 6(b)(2) of the Inspector
OIG Congressional Testimony
                                                           General Act of 1978 require the Inspector
                                                           General to report instances where access to
• In May 2000, the Inspector General testified             records or assistance requested was
before the House Committee on Veterans’                    unreasonably refused, thus hindering the ability
Affairs, Subcommittee on Oversight and                     to conduct audits or investigations. During this
Investigations. The testimony addressed the                6-month period, there were no reportable
results of the OIG’s reviews over the last several         instances under these sections of the Act.
years that have focused on VA’s IT system
development initiatives, procurements, and
                                                           • Under P.L. 95-452, the IG has authority
capital asset acquisition practices that identified
                                                           “… to require by subpoena the production of all
opportunities where the Department could
                                                           information, documents, reports, answers,
enhance it’s IT investment efforts. The
                                                           records, accounts, papers, and other data and
testimony also focused on the OIG’s review of
                                                           documentary evidence necessary . . . .” The use
the Department’s information system security
                                                           of IG subpoena authority has proven valuable in
controls.
                                                           our efforts, especially in cases dealing with third
                                                           parties. During this reporting period, the OIG
• In June 2000, the Assistant Inspector                    issued 33 subpoenas in conjunction with OIG
General for Healthcare Inspections submitted               investigations and audits.
testimony and participated in the House
Committee on Veterans’ Affairs field hearings at
the Northern Indiana Healthcare System,
Marion, Indiana. The hearings focused on
management and patient safety issues at the VA
Healthcare System.

• In July 2000, the Inspector General and the
Office of Healthcare Inspections submitted
testimony and responded to focused questions
from the House Committee on Veterans’ Affairs,
Subcommittee on Oversight and Investigations,
on the measures taken by VA to ensure patients
are safe at VA health care facilities.




                                                      81
Other Significant OIG Activities




                                   82
                                         APPENDIX A

                           DEPARTMENT OF VETERANS AFFAIRS
                             OFFICE OF INSPECTOR GENERAL
                                 REVIEWS BY OIG STAFF

  Report                                                          Funds Recommended
 Number/                                                             for Better Use    Questioned
Issue Date                    Report Title                         OIG      Management   Costs

COMBINED ASSESSMENT PROGRAM REVIEWS
00-00025-37 Combined Assessment Program Review, Department
4/3/00      of Veterans Affairs Medical Center Omaha, NE

00-00473-63 Combined Assessment Program Review of VA                 $52,524    $52,524
5/4/00      Medical Center Denver, CO

00-01072-64 Combined Assessment Program Review of the Carl T.        $27,450    $27,450
5/4/00      Hayden VA Medical Center Phoenix, AZ

00-01199-72 Combined Assessment Program Review, VA
5/25/00     Northern Indiana Health Care System Ft. Wayne and
            Marion, IN

00-01062-84 Combined Assessment Program Review, VA Medical          $215,924   $215,924
6/5/00      and Regional Office Center White River Junction, VT

00-00933-88 Combined Assessment Program Review, VA Gulf
6/19/00     Coast Veterans Health Care System Biloxi/Gulfport,
            MS

00-01227-94 Combined Assessment Program Review of the VA
7/14/00     Central California Health Care System Fresno, CA

00-01223-104 Combined Assessment Program Review of VA New           $678,382   $678,382     $29,033
8/3/00       York Harbor Healthcare System

00-01202-107 Combined Assessment Program Review William
8/18/00      Jennings Bryan Dorn Veterans' Hospital Columbia,
             SC

00-01217-105 Combined Assessment Program Review of VA               $158,680   $158,680
8/18/00      Medical Center Portland, OR

00-02003-108 Combined Assessment Program Review, VA Medical         $135,869   $135,869
8/18/00      Center Tuscaloosa, AL

00-01225-109 Combined Assessment Program Review of VA                $94,000    $94,000
8/31/00      Medical Center Hampton, VA




                                                    83
Report                                                            Funds Recommended
 Number/                                                             for Better Use    Questioned
Issue Date                   Report Title                           OIG     Management   Costs

COMBINED ASSESSMENT PROGRAM REVIEWS (Cont’d)
00-01065-117 Combined Assessment Program Review VA North              $33,665       $33,665
9/8/00       Texas Health Care System

00-01230-120 Combined Assessment Program Review of VA                $383,785     $383,785
9/25/00      Western New York Healthcare System

INTERNAL AUDITS

99-00180-53 Audit of Fee Basis Claim Payments, Alaska VA
4/3/00      Health Care System and Regional Office Anchorage,
            AK

99-00180-85 Audit of Fee Basis Claim Payments, Department of
6/7/00      Veterans Affairs Medical Center Long Beach, CA

99-00180-91 Audit of Fee Basis Claims Payments South Texas
6/28/00     Veterans Health Care System, Audie L. Murphy
            Division San Antonio, TX

99-00180-92 Audit of Fee Basis Claims Payments VA Medical
6/28/00     Center Little Rock, AR

99-00186-86 Audit of VA Medical Center Management of               $30,600,000 $25,900,000*
6/30/00     Pharmaceutical Inventories

99-00169-97 Audit of the Compensation and Pension Program's
7/18/00     Internal Controls at VA Regional Office St.
            Petersburg, FL

OTHER OFFICE OF AUDIT REVIEWS

99-00155-66 Evaluation of Accounts Receivable Management
4/3/00      VAMC Washington, DC

98-00160-57 Allegations of Mismanagement of the Equipment            $336,313         $0**
4/5/00      Program at VA Medical Center (Atlanta), Decatur,
            GA

99-00002-60 Management Letter: Fiscal Year 1999 Financial
4/21/00     Statements, VA Life Insurance Programs and Selected
            Loan Guaranty Program Financial Activities


* VHA prefers the funds associated with a 10-day inventory goal rather than a 7-day goal since that is the
VHA agreed upon initial goal.

** VAMC Decatur did not agree because the equipment was needed and had been installed.



                                                   84
Report                                                             Funds Recommended
 Number/                                                              for Better Use    Questioned
Issue Date                     Report Title                          OIG     Management   Costs

OTHER OFFICE OF AUDIT REVIEWS (Cont’d)

99-00001-75 Management Letter: Accuracy of Fiscal Year 1999
6/1/00      Property, Plant, and Equipment Financial Information

99-00008-76 Management Letter: Accuracy of Department of
6/1/00      Veterans Affairs' Payroll Data for Fiscal Year 1999

99-00008-77 Management Letter: Medical Facility Receivables
6/1/00

99-00003-74 Management Letter: ADP Security at Veterans Affairs
7/1/00      Pittsburgh Healthcare System

99-00003-81 Management Letter: ADP Security at Veterans
7/1/00      Affairs Stars and Stripes Healthcare Network

99-00003-82 Management Letter: ADP Security at Veterans
7/1/00      Health Administration

99-00003-83 Report of Review: Department of Veterans Affairs
7/1/00      Penetration Review

99-00005-99 Management Letter: Fiscal Year 1999 Consolidated
7/14/00     Financial Statement Audit – Benefits Programs

00-01416-106 Management Advisory: Selected Internal Controls,
9/19/00      VA Medical Center Fayetteville, AR

99-00046-116 Management Advisory Letter: Workers'
9/25/00      Compensation Program Assist, Veterans Integrated
             Service Network (VISN) 4

CONTRACT REVIEWS *
99-00113-55 Final Report – Review of VA Medical Center                                        $612,475
4/4/00      Albuquerque's Contract with American Medical
            Depot for Distribution of Medical/Surgical Supplies

99-00137-59 Review of Roberts Pharmaceutical Corporation's                                     $26,373
4/18/00     Implementation of Section 603 Drug Pricing
            Provisions of Public Law 102-585 Under Federal
            Supply Schedule Contract Numbers V797P-5736n
            and V797P-5181x

* Management estimates are not applicable to contract reviews. Cost avoidances resulting from these
reviews are determined when the OIG receives the contracting officer’s decision on the report
recommendations.




                                                     85
Report                                                             Funds Recommended
 Number/                                                              for Better Use    Questioned
Issue Date                    Report Title                           OIG     Management   Costs

CONTRACT REVIEWS (Cont’d)

00-00258-61 Review of Federal Supply Schedule Proposal                $100,820
4/20/00     (Solicitation Number 797-FSS-99-0025)
            Getinge/Castle, Inc., Arnold, MD

00-00234-65 Final Report Review of Fujisawa Healthcare, Inc.'s                              $200,000
4/27/00     Voluntary Disclosure of Pricing Violations Under
            Federal Supply Schedule Contract Number V797P-
            5238x

00-01815-56 Final Report - Review of Immunex Corporation's                                    $2,264
5/5/00      Voluntary Disclosure Under Federal Supply Schedule
            Contract V797P-5280x

00-01378-68 Review of Marconi Medical Systems Inc's Direct            $823,449
5/17/00     Delivery Pricing Proposal Under Solicitation No. M6-
            Q7-00

00-00797-71 Review of Federal Supply Schedule Proposal
5/25/00     (Solicitation Number 797-652F-99-0004) Electric
            Mobility Corporation, Sewell, NJ

00-01584-73 Final Report Review of Proposal Submitted by              $297,833
5/31/00     University of Pittsburgh Physicians for
            Anesthesiology Physician Services at the University
            Drive Division VA Pittsburgh Healthcare System
            Pittsburgh, PA

97-00098-80 Final Report Review of Abbott Laboratories Inc.'s                              $2,034,056
6/1/00      Implementation of Section 603 Drug Pricing
            Provisions of Public Law 102-585 Under Federal
            Supply Schedule Contract Numbers V797P-5894m,
            V797P-5396x, V797P-5615n, and V797P-5282x

98-00088-79 Final Report Review of Alcon Laboratories Inc.'s                                $492,008
6/1/00      Implementation of Section 603 Drug Pricing
            Provisions of Public Law 102-585 Under Federal
            Supply Schedule Contract Numbers V797P-5734n
            and V797P-5352x

00-00256-69 Reveiw of Federal Supply Schedule Proposal                $595,674
6/6/00      (Solicitation Number RFP-797-652F-99-0004)
            Sunrise Medical, Inc., Longmont, CO

98-00097-70 Final Report Postaward Review of VA's Subsistence                               $237,207
6/20/00     Prime Vendor Contracts with Alliant Foodservice,
            Inc., Deerfield, IL (Contract Numbers 10-193P-1525
            and 10-193P-1527 through 10-193P-1537)




                                                     86
Report                                                               Funds Recommended
 Number/                                                                for Better Use    Questioned
Issue Date                     Report Title                            OIG     Management   Costs

CONTRACT REVIEWS (Cont’d)

00-01380-90 Final Report, Review of Nuclear Imaging Systems           $1,947,541
6/26/00     Proposal Submitted by ADAC Laboratories Under
            Solicitation No. M6-Q7-00 Milpitas, CA

99-00098-87 Report of Survey, Purdue Frederick's and Pharma's
6/29/00     Implementation of Section 603 Drug Pricing
            Provisions of Public Law 102-585

00-00489-93 Review of Federal Supply Schedule Proposal
6/30/00     Submitted by Krasity's Medical and Surgical Supply,
            Inc. Under Solicitation Number RFP-797-FSS-99-
            0025

00-00264-98 Review of Federal Supply Schedule Proposal
7/20/00     Submitted by Invacare Corporation, Elyria, Ohio,
            Under Solicitation Number 797-652F-99-0004

00-01693-101 Review of Proposal Submitted by Department of              $179,777
7/31/00      Radiology Baylor College of Medicine for the
             Services of a Neuroradiologist, Angiographer, and
             General Radiologist at the VA Medical Center
             Houston, Texas

00-01719-103 Review of Fujisawa Healthcare, Inc.'s Voluntary                                    $6,887
8/24/00      Disclosure and Refund Offer Related to
             Implementation of Section 603, Drug Pricing
             Provisions of Public Law 102-585 Under Federal
             Supply Schedule Contract Number V797P-5238x

99-00097-115 Final Report - Review of Bausch & Lomb                                             $4,928
9/6/00       Pharmaceutical, Inc.'s Implementation of Section 603,
             Drug Pricing Provisions of Public Law 102-585 under
             Federal Supply Schedule Contract Numbers V797P-
             5495M and V797P-5279X

00-00265-100 Review of Proposal for Primary Care Services at             $21,600
9/7/00       Community-Based Outpatient Clinic in Greensburg,
             Pennsylvania, Submitted to VA Pittsburgh Healthcare
             System by University of Pittsburgh Medical Center,
             Presbyterian, Pittsburgh, PA

00-01633-118 Postaward Review of VA's Subsistence Prime Vendor                                  $5,841
9/18/00      Contract with Virginia Foodservice, Inc. Contract
             Number 10-193P-1538




                                                      87
Report                                                               Funds Recommended
 Number/                                                                for Better Use    Questioned
Issue Date                     Report Title                            OIG     Management   Costs

CONTRACT REVIEWS (Cont’d)

00-00241-122 Review of Federal Supply Schedule Proposal
9/26/00      Submitted by Alaris Medical Systems, Inc., San
             Diego, California Under Solicitation Number RFP
             797-FSS-99-0025

00-01379-123 Review of Proposal Submitted by SVA America for
9/26/00      Nuclear Imaging Systems Under Solicitation Number
             M6-Q7-00 Twinsburg, OH

00-01634-125 Postaward Review of VA's Subsistence Prime Vendor                                $221,007
9/28/00      Contract with Springfield Foodservice Corporation
             Contract Number 10-193P-1526

ADMINISTRATIVE INVESTIGATIONS

99-01455-54 Administrative Investigation, Travel Reimbursement                                   $495
4/3/00      Issue, Central Alabama Veterans Health Care System

99-00875-58 Administrative Investigation, Reprisal Issues, VA
4/18/00     Great Lakes Health Care System Hines, IL

99-00875-50 Administrative Investigation, Conflict of Interest and
5/11/00     Other Issues, VA Great Lakes Health Care System,
            Hines, IL

99-01780-67 Administrative Investigation, Prosthetic Service
5/26/00     Procurement Issue, VA Medical Center Denver, CO

00-00906-96 Administrative Investigation, Reimbursement for
7/12/00     Quarters-Related Expenses, VA Medical Center
            Mountain Home, TN

99-01793-102 Administrative Investigation, Improper Approval for
8/4/00       the Sale and Consumption of Alcohol, Carl T. Hayden
             VA Medical Center Phoenix, AZ

00-00894-121 Administrative Investigation, Use of Appropriated
9/26/00      Funds for Meals and Refreshments, VBA Regional
             Office Seattle, WA

99-01208-124 Administrative Investigation: Employee Quarters and                                $1,170
9/27/00      Other Issues, VA Medical Center Houston, TX




                                                       88
Report                                                               Funds Recommended
 Number/                                                                for Better Use    Questioned
Issue Date                     Report Title                            OIG     Management   Costs

HEALTHCARE INSPECTIONS
00-00847-62 Inspection of Alleged Untimely Patient Transfer, Jerry
5/11/00     L. Pettis VA Memorial Medical Center Loma Linda,
            CA

99-01432-78 Healthcare Inspection, Patient Care and Surgical
6/14/00     Management Issues at Overton Brooks VA Medical
            Center Shreveport, LA

98-00449-89 Letter Report, Focused Review of Veterans Health
6/29/00     Administration's Long-Term Patient Discharge
            Planning

00-00025-95 Healthcare Inspection, Patient Care Issue at the VA
8/4/00      Medical Center Omaha, NE

99-01411-112 Treatment Provided to a Patient at the Department of
8/23/00      Veterans Affairs Medical Center New Orleans, LA

00-01019-110 Patient Care Management Issue at the Carl Vinson
8/23/00      Department of Veterans Affairs Medical Center
             Dublin, GA

00-01202-114 Healthcare Inspection, Destruction of
8/31/00      Cineangiocardiography (CINE) Films, William
             Jennings Bryan Dorn VA Medical Center Columbia,
             SC

00-00025-111 Healthcare Inspection, Multiple Management and
9/5/00       Patient Care Issues at the Department of Veterans
             Affairs Medical Center Omaha, NE

98-01428-119 Healthcare Inspection, Patient Care Issues of
9/28/00      Homeless Domiciliary Patients, Northern Arizona VA
             Health Care System (NAVAHCS) Prescott, AZ

TOTAL:                           74 Reports                          $36,683,286   $27,680,279   $3,873,744




                                                      89
90
                                          APPENDIX B

                           DEPARTMENT OF VETERANS AFFAIRS
                             OFFICE OF INSPECTOR GENERAL
                         CONTRACT REVIEWS BY OTHER AGENCIES

                                                                                  Funds
                                                                               Recommended
                                                                                for Better Unsupported
           Report Title (Report Number, Issue Date)                                 Use       Costs

Proposal, Project No. 589-401 A/E, VAMC Kansas City, J. Christopher Gale &
Co., Kansas City, MO (2000-00021-PE-0102-N02, 4/26/00)

Claim, Project No. 609-019 Construction, VAMC Marion, Huber, Hunt & Nichols,         $95,235
Inc., Indianapolis, IN (2000-00021-PE-0105-N02, 5/9/00)

Proposal, Project No. 852-026 A/E, VA National Cemetery St. Louis, Ottolino
Winters Huebner, St. Louis, MO (2000-00021-PE-0202-N02, 5/11/00)

TOTALS:                                   3 Reports                                  $95,235       $0

The Defense Contract Audit Agency completed all reports issued. This data is also reported in the
Department of Defense OIG's Semiannual Report to Congress.




                                                      91
92
                                            APPENDIX C

                         CONTRACT REVIEW REPORTS FOR WHICH A
                             CONTRACTING OFFICER DECISION
                         HAD NOT BEEN MADE FOR OVER 6 MONTHS

                                                               Recommended       Reason for Delay
                                                  Questioned     Better Use      and Planned Date
 Report Title, Number, and Issue Date               Costs         of Funds        for a Decision

 Contract Reviews by OIG

 OFFICE OF ACQUISITION AND MATERIEL MANAGEMENT
Audit of Claims and Requests for Equitable                         $394,154    Claim in litigation; no
Adjustments Submitted by Bay Construction Company,                             planned resolution date
Contract Number V662C-1439,                                                    available.
8PE-E10-082, 3/25/98

Audit of Claim for Alleged Damages Under an                        $318,008    Claim in litigation; no
Agreement with a VAMC, 8PE-A12-104, 7/1/98                                     planned decision date
                                                                               available.

Review of Federal Supply Schedule Proposal                        $2,409,502   Pending receipt of
(Solicitation Number M5-Q50-97) Baxter Healthcare                              Contracting Officer Price
Corporation, Deerfield, IL, 9PE-X01-022, 2/4/99                                Negotiation Memorandum
                                                                               (PNM); anticipated award
                                                                               date is October 31, 2000.

Review of Federal Supply Schedule Proposal                         $680,400    Pending receipt of
(Solicitation Number M3-QF-98), Everest & Jennings,                            Contracting Officer PNM;
Earth City, MO, 9PE-E02-036, 2/23/99                                           anticipated award date is
                                                                               December 31, 2000.

Review of Federal Supply Schedule Proposal                       $18,747,758   Pending receipt of
(Solicitation Number M5-Q50-97 OSI) Ortho-McNeil                               Contracting Officer PNM;
Pharmaceutical, Inc., Raritan, NJ, 99-00143-017,                               anticipated award date is
11/10/99                                                                       October 31, 2000.

Review of Alternate Federal Supply Schedule Pricing               $1,006,434   Pending receipt of
Proposal (Solicitation Number M6-Q5-98), Circon                                Contracting Officer PNM;
ACMI, Stamford, CT, 00-00795-040, 2/8/00                                       no planned decision date
                                                                               available.




                                                      93
                                      Recommended                                Reason for Delay
                                        Better Use Unsupported                   and Planned Date
 Report Title, Number, and Issue Date    of Funds     Costs                       for a Decision

 Contract Reviews by Other Agencies

 OFFICE OF ACQUISITION AND MATERIEL MANAGEMENT

Claim, Contract V101DC-0048, Expand/Renovate            $1,469,934             Claim in litigation; no
Bldg-1, VAMC Salt Lake, Interwest Construction Salt                            planned resolution date
Lake City, UT, 7PE-N03-114, 9/30/97                                            available.

Claim, Contract No. V621C-505, Correct Lake               $300,626             Claim in litigation; no
Drainage, VAMC Mountain Home, TN, Carpenter                                    planned resolution date
Construction, Inc., Robbinsville, NC,                                          available.
9PE-N03-107, 5/12/99

Proposal, Project No. 543-015, Sprinkler & Fire Alarm   $1,109,745             Claim in litigation; no
Pro., VAMC Columbia, SC, Fire Security System, Inc.,                           planned resolution date
Bossier City, LA, 9PE-N03-108, 7/27/99                                         available.

Claim, Contract No. V640P-5285, Transportation          $1,463,111             Claim in appeal; no planned
Services, VA HCS Palo Alto, Bay Trans Company,                                 resolution date available.
Inc., Santa Clara, CA, 9PE-N03-111, 8/18/99

 OFFICE OF FACILITIES MANAGEMENT (VHA)
Adjustment Claim, V101C-1606, Construction Service,       $271,599             Negotiation not finalized;
VAMC Albany, Bhandari Constructors Inc., Syracuse,                             planned resolution by
NY, 5PE-N02-007, 3/31/95                                                       June 30, 2001.

Claim, Contract V101C-1532, Asbestos Removal              $875,708    $1,898   Negotiation not finalized;
VAMC W. Roxbury, Saturn Construction Co., Inc.,                                planned resolution by
Valhalla, NY, 5PE-N02-006, 2/23/96                                             June 30, 2001.

Proposal, Project No. 672-045, Change Order               $284,827             Negotiation not finalized;
Outpatient Clinic Addition, VAMC San Juan, J. A.                               planned resolution by
Jones Construction Co., San Juan, PR,                                          January 15, 2001.
7PE-N02-007, 12/9/97

Claim, Contract No. V101BC131, Ambulatory Care          $3,787,571             Negotiation not finalized;
Addition, VAMC San Juan, J. A. Jones Construction                              planned resolution by
Co., Charlotte, NC, 9PE-N02-013, 4/6/99                                        January 15, 2001.

Proposal, Project No. 614-011, Seismic/Modernization,   $1,912,868             Negotiation not finalized; no
VAMC Memphis, Caddell Construction, 9PE-N02-007,                               planned resolution date
9/15/99                                                                        available.

Claim, Contracting No. V101CC-0052, Construction,       $24,261,851            Negotiation not finalized; no
VAMC Detroit, Centex Construction Company, Dallas,                             planned resolution date
TX, 1999-03107-PE-0107-N02, 10/26/99                                           available.




                                                        94
                                      Recommended                   Reason for Delay
                                        Better Use Unsupported      and Planned Date
 Report Title, Number, and Issue Date    of Funds     Costs          for a Decision

 OFFICE OF FACILITIES MANAGEMENT (VHA) (Cont’d)

Claim, Project No. 317-007, Construction, VARO St.   $2,866,738   Negotiation not finalized; no
Petersburg, J. Kokolakis Contracting, Inc., Tarpon                planned resolution date
Springs, FL, 1999-03115-PE-0201-N02, 12/22/99                     available.

Claim, Project No. 508-018C, Clinical Addition,      $2,187,794   Negotiation not finalized; no
VAMC Atlanta, Caddell Construction, Co.,                          planned resolution date
Montgomery, AL, 1999-03095-PE-0001-N02,                           available.
12/29/99

Claim, Contract No. V101AC0141, Construction,         $149,760    Negotiation not finalized; no
VAMC Mt. Home, Summit Construction Company,                       planned resolution date
Inc., Cuyahoea Falls, OH, 2000-00021-PE-0002-                     available.
N02, 3/21/00

 OFFICE OF THE GENERAL COUNSEL

Claim, Project No. 690-035 MFI Addition, VAMC         $724,755    General Counsel in
Brockton, Saturn Construction Co., Inc., Valhalla                 settlement discussions; no
NY, 6PE-N02-001, 5/19/97                                          planned resolution date
                                                                  available.

Proposal, Project No. 543-015, Sprinkler & Fire       $503,356    Claim in litigation; planned
Alarm Pro, VAMC Columbia Fire Security Systems,                   resolution by January 31,
Inc., Bossier City, LA, 8PE-N03-110, 3/19/98                      2001.

Claim, Contract V101C-1651, Environment              $7,370,861   General Counsel in
Improvement, VAMC North Chicago, Blount Inc.,                     settlement discussions; no
4PE-N02-202, 2/7/96                                               planned resolution date
                                                                  available.




                                                      95
96
                                          APPENDIX D

                 FOLLOW UP/RESOLUTION OF OIG RECOMMENDATIONS

The Inspector General Act Amendments of 1988 require identification of all significant management
decisions with which the Inspector General is in disagreement and all significant and other
recommendations unresolved for over 6 months (management decisions not made). We had no Inspector
General disagreements on significant management decisions and there were no internal audit
recommendations unresolved for over 6 months as of the end of this reporting period. Contract report
recommendations unresolved for over 6 months are included in Appendix C.

Following are tables which provide a summary of the number of OIG reports with potential monetary
benefits that were unresolved at the beginning of the period, the number of reports issued and resolved
during the period with potential monetary benefits, and the number of reports that remained unresolved at
the end of the period.

As required by the IG Act Amendments, Tables 1 - 3 provide statistical summaries of unresolved and
resolved reports for this reporting period. The dollar figures used throughout this report are based on the
definitions included in the IG Act Amendments of 1988. The figures may reflect changes from the data
in the individual reports due to OIG validation to ensure compliance with the IG Act Amendments
definitions.

TABLE 1 - SUMMARY OF UNRESOLVED AUDIT REPORTS

Table 1 provides a summary of all unresolved reports and the length of time they have been unresolved.


                  MONTHS               TYPE AUDIT                NUMBER          TOTAL
                    Over               Internal Audit               0
                                                                                    22
                  6 Months            Contract Review                22
                  Less Than            Internal Audit                0
                                                                                    6
                   6 Months           Contract Review                6
                                                         TOTAL                      28

Tables 2 and 3 show a total of 27 reports that were unresolved as of September 30, 2000. This number
differs from the 28 reports shown above because tables 2 and 3 include only reports with monetary
benefits as required by the IG Act Amendments. Tables 2 and 3 also provide the reports resolved during
the period with the OIG estimates of disallowed costs and funds to be put to better use, including those in
which management agreed to implement OIG recommendations and those in which management did not
agree to implement OIG recommendations. The Assistant Secretary for Management maintains data on
the agreed upon reports and Management estimates of disallowed costs and funds to be put to better use
in order to comply with the reporting requirements for the Secretary's Management Report to Congress,
required by the IG Act Amendments.




                                                    97
TABLE 2 - RESOLUTION STATUS OF REPORTS WITH QUESTIONED COSTS

Table 2 summarizes reports, the dollar value of questioned costs, and the costs disallowed and allowed.


                                                                    NUMBER           QUESTIONED
                    RESOLUTION STATUS                                 OF                 COSTS
                                                                    REPORTS           (In Millions)
    No management decision by 3/31/00                                    0                  $0
    Issued during reporting period                                      14                  $3.9
             Total Inventory This Period                                14                  $3.9
    Management decision during reporting period
       Disallowed costs (agreed to by management)                       14                  $3.9
       Allowed costs (not agreed to by management)                       0                  $0
            Total Management Decisions This Period                      14                  $3.9
            Total Carried Over to Next Period                             0                 $0


Definitions:

•   Questioned Costs
         For audit reports, it is the amounts paid by VA and unbilled amounts for which the OIG
recommends VA pursue collection, including Government property, services or benefits provided to
ineligible recipients; recommended collections of money inadvertently or erroneously paid out; and
recommended collections or offsets for overcharges or ineligible costs claimed.
         For contract review reports, it is contractor or grantee costs OIG recommends be disallowed by
the contracting officer, grant official, or other management official. Costs normally result from a finding
that expenditures were not made in accordance with applicable laws, regulations, contracts, grants, or
other agreements; or a finding that the expenditure of funds for the intended purpose was unnecessary or
unreasonable.

• Disallowed Costs are costs that contracting officers, grant officials, or management officials have
determined should not be charged to the Government and which will be pursued for recovery; or on
which management has agreed that VA should bill for property, services, benefits provided, monies
erroneously paid out, overcharges, etc. Disallowed costs do not necessarily represent the actual amount
of money that will be recovered by the Government due to unsuccessful collection actions, appeal
decisions, or other similar actions.

• Allowed Costs are amounts on which contracting officers, grant officials, or management officials
have determined that VA will not pursue recovery of funds.




                                                    98
TABLE 3 – RESOLUTION STATUS OF REPORTS WITH RECOMMENDED
          FUNDS TO BE PUT TO BETTER USE BY MANAGEMENT

Table 3 summarizes reports with Recommended Funds to be Put to Better Use by management, and the
dollar value of recommendations that were agreed to and not agreed to by management.


                                                                  NUMBER            RECOMMENDED
                  RESOLUTION STATUS                                 OF             FUNDS TO BE PUT
                                                                  REPORTS         TO BETTER USE (In
                                                                                         Millions)

    No management decision by 3/31/00                                 40                  $156.0
    Issued during reporting period                                    19                   $36.8
           Total Inventory This Period                                59                  $192.8
    Management decisions during reporting period
      Agreed to by management                                         29                   $90.3
      Not agreed to by management                                       3                  $26.9
           Total Management Decisions This Period                     32                  $117.2
           Total Carried Over to Next Period                          27                   $75.6

Definitions:
!    Recommended Better Use of Funds
         For audit reports, it represents a quantification of funds that could be used more efficiently if
management took actions to complete recommendations pertaining to deobligation of funds, costs not
incurred by implementing recommended improvements, and other savings identified in audit reports.
         For contract review reports, it is the sum of the questioned and unsupported costs identified in
preaward contract reviews which the OIG recommends be disallowed in negotiations unless additional
evidence supporting the costs is provided. Questioned costs normally result from findings such as a
failure to comply with regulations or contract requirements, mathematical errors, duplication of costs,
proposal of excessive rates, or differences in accounting methodology. Unsupported costs result from a
finding that inadequate documentation exists to enable the auditor to make a determination concerning
allowability of costs proposed.

! Dollar Value of Recommendations Agreed to by Management provides the OIG estimate of funds
that will be used more efficiently based on management's agreement to implement actions, or the amount
contracting officers disallowed in negotiations, including the amount associated with contracts that were
not awarded as a result of audits.

! Dollar Value of Recommendations Not Agreed to by Management is the amount associated with
recommendations that management decided will not be implemented, or the amount of questioned and/or
unsupported costs that contracting officers decided to allow.




                                                    99
100
                                           APPENDIX E

                REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL

The table below cross-references the reporting requirements to the specific pages where they are
prescribed by the Inspector General Act of 1978 (Public Law 95-452), as amended by the Inspector
General Act Amendments of 1988 (Public Law 100-504), and the Omnibus Consolidated Appropriations
Act of 1997 (Public Law 104-208).

 IG Act
References                               Reporting Requirement                                          Page

Section 4 (a) (2)    Review of legislation and regulations                                                71

Section 5 (a) (1)    Significant problems, abuses, and deficiencies                                      1-78

Section 5 (a) (2)    Recommendations with respect to significant problems, abuses, and                   1-78
                     deficiencies

Section 5 (a) (3)    Prior significant recommendations on which corrective action has not been            97
                     completed

Section 5 (a) (4)    Matters referred to prosecutive authorities and resulting prosecutions and            i
                     convictions

Section 5 (a) (5)    Summary of instances where information was refused                                   81

Section 5 (a) (6)    List of audit reports by subject matter, showing dollar value of questioned       83 to 91
                     costs and recommendations that funds be put to better use                       (App. A & B)

Section 5 (a) (7)    Summary of each particularly significant report                                      i to v

Section 5 (a) (8)    Statistical tables showing number of reports and dollar value of questioned          98
                     costs for unresolved, issued, and resolved reports                                (Table 2)

Section 5 (a) (9)    Statistical tables showing number of reports and dollar value of                     99
                     recommendations that funds be put to better use for unresolved, issued, and       (Table 3)
                     resolved reports

Section 5 (a) (10)   Summary of each audit report issued before this reporting period for which no     93 to 95
                     management decision was made by end of reporting period                           (App. C)

Section 5 (a) (11)   Significant revised management decisions                                            None

Section 5 (a) (12)   Significant management decisions with which the Inspector General is in             None
                     disagreement

Section 5 (a) (13)   Information described under section 05(b) of the Federal Financial                   50
                     Management Improvement Act of 1996 (Public Law 104-208)




                                                      101
102
                                              APPENDIX F
                                     OIG OPERATIONS PHONE LIST

Investigations


Central Office Investigations Washington, DC ...................................................... (202) 565-7702
Northeast Field Office (51NY) New York, NY........................................................ (212) 807-3444
      Boston Resident Agency (51BN) Bedford, MA................................................... (781) 687-3138
      Newark Resident Agency (51NJ) Newark, NJ..................................................... (973) 645-3590
      Pittsburgh Resident Agency (51PB) Pittsburgh, PA............................................ (412) 784-3818
      Washington Resident Agency (51WA) Washington, DC.................................... (202) 691-3338
Southeast Field Office (51SP) Bay Pines, FL ............................................................ (727) 398-9559
      Atlanta Resident Agency (51AT) Atlanta, GA .................................................... (404) 929-5950
      Columbia Resident Agency (51CS) Columbia, SC ............................................. (803) 695-6707
      Nashville Resident Agency (51NV) Nashville, TN ............................................. (615) 736-7200
      New Orleans Resident Agency (51NO) New Orleans, LA.................................. (504) 619-4340
      West Palm Beach Resident Agency (51WP) West Palm Beach, FL................... (561) 882-7720
Central Field Office (51CH) Chicago, IL .................................................................. (708) 202-2676
      Dallas Resident Agency (51DA) Dallas, TX........................................................ (214) 655-6022
      Denver Resident Agency (51DV) Denver, CO .................................................... (303) 331-7673
      Houston Resident Agency (51HU) Houston, TX................................................. (713) 794-3652
      Kansas City Resident Agency (51KC) Kansas City, KS ..................................... (913) 551-1439
Western Field Office (51LA) Los Angeles, CA ......................................................... (310) 268-4268
      Phoenix Resident Agency (51PX) Phoenix, AZ .................................................. (602) 640-4684
      San Francisco Resident Agency (51SF) Oakland, CA......................................... (510) 637-1074


Healthcare Inspections


Central Office Operations Washington, DC ........................................................... (202) 565-8305
Healthcare Regional Office Atlanta (54AT) Atlanta, GA ..................................... (404) 929-5961
Healthcare Regional Office Chicago (54CH) Chicago, IL .................................... (708) 202-2672
Healthcare Regional Office Los Angeles (54LA) Los Angeles, CA ..................... (310) 268-3005




                                                         103
                            OIG OPERATIONS PHONE LIST (CONT’D)


Audit


Central Office Operations Washington, DC ........................................................... (202) 565-4625
Central Office Operations Division (52CO) Washington, DC................................ (202) 565-4434
Contract Review and Evaluation Division (52C) Washington, DC ....................... (202) 565-4818
Financial Audit Division (52CF) Washington, DC................................................... (202) 565-7913
      Austin Residence (52AU) Austin, TX.................................................................. (512) 326-6216
Operations Division Atlanta (52AT) Atlanta, GA.................................................... (404) 929-5921
Operations Division Boston (52BN) Bedford, MA ................................................... (781) 687-3120
      Philadelphia Residence (52PH) Philadelphia, PA................................................ (215) 381-3052
Operations Division Chicago (52CH) Chicago, IL................................................... (708) 202-2667
Operations Division Dallas (52DA) Dallas, TX......................................................... (214) 655-6000
Operations Division Kansas City (52KC) Kansas City, MO .................................. (816) 426-7100
Operations Division Los Angeles (52LA) Los Angeles, CA .................................... (310) 268-4335
Operations Division Seattle (52SE) Seattle, WA ...................................................... (206) 220-6654




                                                         104
                            APPENDIX G
                                 GLOSSARY
ADP      Automated Data Processing
BVA      Board of Veterans’ Appeals
CAP      Combined Assessment Program
C&P      Compensation & Pension
CFS      Consolidated Financial Statements
CIO      Chief Information Officer
DCIS     Defense Criminal Investigative Service
DEA      Drug Enforcement Administration
DIC      Dependency and Indemnity Compensation
DoD      Department of Defense
DoL      Department of Labor
FBI      Federal Bureau of Investigation
FDA      Food and Drug Administration
FFMIA    Federal Financial Management Improvement Act
FOIA     Freedom of Information Act
FTE      Full Time Equivalent
FY       Fiscal Year
GPRA     Government Performance and Results Act
HHS      Department of Health and Human Services
HRA      Human Resources and Administration
HUD      Department of Housing and Urban Development
IRS      Internal Revenue Service
IG       Inspector General
IT       Information Technology
MCI      Master Case Index
NCA      National Cemetery Administration
NHCU     Nursing Home Care Unit
OHI      Office of Healthcare Inspections
OIG      Office of Inspector General
OMB      Office of Management and Budget
PCIE     President’s Council on Integrity and Efficiency
PNM      Price Negotiation Memorandum
QM       Quality Management
SSA      Social Security Administration
USSS     United States Secret Service
VA       Department of Veterans Affairs
VAMC     Veterans Affairs Medical Center
VAMROC   Veterans Affairs Medical and Regional Office Center
VARO     VA Regional Office
VBA      Veterans Benefits Administration
VHA      Veterans Health Administration
VISN     Veterans Integrated Service Network
WCP      Workers’ Compensation Program




                                      105
Copies of this report are available to the public. Written requests should be sent to:

       Office of the Inspector General (53B)
       Department of Veterans Affairs
       810 Vermont Avenue, NW
       Washington, DC 20420


The report is also available on our Web Site:

       http://www.va.gov/oig/53/semiann/reports.htm

For further information regarding VA’s OIG, you may call 202 565-8620




 Cover photo of
 The Vietnam Women's Memorial,
 Washington, DC




                                          106
